No. ______

In the

Supreme Court of the United States
GOVERNMENT OF GUAM,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

PETITION FOR A WRIT OF CERTIORARI
LEEVIN T. CAMACHO
Attorney General
JAMES L. CANTO II
Deputy Attorney General
OFFICE OF THE ATTORNEY
GENERAL
590 S. Marine Corps Drive
Suite 901
Tamuning, Guam 96913
JOHN D.S. GILMOUR
WILLIAM J. JACKSON
FABIO C. DWORSCHAK
KELLEY DRYE
& WARREN LLP
515 Post Oak Boulevard
Suite 900
Houston, TX 77027

GREGORY G. GARRE
Counsel of Record
ROMAN MARTINEZ
BLAKE E. STAFFORD
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com
BEZALEL STERN
KELLEY DRYE
& WARREN LLP
3050 K Street, NW
Suite 400
Washington, DC 20007

Counsel for Petitioner

QUESTIONS PRESENTED
For nearly half a century, the United States Navy
discarded toxic waste at a dump that the Navy
created in the 1940s on the Island of Guam, an
unincorporated territory of the United States,
without any environmental safeguards. The Navy
then left Guam to clean up the site—a project that is
likely to cost more than $160 million. Guam brought
this suit to recover cleanup costs from the United
States under Section 107(a) of the Comprehensive
Environmental Response, Compensation, and
Liability Act (CERCLA), 42 U.S.C. § 9607(a), which
allows parties to recover remediation costs from other
responsible parties within six years of the initiation
of a remedial action. The district court concluded that
Guam’s claim could proceed.
The D.C. Circuit, however, held that Guam’s claim
was precluded by CERCLA Section 113(f)(3)(B), in a
decision that deepens two acknowledged circuit
conflicts.
Section 113(f)(3)(B) establishes a
contribution remedy for any party that “has resolved
its liability to the United States or a State for some or
all of a response action” in a “judicially approved
settlement,” subject to a three-year statute of
limitations. Id. § 9613(f)(3)(B). Here, the D.C. Circuit
held that Section 113(f)(3)(B) was triggered by a
decade-old consent decree settling claims under the
Clean Water Act (CWA)—even though that decree did
not mention CERCLA, explicitly disclaimed any
finding of liability, and left Guam exposed to future
liability. And given that Guam filed suit more than
three years after the consent decree was entered, the
court held that Guam’s action is barred.
The questions presented are:

ii
1. Whether a non-CERCLA settlement can
trigger a contribution claim under CERCLA Section
113(f)(3)(B).
2. Whether a settlement that expressly disclaims
any liability determination and leaves the settling
party exposed to future liability can trigger a
contribution claim under CERCLA Section
113(f)(3)(B).

iii
RELATED PROCEEDINGS
United States Court of Appeals (D.C. Cir.):
Guam v. United States, No. 19-5131 (Feb. 14,
2020), reh’g denied (May 13, 2020)
United States District Court (D.D.C.):
Guam v. United States, No. 17-cv-2487 (Oct. 5,
2018), appeal certified (Feb. 28, 2019)

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ....................................... i
RELATED PROCEEDINGS ..................................... iii
TABLE OF AUTHORITIES .................................... vii
OPINIONS BELOW ....................................................1
JURISDICTION ..........................................................1
STATUTORY PROVISIONS INVOLVED .................1
STATEMENT OF THE CASE ....................................1
A. Statutory Background ...................................3
B. Factual Background ......................................6
C. Proceedings Below .......................................11
REASONS FOR GRANTING THE PETITION .......13
I.

THE DECISION BELOW DEEPENS
TWO CIRCUIT SPLITS OVER THE
MEANING OF CERCLA SECTION
113(f)(3)(B) ..........................................................14
A. The Lower Courts Are Expressly
Divided About Whether Non-CERCLA
Settlements
Trigger
Section
113(f)(3)(B) ...................................................14
B. The Lower Courts Are Expressly
Divided About Whether Settlements
With Liability Disclaimers And
Reservation-Of-Rights
Clauses
Trigger Section 113(f)(3)(B) .........................17

II. THE QUESTIONS PRESENTED ARE
EXCEPTIONALLY IMPORTANT .....................21

v
TABLE OF CONTENTS—Continued
Page
III. THE DECISION BELOW IS WRONG ..............25
A. Section 113(f)(3)(B) Requires The
Resolution Of CERCLA Liability ................25
B. Section 113(f)(3)(B) Requires A Final,
Conclusive Liability Determination ............30
CONCLUSION ..........................................................35
APPENDIX
Opinion of the United States Court of Appeals
for the District of Columbia Circuit,
Government of Guam v. United States, 950
F.3d 104 (D.C. Cir. Feb. 14, 2020) .......................1a
Memorandum Opinion of the United States
District Court for the District of Columbia
Certifying
Interlocutory
Appeal,
Government of Guam v. United States, No.
1:17-cv-2487 (KBJ), 2019 WL 1003606
(D.D.C. Feb. 28, 2019) .......................................27a
Memorandum Opinion of the United States
District Court for the District of Columbia
Denying Motion to Dismiss, Government of
Guam v. United States, No. 1:17-cv-2487
(KBJ), 341 F. Supp. 3d 74 (D.D.C. Oct. 5,
2018) ...................................................................51a
Order of the United States Court of Appeals for
the District of Columbia Circuit Denying
Panel Rehearing, Government of Guam v.
United States, No. 19-1531 (D.C. Cir. May
13, 2020) .............................................................98a

vi
TABLE OF CONTENTS—Continued
Page
Order of the United States Court of Appeals for
the District of Columbia Circuit Denying
Rehearing En Banc, Government of Guam
v. United States, No. 19-1531 (D.C. Cir.
May 13, 2020) .....................................................99a
33 U.S.C. § 1311(a)................................................100a
33 U.S.C. § 1319(a), (b) .........................................101a
33 U.S.C. § 1321(a)(14), (b)(1)-(2)(A),
(3)-(5), (7)(A), (11) ............................................105a
33 U.S.C. § 1342(a)................................................110a
33 U.S.C. § 1362(6), (12) .......................................111a
42 U.S.C. § 9601(14), (21)-(25), (27) .....................112a
42 U.S.C. § 9606(a), (b) .........................................117a
42 U.S.C. § 9607(a)................................................120a
42 U.S.C. § 9613(f)(1)-(3), (g)(2)-(3) ......................122a
42 U.S.C. § 9620(a)(1) ...........................................126a
42 U.S.C. § 9622(a), (c)(1)-(2) ................................127a
Complaint for Injunctive Relief and Civil
Penalties Under the Clean Water Act,
United States v. Government of Guam, No.
02-cv-00022 (D. Guam Aug. 7, 2002)
(C.A.J.A. 82-88) ................................................130a
Consent Decree, United States v. Government
of Guam, No. 02-cv-00022 (D. Guam Feb.
11, 2004) (C.A.J.A. 90-119) ..............................138a

vii
TABLE OF AUTHORITIES
Page(s)
CASES
Asarco LLC v. Atlantic Richfield Co.,
866 F.3d 1108 (9th Cir. 2017)...................... passim
Atlantic Research Corp. v. United States,
459 F.3d 827 (8th Cir. 2006), aff’d, 551
U.S. 128 (2007).....................................................23
Atlantic Richfield Co. v. Christian,
140 S. Ct. 1335 (2020)...................... 1, 3, 21, 22, 23
Bernstein v. Bankert,
733 F.3d 190 (7th Cir. 2012), cert. denied,
571 U.S. 1175 (2014) .......................... 18, 30, 31, 34
Burlington Northern & Santa Fe Railway Co.
v. United States,
556 U.S. 599 (2009) ..............................................21
Carr v. United States,
560 U.S. 438 (2010) ..............................................32
City of Columbus v. Ours Garage & Wrecker
Service Inc.,
536 U.S. 424 (2002) ..............................................29
Consolidated Edison Co. of New York, Inc. v.
UGI Utilities, Inc.,
423 F.3d 90 (2d Cir. 2005), cert. denied,
551 U.S. 1130 (2007) ......................................14, 15
Cooper Industries, Inc. v. Aviall Services, Inc.,
543 U.S. 157 (2004) ..............................................21
Differential Development-1994, Ltd. v.
Harkrider Distributing Co.,
470 F. Supp. 2d 727 (S.D. Tex. 2007) ..................16

viii
TABLE OF AUTHORITIES—Continued
Page(s)
DMJ Associates, L.L.C. v. Capasso,
181 F. Supp. 3d 162 (E.D.N.Y. 2016) ..................15
Entergy Corp. v. Riverkeeper, Inc.,
556 U.S. 208 (2009) ..............................................29
Field v. Mans,
516 U.S. 59 (1995) ................................................29
Florida Power Corp. v. FirstEnergy Corp.,
810 F.3d 996 (6th Cir. 2015).................... 18, 19, 32
Hobart Corp. v. Waste Management of Ohio,
Inc.,
758 F.3d 757 (6th Cir. 2014), cert. denied,
574 U.S. 1122 (2015) ............................................18
ITT Industries, Inc. v. BorgWarner, Inc.,
506 F.3d 452 (6th Cir. 2007)..........................18, 19
Key Tronic Corp. v. United States,
511 U.S. 809 (1994) ..............................................22
Maine Community Health Options v. United
States,
140 S. Ct. 1308 (2020)..........................................24
MPM Silicones, LLC v. Union Carbide Corp.,
931 F. Supp. 2d 387 (N.D.N.Y. 2013) ..................16
NCR Corp. v. George A. Whiting Paper Co.,
768 F.3d 682 (7th Cir. 2014)................................18
New York v. Town of Clarkstown,
95 F. Supp. 3d 660 (S.D.N.Y. 2015) ....................16
Ngiraingas v. Sanchez,
495 U.S. 182 (1990) ................................................6

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Niagara Mohawk Power Corp. v. Chevron
USA, Inc.,
596 F.3d 112 (2d Cir. 2010) .................................15
NLRB v. SW General Inc.,
137 S. Ct. 929 (2017)............................................30
Refined Metals Corp. v. NL Industries Inc.,
937 F.3d 928 (7th Cir. 2019).................... 17, 18, 20
Russello v. United States,
464 U.S. 16 (1983) ................................................28
Trinity Industries, Inc. v. Chicago Bridge &
Iron Co.,
735 F.3d 131 (3d Cir. 2013) .................................16
Trinity Industries, Inc. v. Greenlease Holding
Co.,
903 F.3d 333 (3d Cir. 2018) .................................27
United States v. Armour & Co.,
402 U.S. 673 (1971) ..............................................30
United States v. Atlantic Research Corp.,
551 U.S. 128 (2007) ................................ 2, 5, 21, 26
United States v. Bestfoods,
524 U.S. 51 (1998) ................................................21
United States Department of Energy v. Ohio,
503 U.S. 607 (1992) ..........................................8, 27
W.R. Grace & Co.-Conn. v. Zotos
International, Inc.,
559 F.3d 85 (2d Cir. 2009) .............................14, 15

x
TABLE OF AUTHORITIES—Continued
Page(s)
STATUTES
28 U.S.C. § 1254(1)......................................................1
28 U.S.C. § 1292(b)....................................................12
33 U.S.C. §§ 1251 et seq. .............................................1
33 U.S.C. § 1319 ................................................8, 9, 28
33 U.S.C. § 1321 ........................................................28
42 U.S.C. §§ 9601 et seq. .............................................1
42 U.S.C. § 9601(23) ........................................ 4, 25, 28
42 U.S.C. § 9601(24) ........................................ 4, 25, 28
42 U.S.C. § 9601(25) ........................................ 4, 25, 28
42 U.S.C. § 9604 ..........................................................4
42 U.S.C. § 9606 ..........................................................4
42 U.S.C. § 9606(a)....................................................26
42 U.S.C. § 9607(a)............................................ i, 2, 26
42 U.S.C. § 9607(a)(4)(A) ............................................4
42 U.S.C. § 9607(a)(4)(B) ............................................5
42 U.S.C. § 9613(f) ......................................................5
42 U.S.C. § 9613(f)(1) ...................................... 5, 26, 29
42 U.S.C. § 9613(f)(3)(B) ................................... passim
42 U.S.C. § 9613(g)(2)(B) ............................................5
42 U.S.C. § 9613(g)(3)(A) ............................................6
42 U.S.C. § 9613(g)(3)(B) ......................................6, 32
42 U.S.C. § 9620 ..........................................................8

xi
TABLE OF AUTHORITIES—Continued
Page(s)
42 U.S.C. § 9622(a)................................................4, 22
48 U.S.C. § 1421a ........................................................7
Pub. L. No. 99-499, 100 Stat. 1613 (1986) .................5
Guam Pub. L. No. 35-36 (Sept. 4, 2019) ...................24
OTHER AUTHORITIES
EPA, Five Year Review of the No Action
Decision at the Ordot Landfill Superfund
Site in Guam (Sept. 1993),
https://semspub.epa.gov/
work/09/100002992.pdf ..........................................9
EPA, Second Five-Year Review: Ordot
Landfill Site (Sept. 2002),
https://semspub.epa.gov/work/09/
123074.pdf ..............................................................9
EPA, Superfund Record of Decision: Ordot
Landfill (Sept. 1988),
https://nepis.epa.gov/Exe/ZyPDF.cgi/
9100OBTC.PDF?Dockey=9100OBTC.PDF ...........8
EPA, Third Five-Year Review Report for
Ordot Landfill Superfund Site (Sept.
2007), https://semspub.epa.gov/work/09/
100002994.pdf ......................................................10
Gov’t Accountability Office, GAO-19-157SP,
High-Risk Series: Substantial Efforts
Needed to Achieve Greater Progress on
High-Risk Areas (2019)........................................22
H.R. Rep. No. 99-253 (1985) .................................5, 28

xii
TABLE OF AUTHORITIES—Continued
Page(s)
Office of Mgmt. & Budget, A Budget for
America’s Future: Analytical Perspectives
(Feb. 10, 2020), https://www.govinfo.gov/
content/pkg/BUDGET-2021-PER/
pdf/BUDGET-2021-PER.pdf................................24
Justin R. Pidot & Dale Ratliff, The Common
Law of Liable Party CERCLA Claims, 70
Stan. L. Rev. 191 (2018) ........................................4
Restatement (Second) of Torts § 886A(2)
(1979) ....................................................................27
Restatement (Third) of Torts § 23 cmt. b
(2000) ....................................................................27

PETITION FOR A WRIT OF CERTIORARI
The Government of Guam (Guam) respectfully
petitions this Court for a writ of certiorari to review
the judgment of the United States Court of Appeals
for the District of Columbia Circuit in this case.
OPINIONS BELOW
The opinion of the court of appeals (App. 1a-26a)
is reported at 950 F.3d 104. The opinion of the district
court certifying the case for interlocutory appeal (App.
27a-50a) is available at 2019 WL 1003606. The
opinion of the district court denying the United
States’ motion to dismiss (App. 51a-97a) is reported
at 341 F. Supp. 3d 74.
JURISDICTION
The court of appeals entered its judgment on
February 14, 2020 (App. 1a) and denied rehearing on
May 13, 2020 (App. 98a-99a). Pursuant to this
Court’s Order of March 19, 2020, a petition for a writ
of certiorari is timely if filed within 150 days of an
order denying a petition for rehearing. This Court has
jurisdiction under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
Relevant portions of the Comprehensive
Environmental Response, Compensation, and
Liability Act of 1980 (CERCLA), 42 U.S.C. §§ 9601 et
seq., and the Clean Water Act (CWA), 33 U.S.C.
§§ 1251 et seq., are reproduced at App. 100a-29a.
STATEMENT OF THE CASE
Just last Term, this Court observed that
“[s]ettlements are the heart of the Superfund
statute.” Atlantic Richfield Co. v. Christian, 140 S.
Ct. 1335, 1355 (2020). This case presents two

2
acknowledged and longstanding circuit splits that
strike at the core of CERCLA’s settlement provisions
and their impact on a settling party’s ability to share
cleanup costs with other responsible parties. The
court of appeals, district court, and United States all
recognized not only the existence of these circuit
conflicts but also that each is dispositive here.
The conflicts arise out of the interaction between
two CERCLA provisions authorizing the recoupment
of cleanup costs from another responsible party.
Section 107(a) allows a responsible party to recover
cleanup costs from other responsible parties. 42
U.S.C. § 9607(a).
Section 113(f)(3)(B) allows a
responsible party that “has resolved its liability to the
United States or a State for some or all of a response
action” in a settlement to “seek contribution” from
other responsible parties.
Id. § 9613(f)(3)(B).
Because Section 113(f)(3)(B) has a shorter limitations
period (three years, instead of six), lower courts have
held that it is exclusive—once a settlement triggers
Section 113(f)(3)(B), it bars an otherwise available
claim under Section 107(a).
The scope and
“intersection of [these] provisions” is thus a critical
issue that courts “frequently grapple[] with,” with this
Court intervening when they split. United States v.
Atlantic Research Corp., 551 U.S. 128, 131 (2007).
The D.C. Circuit’s decision in this case deepens
two splits over when a settlement triggers Section
113(f)(3)(B). First, the circuits are divided over
whether a non-CERCLA settlement can trigger a
CERCLA
contribution
claim
under
Section
113(f)(3)(B). The Second Circuit has held that the
answer to that question is no, while the Third,
Seventh, Ninth, and now D.C. Circuits have held that
the answer is yes. Second, the circuits are divided

3
over whether a settlement that explicitly disclaims a
determination of liability and leaves the settling
party exposed to future liability can trigger Section
113(f)(3)(B). The Sixth and Seventh Circuits have
held that the answer is no, the D.C. Circuit has now
held that the answer is yes, and the Ninth Circuit has
staked out a middle ground position.
Two acknowledged splits on recurring issues of
unquestionable importance provide a compelling
reason to grant review. But the need for certiorari is
heightened by the undeniably “harsh” (App. 26a)
consequences of the D.C. Circuit’s decision: Guam is
left on the hook for all of the costs—more than $160
million—of cleaning up a waste site that the United
States Navy itself created and then used to dump
toxic wastes for decades going back to World War II.
That figure is a staggering sum for the people of
Guam, alone comprising nearly a fifth of its total
annual budget. Meanwhile, the United States, which
indisputably is a responsible party, gets off scot-free.
That result strikes at the heart of CERCLA’s central
aims, is the product of an untenable reading of the
relevant statutory provisions, and unjustly penalizes
the people of Guam. Certiorari is warranted.
A. Statutory Background
1. Enacted in 1980, CERCLA “seeks ‘to promote
the timely cleanup of hazardous waste sites and to
ensure that the costs of such cleanup efforts [are]
borne by those responsible for the contamination.’”
Atlantic Richfield, 140 S. Ct. at 1345 (alteration in
original) (citation omitted). Under CERCLA, once the
Environmental Protection Agency (EPA) has
designated a contaminated site for cleanup, EPA can
either (1) undertake an appropriate “response” action

4
itself using the “Superfund” to pay for it, 42 U.S.C.
§ 9604; or (2) compel responsible parties to undertake
a “response action,” which EPA then monitors, id.
§ 9606. EPA is also authorized to “enter into an
agreement” with a responsible party “to perform any
response action” if EPA “determines that such action
will be done properly.” Id. § 9622(a).
CERCLA defines the term “response” to mean a
“removal” action and “remedial” action. 42 U.S.C.
§ 9601(25). A “removal” action is defined as the
“cleanup or removal of hazardous substances from the
environment” as well as any of several actions “taken
in the event of . . . the release or threat of release of
hazardous substances.” Id. § 9601(23). A “remedial”
action is an action “consistent with permanent
remedy taken instead of or in addition to removal
actions in the event of a release or threatened release
of a hazardous substance into the environment, to
prevent or minimize the release of hazardous
substances so that they do not migrate to cause
substantial danger to present or future public health
or welfare or the environment.” Id. § 9601(24).
2. The costs of cleaning up a so-called
“Superfund” site can be staggering, often exceeding
hundreds of millions of dollars. See, e.g., Justin R.
Pidot & Dale Ratliff, The Common Law of Liable
Party CERCLA Claims, 70 Stan. L. Rev. 191, 200 &
n.40 (2018). CERCLA is accordingly designed to
ensure that the liability for such costs is fairly
allocated among all responsible parties.
Section 107(a) of CERCLA provides that
potentially responsible parties (PRPs) “shall be liable”
for, among other things, “all costs of removal or
remedial action incurred by the United States
Government or a State or an Indian tribe,” 42 U.S.C.

5
§ 9607(a)(4)(A), as well as “any other necessary costs
of response incurred by any other person,” id.
§ 9607(a)(4)(B), including another PRP. See Atlantic
Research, 551 U.S. at 135-36. Claims to recover
remediation costs under Section 107(a) are subject to
a six-year limitations period triggered by the
“initiation” of a “remedial action.”
42 U.S.C.
§ 9613(g)(2)(B).
In
the
Superfund
Amendments
and
Reauthorization Act of 1986 (SARA), Pub. L. No. 99499, 100 Stat. 1613, Congress clarified that parties
“liable under CERCLA [can] seek contribution from
other potentially liable parties,” H.R. Rep. No. 99-253,
pt. 1, at 79 (1985), by adding an express cause of
action for contribution in CERCLA Section 113(f), 42
U.S.C. § 9613(f). Under Section 113(f)(1), “[a]ny
person may seek contribution from any other person
who is liable or potentially liable under [Section
107(a)], during or following any civil action under
[Section 106] or [Section 107(a)].” Id. § 9613(f)(1).
In order to encourage “[s]ettlement with the
government under CERCLA,” H.R. Rep. No. 99-253,
pt. 3, at 19 (1985), SARA also clarified that the right
to seek contribution extends to settling parties by
adding Section 113(f)(3)(B). It states:
A person who has resolved its liability to
the United States or a State for some or
all of a response action or for some or all
of the costs of such action in an
administrative or judicially approved
settlement may seek contribution from
any person who is not a party to a
settlement referred to in paragraph (2).

6
42 U.S.C. § 9613(f)(3)(B). Claims brought under
Section 113(f) are subject to a three-year limitations
period that commences upon either “the date of
judgment,” id. § 9613(g)(3)(A), or the “date of an
administrative order” or “entry of a judicially
approved settlement,” id. § 9613(g)(3)(B).
B. Factual Background
1. Guam is an island of just over 200 square miles
located in the west central Pacific, about a quarter of
the way from the Philippines to Hawaii—and 6000
miles from the shores of California. The United
States captured the Island in 1898 during the
Spanish-American War. The United States then
placed Guam under the control of the Navy, which
treated it as a Naval ship—the “USS Guam”—and
subjected it to military rule. App. 5a. Aside from the
period between December 1941 and July 1944, when
the Japanese military invaded and brutally occupied
the Island, the Navy exercised exclusive control over
Guam from 1898 until Congress passed the Guam
Organic Act in 1950, which purported to transfer
power from the military to a civilian government. See
Ngiraingas v. Sanchez, 495 U.S. 182, 186 (1990).
Even then, however, the Federal Government
retained a tight grip on the Island. For example,
visitors could not access the Island without a security
clearance until the 1960s, and the Governor of Guam
was handpicked by the Federal Government until
1970. App. 5a; C.A.J.A. 23-24. Despite its residents
being granted U.S. citizenship in 1950, Guam’s first
publicly elected governor did not take office until
decades later in 1971. C.A.J.A. 24. And the Navy
continued to use the Island for military purposes

7
during the Korean and Vietnam Wars, taking
advantage of its vital strategic location.
Today, Guam remains an unincorporated territory
of the United States, see 48 U.S.C. § 1421a, with
nearly 170,000 residents. The United States military
maintains a heavy presence on the Island, occupying
approximately 25% of the Island’s land mass and
operating two separate bases (Naval Base Guam and
Andersen Air Force Base), with a third (Marine Corps
Base Camp Blaz) currently under construction.
2. a. In the 1940s, while the Navy had exclusive
control over the Island, the Navy created a waste
site—the Ordot Dump—for the disposal of municipal
and military waste, in a ravine that slopes into the
Lonfit River. App. 5a-6a. Unlined at the bottom and
uncapped at the top, the Ordot Dump absorbed rain
and surface water, which percolated through the site
and mixed with waste. Id. at 6a. This toxic mixture
would then flow into the Lonfit River and ultimately
make its way into the Pacific Ocean. Id.
Although the United States unilaterally
transferred ownership of the contaminated land to
Guam as part of the 1950 Act, the Navy continued to
use the site as its own. Throughout the Korean and
Vietnam Wars, the Navy used the Ordot Dump to
dispose of munitions and toxic chemicals, including
DDT and Agent Orange. Id. at 5a-6a. “And as the
Navy continued to use the Ordot Dump, it continued
growing”—turning “‘[w]hat was once a valley’” into “‘a
280-foot mountain’” of waste. Id. at 6a (alteration in
original) (citation omitted).
The Ordot Dump
remained the only landfill on the Island—and also
was used by Guam itself for civilian purposes,
including everyday garbage—until the 1970s and the
only public landfill until its closure in 2011. Id.

8
b. Shortly after CERCLA’s enactment in 1980,
Guam requested that the Ordot Dump be remediated
with federal funds drawn from the new Superfund.
EPA opened a CERCLA investigation in 1982 and
added the Ordot Dump to the Superfund list—at
Guam’s request—in 1983. Id.; C.A.J.A. 188. In 1988,
however, EPA determined “that remedial action at
the Ordot Landfill site under [CERCLA]” was
“inappropriate” and “unnecessary,” and that the
problems at the Ordot Dump would be better
addressed “through enforcement of the Clean Water
Act [(CWA)].” EPA, Superfund Record of Decision:
Ordot Landfill 12-14 (Sept. 1988).1
EPA thus
declined CERCLA remediation, “choosing no action as
the preferred alternative.” Id. at 14.
Given the Navy’s direct role in creating and
contaminating the Ordot Dump, EPA unsurprisingly
identified the Navy as a “potentially responsible
party.” Id. at 2. But EPA’s decision to proceed under
the CWA—instead of CERCLA—had a crucial impact
on the United States’ own liability for cleanup costs.
While the United States is subject to liability under
CERCLA (see 42 U.S.C. § 9620), it is not subject to
liability under the applicable CWA provision, 33
U.S.C. § 1319. See United States Dep’t of Energy v.
Ohio, 503 U.S. 607, 624 (1992). Declining CERCLA
remediation and proceeding instead under the CWA
therefore allowed the United States to insulate itself
from its own cleanup responsibilities.
Over the next decade, EPA then filed several
administrative complaints against Guam—solely
under the CWA—demanding that Guam take certain
1

https://nepis.epa.gov/Exe/ZyPDF.cgi/9100OBTC.PDF?Doc
key=9100OBTC.PDF.

9
actions with respect to the Ordot Dump. See C.A.J.A.
188-89. Guam struggled to comply in large part due
to a lack of funding. Id. at 189. Unmoved by Guam’s
fiscal constraints, EPA continued to pile on penalties
under the CWA. See id. at 188-89. All the while, EPA
continued to maintain that “CERCLA remedial action
[was] unnecessary” at the site. EPA, Five Year
Review of the No Action Decision at the Ordot Landfill
Superfund Site in Guam 3-5 (Sept. 1993).2
3. In 2002, the United States filed a complaint
against Guam in the District of Guam exclusively
under the CWA, alleging that Guam violated 33
U.S.C. § 1319 by discharging pollutants into the
waters of the United States without a permit. App.
130a-37a. A few months later, EPA again concluded
that “CERCLA remedial actions” were not
“necessary.” C.A.J.A. 305; see EPA, Second Five-Year
Review: Ordot Landfill Site 19, 26 (Sept. 2002).3
To “avoid protracted litigation” over the CWA
claims, Guam and the United States entered into a
consent decree that the district court approved in
2004. App. 138a-73a. Pursuant to the express terms
of the decree, the parties agreed to “settle[]” only “the
civil judicial claims as alleged in the Complaint”—i.e.,
the CWA permitting claims under 33 U.S.C. § 1319.
App. 139a, 166a; see id. at 134a-36a. The decree
required Guam to pay a penalty, design and install a
cover, and close the Ordot Dump. Id. at 141a-51a.
But it never once mentioned CERCLA, “response
action,” or, for that matter, a “hazardous substance”
that would trigger CERCLA. See supra at 4.
2

https://semspub.epa.gov/work/09/100002992.pdf.

3

https://semspub.epa.gov/work/09/123074.pdf.

10
The 2004 CWA decree also reserved the United
States’ right to bring suit for any claims not in the
complaint, leaving Guam exposed to future liability
for any claims, under any statute, with respect to the
Ordot Dump. App. 166a. Even for the CWA claims
alleged in the complaint, the decree avoided resolving
liability: it expressly disclaimed “any finding or
admission of liability against or by the Government of
Guam,” id. at 140a, and, at the same time, expressly
conditioned the release of those claims on not only
“[e]ntry of th[e] consent decree” but also “compliance
with the requirements [t]herein,” id. at 166a.
Despite acknowledging that Guam lacked the
financial means to complete the work, id. at 150a-51a,
the decree adopted an aggressive schedule for the
closure of the Ordot Dump—a massive undertaking
given that it was the only municipal landfill on the
entire island.
Unsurprisingly, Guam’s financial
constraints hampered its ability to meet the schedule,
which eventually prompted the appointment of a
receiver that ordered Guam to take out $202 million
in bonds to pay for the projects. C.A.J.A. 141.
Meantime, EPA reiterated that “no remedial action”
was being take at the site “under CERCLA,” and,
instead, the project was solely “[u]nder Clean Water
Act authority,” as described in the consent decree.
EPA, Third Five-Year Review Report for Ordot
Landfill Superfund Site 7-1 (Sept. 2007).4
Guam finally closed the Ordot Dump and opened
a new landfill in 2011. App. 6a. But the extensive
remediation of the Ordot Dump, which began in

4

https://semspub.epa.gov/work/09/100002994.pdf.

11
December 2013, remains ongoing. C.A.J.A. 26. Total
costs are expected to exceed $160 million. App. 8a.
C. Proceedings Below
1. In light of the Navy’s undeniable responsibility
in creating and contaminating the Ordot Dump over
the course of many decades, Guam sued the United
States in 2017 for cost recovery under CERCLA
Section 107(a) and, alternatively, for contribution
under CERCLA Section 113(f)(3)(B). App. 7a-8a.
The United States moved to dismiss, asserting
that the 2004 CWA consent decree triggered a
contribution claim under Section 113(f)(3)(B) that
was now time-barred, because Guam’s suit was filed
more than three years after entry of the consent
decree. Id. at 8a. And because Sections 107(a) and
113(f) are mutually exclusive, the United States
argued, the existence of this time-barred contribution
claim required dismissal of Guam’s Section 107(a)
claim, even though that claim was timely under
Section 107(a)’s six-year limitations period. Id.
2. The district court rejected the motion to
dismiss. Id. at 51a-97a. Analyzing the “broad, openended reservation of rights, the plain non-admissions
of liability, and the conditional resolution of liability
that the agreement contains,” the court concluded
that the 2004 CWA decree did not “resolve liability
within the meaning of CERCLA section 113(f)(3)(B),”
and thus did not trigger that provision. Id. at 69a,
85a-96a. As a result, Guam could pursue its timely
Section 107(a) claim against the United States.
In reaching that conclusion, the district court
observed that “the courts of appeals diverge” over
“whether agreements that contain such clauses
should be deemed to have ‘resolved’ liability.” Id. at

12
73a. And, after detailing the circuit conflict, the court
agreed with Guam that “the Sixth and Seventh
Circuits have the better approach,” and that the
Ninth Circuit’s contrary approach—advanced by the
United States in seeking dismissal—“warps the
underlying text of CERCLA and/or the 2004 Consent
Decree beyond recognition.” Id. at 73a-90a.
The United States moved for an interlocutory
appeal under 28 U.S.C. § 1292(b), asserting that
“circuit and district courts” had issued “[c]onflicting
decisions” concerning “the correct interpretation of
CERCLA [Section 113(f)(3)(B)]” and that these
“conflicting statutory interpretations” implicated “the
dispositive legal questions” presented here. D. Ct.
Doc. 49-1, at 9-10 (Dec. 6, 2018); see D. Ct. Doc. 53, at
2 (Dec. 27, 2018) (stressing the “clear differences” and
“sharp split of legal authority on the controlling
questions of law” among the circuits). The district
court granted the motion, App. 27a-50a, agreeing that
“there is a circuit split” and that interlocutory review
was appropriate, id. at 38a-40a, 47a-48a.
3. The D.C. Circuit granted interlocutory review
and reversed. App. 1a-26a. Because Sections 107(a)
and 113(f) are “mutually exclusive,” the court
explained, “‘a party who may bring a contribution
action . . . must use the contribution action, even if a
cost recovery action would otherwise be available.’”
Id. at 10a-11a (citation omitted). All agree Guam’s
Section 107(a) claim was timely. Id. at 2a. But the
court held that Guam’s Section 107(a) claim is barred
because the 2004 CWA decree triggered Section
113(f)(3)(B), and Guam’s claim was not filed within
three years of that decree. Id. at 16a-26a.
In reaching this “harsh” result, id. at 26a, the
court first addressed the fact that the 2004 decree—

13
which was limited to CWA claims—did not purport to
resolve Guam’s CERCLA liability or, for that matter,
even mention CERCLA, id. at 16a-18a.
After
observing that the “‘circuits’” are “‘split’” on the
question whether a non-CERCLA settlement can
trigger Section 113(f)(3)(B), the court rejected the
Second Circuit’s position and joined the Third,
Seventh, and Ninth Circuits in holding that Section
113(f)(3)(B) “does not require a CERCLA-specific
settlement.” Id. at 16a-17a (citation omitted). To
support that conclusion, the court drew a negative
inference from the presence of “CERCLA-specific”
language in Section 113(f)(1). Id. at 17a-18a.
The court next determined that the terms of the
2004 decree “‘resolve[d]’ Guam’s liability” for a
response action because it required Guam to “design
and install a ‘dump cover system.’” Id. at 21a
(alterations in original) (citations omitted). The court
rejected the district court’s “thorough[ly]” reasoned
conclusion that the decree’s express disclaimer of
liability, conditional release of claims, and
reservation-of-rights clauses precluded a finding that
it “resolve[d]” liability. Id. at 9a, 22a-25a. Although
the court agreed that these provisions may have
precluded a Section 113(f)(3)(B) claim in “other
circuits,” the court held that these provisions could
not “overcome” Guam’s agreement to construct a
cover. Id. at 22a-25a.
The D.C. Circuit denied rehearing. App. 98a-99a.
REASONS FOR GRANTING THE PETITION
This case readily satisfies the Court’s criteria for
certiorari.
The D.C. Circuit’s decision below
exacerbates two acknowledged circuit splits
concerning the meaning of Section 113(f)(3)(B)—one

14
of the most consequential and frequently litigated
provisions of CERCLA. The questions presented are
unquestionably important—impacting the operation
of a critical feature of CERCLA. And, in reversing the
district court, the D.C. Circuit adopted a deeply
flawed reading of the relevant statutory provisions,
which leaves “Guam to foot the bill” for the costs of
cleaning up a dump built and used by the Navy. App.
26a. The petition should be granted.
I. THE DECISION BELOW DEEPENS TWO
CIRCUIT SPLITS OVER THE MEANING OF
CERCLA SECTION 113(f)(3)(B)
As the court of appeals, district court, and United
States all expressly acknowledged below, this case
implicates two direct circuit conflicts over the scope of
Section 113(f)(3)(B). The D.C. Circuit’s decision
deepens each of those direct conflicts.
A. The Lower Courts Are Expressly Divided
About Whether Non-CERCLA Settlements
Trigger Section 113(f)(3)(B)
As the D.C. Circuit stated, the “circuits” are “split”
on the question “[w]hether a non-CERCLA settlement
agreement may give rise to a contribution action”
under Section 113(f)(3)(B). App. 16a (citation and
internal alteration omitted); see also Gov’t C.A. Br.
19-20 & n.5 (discussing split); Gov’t C.A. Reply Br. 810 (same); C.A.J.A. 224-27 (same).
1. On one side of the split, the Second Circuit has
repeatedly held that Section 113(f)(3)(B) authorizes a
contribution claim “only when liability for CERCLA
claims, rather than some broader category of legal
claims, is resolved” in the settlement. W.R. Grace &
Co.-Conn. v. Zotos Int’l, Inc., 559 F.3d 85, 90 (2d Cir.
2009) (quoting Consolidated Edison Co. of N.Y., Inc.

15
v. UGI Utils., Inc., 423 F.3d 90, 95 (2d Cir. 2005), cert.
denied, 551 U.S. 1130 (2007)).
In Consolidated Edison, the Second Circuit found
it “clear” that only the settlement of “CERCLA
claims” will trigger Section 113(f)(3)(B), because the
statute requires the “resolution of liability for
‘response action[s],’” and “a ‘response action’ is a
CERCLA-specific term.” 423 F.3d at 95-96 (alteration
in original). That reading, the court explained, also
harmonizes Section 113(f)(3)(B) with Section
113(f)(1)—“[j]ust as a party must be sued under
CERCLA before it can maintain a section 113(f)(1)
contribution claim, it must settle CERCLA liability
before it can maintain a claim under section
113(f)(3).” Id. at 96 (citation omitted). The “operative
question” for purposes of Section 113(f)(3)(B), the
court held, is whether the settling party “resolved its
CERCLA liability” in the settlement. Id.
The Second Circuit reaffirmed this holding in W.R.
Grace, explaining that Section 113(f)(3)(B) applies
“only when liability for CERCLA claims . . . is
resolved.” 559 F.3d at 90-91 (quoting Consolidated
Edison, 423 F.3d at 95). By “mak[ing] no reference to
CERCLA,” the agreement in W.R. Grace “le[ft] open
the possibility that . . . the EPA could, at some future
point, assert CERCLA or other claims.” Id. at 91.
Because the settlement did “not resolve CERCLA
claims,” it did not trigger Section 113(f)(3)(B). Id.5
5

The United States expressed its disagreement with
Consolidated Edison more than a decade ago. See Niagara
Mohawk Power Corp. v. Chevron USA, Inc., 596 F.3d 112, 126
n.15 (2d Cir. 2010). But the Second Circuit has not changed its
position, and district courts within the Second Circuit thus
continue to follow Consolidated Edison. See, e.g., DMJ Assocs.,
L.L.C. v. Capasso, 181 F. Supp. 3d 162, 166-67 (E.D.N.Y. 2016);

16
Numerous district courts across the country have
followed the Second Circuit in concluding that nonCERCLA settlements do not support contribution
claims under Section 113(f)(3)(B).
See, e.g.,
Differential Dev.-1994, Ltd. v. Harkrider Distrib. Co.,
470 F. Supp. 2d 727, 739-40 & n.13 (S.D. Tex. 2007)
(collecting a dozen cases from different courts).
2. In the decision below, the D.C. Circuit
expressly rejected the Second Circuit’s position,
holding instead that “a settlement agreement can
trigger section 113(f)(3)(B) even if it never mentions
CERCLA.” App. 17a-18a. In so holding, the court
joined three other circuits that have adopted this rule.
The Third Circuit was the first to hold that Section
113(f)(3)(B) “does not require resolution of CERCLA
liability in particular.” Trinity Indus., Inc. v. Chicago
Bridge & Iron Co., 735 F.3d 131, 136 (3d Cir. 2013).
Rejecting the Second Circuit’s position, the court
reasoned that “Section 113(f)(3)(B) does not state that
the ‘response action’ in question must have been
initiated pursuant to CERCLA—a requirement that
might easily have been written into the provision.”
Id. Relying on the absence of such an express
requirement, the court held that the non-CERCLA
settlement at issue in that case, arising under state
law, triggered Section 113(f)(3)(B). Id.
The Ninth Circuit likewise has held that “a nonCERCLA settlement agreement may form the
necessary predicate for a § 113(f)(3)(B) contribution
action.” Asarco LLC v. Atlantic Richfield Co., 866
F.3d 1108, 1118-21 (9th Cir. 2017). Asarco involved
New York v. Town of Clarkstown, 95 F. Supp. 3d 660, 675-76
(S.D.N.Y. 2015); MPM Silicones, LLC v. Union Carbide Corp.,
931 F. Supp. 2d 387, 394-96 (N.D.N.Y. 2013).

17
settlements under the Resource Conservation and
Recovery Act (RCRA). Id. at 1114. After noting the
circuit “split” over the effect of “non-CERCLA
settlement agreement[s]” under Section 113(f)(3)(B),
the Ninth Circuit rejected the Second Circuit’s
position and held that “Congress did not intend to
limit § 113(f)(3)(B) to response actions and costs
incurred under CERCLA settlements.” Id. at 111920. Finding the statute’s text “unilluminating,” the
court rested its holding on “CERCLA’s broad remedial
purpose” and the same negative inference used by the
D.C. Circuit below. Id. at 1118-19.
The Seventh Circuit has also held that “a
settlement need not resolve CERCLA-specific liability
in order to start the clock on a contribution action”
under Section 113(f)(3)(B). Refined Metals Corp. v.
NL Indus. Inc., 937 F.3d 928, 932 (7th Cir. 2019).
Refined Metals, like Asarco, involved RCRA claims.
In concluding that this settlement nevertheless
satisfied “Congress’s intention” underlying Section
113(f)(3)(B), the Seventh Circuit noted the circuit
split but was “persuaded by the view adopted by the
Third and Ninth Circuits.” Id. at 932-34.
B. The Lower Courts Are Expressly Divided
About Whether Settlements With Liability
Disclaimers And Reservation-Of-Rights
Clauses Trigger Section 113(f)(3)(B)
There is also an acknowledged “circuit split” on
whether settlements—involving CERCLA claims or
not—“containing non-admissions of liability, broad
reservations of rights, and conditional covenants not
to sue” can “‘resolve’ liability for the purpose of
[Section 113(f)(3)(B)].”
App. 39a-40a (citations

18
omitted); see also id. at 73a-85a (discussing split);
Gov’t C.A. Br. 25-27, 32-33, 37-39 (same).
1. The Seventh Circuit has repeatedly held that a
settlement does not resolve liability for purposes of
Section 113(f)(3)(B) “when (1) the settlement
expressly state[s] that the defendant companies did
not admit any liability or the validity of the EPA’s
findings; and (2) the covenants not to sue [a]re not
immediately effective, but instead [a]re conditional on
complete performance of the terms of the settlement.”
Refined Metals, 937 F.3d at 931; see NCR Corp. v.
George A. Whiting Paper Co., 768 F.3d 682, 692 (7th
Cir. 2014); Bernstein v. Bankert, 733 F.3d 190, 212-13
(7th Cir. 2012), cert. denied, 571 U.S. 1175 (2014).
In the Seventh Circuit, the presence of such
settlement terms is “dispositive”—and precludes the
operation of Section 113(f)(3)(B). Refined Metals, 937
F.3d at 931; see Bernstein, 733 F.3d at 212-14 (holding
that a settlement did not trigger Section 113(f)(3)(B)
because it contained an “express disclaimer[] of
liability” and “condition[ed]” the release of the settled
claims on “complete performance”).
The Sixth Circuit has likewise held that a party
does not “resolve[] its liability” for purposes of Section
113(f)(3)(B) when the settlement disclaims “‘an
admission of liability’” and contains a covenant not to
sue that is “conditioned on [the settling party’s]
performance.” Florida Power Corp. v. FirstEnergy
Corp., 810 F.3d 996, 1003-04 (6th Cir. 2015) (quoting
ITT Indus., Inc. v. BorgWarner, Inc., 506 F.3d 452,
460 (6th Cir. 2007)); see also Hobart Corp. v. Waste
Mgmt. of Ohio, Inc., 758 F.3d 757, 770-71 (6th Cir.
2014), cert. denied, 574 U.S. 1122 (2015).

19
In ITT, for example, the Sixth Circuit held that a
settlement did not trigger Section 113(f)(3)(B)
because it “expressly reserve[d] [EPA’s] rights to legal
action” in the future and did not “constitute an
admission of liability” on the part of the settling
party. 506 F.3d at 459-60. The Sixth Circuit reached
the same conclusion in Florida Power, where the
settlements lacked any “admission of liability,” and
“explicitly condition[ed] the resolution of liability on
performance” in the future. 810 F.3d at 1003-04.
2. The Ninth Circuit has explicitly “disagree[d]
with the Sixth and Seventh Circuits[]” and held that
a settlement can resolve liability despite the inclusion
of a liability disclaimer and a “covenant not to sue
conditioned on completed performance.” Asarco, 866
F.3d at 1123-25; see id. at 1125 (“[U]nlike the court in
Florida Power, we conclude that it matters not that a
PRP refuses to concede liability in a settlement
agreement.”). The court justified its departure from
the Sixth and Seventh Circuits based on its view of
“Congress’ intent in enacting § 113(f)(3)(B)” and its
desire to avoid a result that might “discourage PRPs
from entering into settlements.” Id. at 1125. Thus,
in the Ninth Circuit, a settling party is deemed to
have “resolved its liability” for purposes of Section
113(f)(3)(B) as long as the settlement specifies
“compliance obligations” for “at least some of its
response actions or costs.” Id. at 1124-25.
The Ninth Circuit has qualified this rule in one
respect. It has held that a settlement that “references
[the settling party’s] continued legal exposure” in a
reservation-of-rights clause can demonstrate that the
agreement “fails to resolve . . . liability.” Id. at 112526. Thus, in Asarco, which involved two settlement
agreements, the court held that a settlement that did

20
“not restrict the United States’ authority to bring an
action under CERCLA” and compelled “additional
response obligations” did not resolve liability for
purposes of Section 113(f)(3)(B). Id. at 1126.
The district court in this case concluded that “the
Sixth and Seventh Circuits have the better approach.”
App. 73a. The D.C. Circuit, however, sided with the
Ninth Circuit in holding that a settlement can trigger
Section 113(f)(3)(B) even if it includes an express
“disclaimer of liability” and a “‘covenant not to sue’”
conditioned on “‘full implementation of the
settlement’s requirements.’” Id. at 23a-24a (citations
omitted).6 But when it came to the reservation-ofrights provisions, the court embraced the United
States’ “disagreement with [that] part of Asarco’s
holding.” Gov’t C.A. Reply Br. 18. The court held
that, despite Guam’s continued legal exposure, all
that matters is whether the settling party agreed to
perform “‘some’ of a response action.” App. 22a-23a.
The D.C. Circuit’s decision in this case thus stakes
a claim at the far end of this split.
*****
The longstanding circuit splits deepened by the
decision below thwart the uniform, nationwide
application of CERCLA. Indeed, had this case arisen
in the Second, Sixth, or Seventh Circuits, the outcome
would have been different as a matter of law—and
Guam’s action would have been allowed to proceed.
6

The court also relied on a quote from the Seventh Circuit’s
decision in Refined Metals, see App. 24a, yet failed to
acknowledge the actual holding of Refined Metals—that these
provisions together are “dispositive” to “exempt [a decree] from
the reach of section 113(f)(3)(B).” 937 F.3d at 931.

21
This disparity, untenably based on the happenstance
of geography, warrants this Court’s review.
II. THE
QUESTIONS
PRESENTED
EXCEPTIONALLY IMPORTANT

ARE

The case for certiorari is strengthened by the fact
that the questions presented are frequently recurring
and tremendously important—to both the operation
of CERCLA and the legitimacy of dealing with the
United States. Moreover, the questions are of vital
importance to Guam, which, as the D.C. Circuit
recognized, is now “left . . . to foot the bill” for cleaning
up the toxic mess that the Navy created and left
behind. App. 26a. This case also cleanly presents
both questions, providing the Court with a uniquely
optimal vehicle for resolving them.
A. 1. As this Court has recognized, lower courts
“frequently grapple[] with whether and how PRPs
may recoup CERCLA-related costs from other PRPs,”
“questions [that] lie at the intersection of” Sections
“107(a) and 113(f).”
United States v. Atlantic
Research Corp., 551 U.S. 128, 131 (2007). The
answers to these questions are undoubtedly
important, particularly given that hundreds of
millions of dollars—as well as the fair allocation of
responsibility—often hang in the balance.
Given the significance of Sections 107 and 113 to
the Superfund program, this Court has repeatedly
granted review to resolve disagreements over their
meaning. See, e.g., Atlantic Richfield Co. v. Christian,
140 S. Ct. 1335, 1352-53 (2020); Burlington N. &
Santa Fe Ry. Co. v. United States, 556 U.S. 599, 608
(2009); Atlantic Research, 551 U.S. at 131; Cooper
Indus., Inc. v. Aviall Servs., Inc., 543 U.S. 157, 160-61
(2004); United States v. Bestfoods, 524 U.S. 51, 59-60

22
(1998); Key Tronic Corp. v. United States, 511 U.S.
809, 811 (1994). Indeed, in Cooper, the Court granted
certiorari to interpret Section 113(f) even before a
circuit conflict had developed. This case presents two
concrete circuit splits over the same subsection.
What is more, these circuit conflicts concern the
settlement provisions of that subsection. As this Court
observed last Term, “[s]ettlements are the heart of the
Superfund statute.” Atlantic Richfield, 140 S. Ct. at
1355. EPA is in fact under statutory orders to
“proceed by settlement ‘[w]henever practicable,’”
which has led EPA to seek settlements in the majority
of cases involving cleanup work. Id. (quoting 42
U.S.C. § 9622(a)). Allowing these circuit splits to
persist will frustrate that objective by exacerbating
confusion over what kinds of settlements trigger
Section
113(f)(3)(B)—producing
significant
uncertainty for parties who settle with EPA,
consuming considerable time and resources in
CERCLA litigation, and ultimately upsetting a core
feature of the Superfund program.
2. The unsettled meaning of Section 113(f)(3)(B)
has a particularly pernicious effect when, as here, the
United States is itself a responsible party—a
situation that is by no means rare. See Gov’t
Accountability Office, GAO-19-157SP, High-Risk
Series: Substantial Efforts Needed to Achieve Greater
Progress on High-Risk Areas 138-42 (2019).
When negotiating the 2004 CWA decree, the
United States thus had every incentive not to inform
Guam of its view that the decree started the shorter,
three-year clock on seeking contribution under
CERCLA Section 113(f)(3)(B). Indeed, the United
States consistently said—in 1988, 1993, 2002, and
2007, when it faced exposure for the cleanup costs—

23
that CERCLA remediation was not warranted at the
Ordot Dump. See supra at 8-10. The United States
chose instead to sue Guam under the CWA’s
permitting provision—pursuant to which the United
States enjoys immunity from suit, see supra at 8—
while reserving the right to bring claims, under any
statute, against Guam in the future.
Guam had no reason to think that, in negotiating
the CWA decree, it was triggering its CERCLA
contribution rights. And, instead of informing Guam
of its view that this deliberately non-CERCLA
settlement would trigger a CERCLA-specific
contribution claim under Section 113(f)(3)(B), the
United States remained silent. This settlement
would not have triggered a contribution claim in the
Second, Sixth, or Seventh Circuits—yet, under the
decision below, Guam is left on the hook for the entire
$160 million in cleanup costs.
That result is
fundamentally at odds with CERCLA’s aim of
“ensur[ing]” that cleanup costs are “borne by those
responsible for the contamination.”
Atlantic
Richfield, 140 S. Ct. at 1345 (citation omitted).
This is not the first time the United States has
tried to “insulate itself from responsibility for its own
pollution” by exploiting its “dual role” as both
“CERCLA’s primary enforcer” and “a liable party.”
Atlantic Research Corp. v. United States, 459 F.3d
827, 837 (8th Cir. 2006), aff’d, 551 U.S. 128 (2007).
Nor will it be the last. The United States has an
incentive to avoid liability for cleanup costs. And,
regardless of the tactics it pursues, the conflict and
confusion over the scope of Section 113(f)(3)(B) only
increases the risk that the United States will seek to
evade responsibility for its actions, and that those
dealing with the United States (like Guam here) will

24
fall prey to this trap for the unwary. This Court’s
review is warranted. Cf. Maine Cmty. Health Options
v. United States, 140 S. Ct. 1308, 1319 (2020)
(granting review to correct a “decision [that] would
‘undermin[e] the reliability of dealings with the
government’” (alteration in original) (citation
omitted)).
3. This Court’s review is also extraordinarily
important to the people of Guam. As the United
States well knows, Guam’s fiscal position is fragile.
The lack of funding delayed Guam’s ability to
construct a new landfill for decades and thereby
delayed Guam’s ability to clean up the Ordot Dump.
See supra at 9-10. Saddling Guam with the entirety
of the $160 million cleanup bill will dramatically
impact Guam’s budget—and people. That bill alone
amounts to nearly 20% of Guam’s entire budget for
2020. See Guam Pub. L. No. 35-36 (Sept. 4, 2019).
That is a crippling figure; an equivalent bill for the
Federal Government would be nearly $1 trillion. See
Office of Mgmt. & Budget, A Budget for America’s
Future: Analytical Perspectives 85 tbl.8-1 (Feb. 10,
2020).7
The result in this case is also particularly “harsh”
(App. 26a), given the United States’ undeniable
responsibility. The Navy created the Ordot Dump
and used it—including to dump DDT and Agent
Orange—for decades. Yet, under the decision below,
the United States will escape any liability for its role
under CERCLA, with Guam and its residents forced
to subsidize the cleanup of the Navy’s waste, based on
a consent decree that had nothing to do with
7

https://www.govinfo.gov/content/pkg/BUDGET-2021-PER/
pdf/BUDGET-2021-PER.pdf.

25
CERCLA—and expressly disclaimed liability on the
claims it did settle. The grossly unfair consequences
of the D.C. Circuit’s decision for Guam underscore the
need for this Court’s intervention.
B. This case is also an ideal vehicle for resolving
the questions presented. As the United States itself
argued in seeking permission for an interlocutory
appeal, the questions presented are “dispositive legal
questions” about “how to properly interpret CERCLA
§ 9613(f)(3)(B).” D. Ct. Doc. 49-1, at 6-10 (Dec. 6,
2018). Both the court of appeals and district court
issued lengthy, thoughtful opinions addressing these
questions, and there are no antecedent barriers that
might prevent this Court from reaching them.
III. THE DECISION BELOW IS WRONG
Certiorari is also warranted because the decision
below is deeply flawed. Viewed through the lens of
either question presented, the 2004 CWA consent
decree does not trigger Section 113(f)(3)(B).
A. Section
113(f)(3)(B)
Requires
Resolution Of CERCLA Liability

The

The D.C. Circuit erred by holding that a nonCERCLA settlement can trigger Section 113(f)(3)(B).
1. Section 113(f)(3)(B) authorizes contribution
claims by “[a] person who has resolved its liability to
the United States or a State for some or all of a
response action or for some or all of the costs of such
action in an administrative or judicially approved
settlement.” 42 U.S.C. § 9613(f)(3)(B). A “response”
action is a CERCLA-defined term that means a
“removal” or “remedial” action, id. § 9601(25), both of
which are actions taken “in the event of a release or
threatened release of a hazardous substance,” id.
§ 9601(24); see id. § 9601(23). And the liability for

26
response actions and associated costs comes from
CERCLA itself—specifically, in Sections 106 and
107(a). See id. §§ 9606(a), 9607(a). Read in context,
therefore, resolving “liability” for a “response action”
or associated “costs” in Section 113(f)(3)(B) naturally
means resolving the liability for response actions
required or costs imposed under CERCLA.
Such a reading also makes sense in light of Section
113(f)(1), which authorizes contribution claims
“during or following any civil action under [Section
106] or [Section 107(a)],” id. § 9613(f)(1). As the
United States told this Court in Cooper, Sections
113(f)(3)(B) and 113(f)(1)—both enacted as part of
SARA—together provide for contribution when a
party “satisfies its CERCLA liability to the
government, through settlement or judgment”:
Section 113(f)(1) applies “during or following a
Section 106 or 107(a) action,” while Section
113(f)(3)(B) applies “after a CERCLA-based
settlement.” U.S. Amicus Br. 23, 26, Cooper, 543 U.S.
157 (No. 02-1192), 2004 WL 354181 (Cooper U.S. Br.)
(emphasis added); see id. at 11-12 (same).
That conclusion is confirmed by the type of remedy
involved—contribution. As this Court has explained,
“Congress used the term ‘contribution’” in its
“traditional sense,” which means that the remedy “is
contingent upon an inequitable distribution of
common liability among liable parties.” Atlantic
Research, 551 U.S. at 138-39 (emphasis added). So “a
person seeking contribution [under Section 113(f)]
must extinguish—through a pending or completed
lawsuit or through settlement—the joint liability that
provides the basis for the contribution claim.” Cooper
U.S. Br. 11 (emphasis added). To obtain contribution
after a settlement, the settlement must extinguish

27
both the liability of the person seeking contribution as
well as “‘the liability of the person against whom
contribution is sought.’”
Id. at 18-19 (quoting
Restatement (Third) of Torts § 23 cmt. b (2000)); see
Restatement (Second) of Torts § 886A(2) (1979).
Non-CERCLA settlements are incompatible with
this remedy. As the United States correctly asserted
below, a non-settling party is subject to contribution
under Section 113(f)(3)(B) “only” when the nonsettling party would otherwise be “liable for clean-up
costs under Section 107” of CERCLA. Gov’t C.A.
Suppl. Br. 10 (emphasis added); see, e.g., Trinity
Indus., Inc. v. Greenlease Holding Co., 903 F.3d 333,
352 (3d Cir. 2018). Thus, to obtain contribution from
a non-settling party, the settling party must
extinguish the non-settling party’s CERCLA liability.
The extinguished liability will be “common,” however,
only if the settlement extinguishes the settling party’s
CERCLA liability as well. A settlement that does not
resolve CERCLA liability does not resolve the
common liability supporting the contribution remedy.
This case sharply illustrates the point. The 2004
CWA decree settled claims brought under the
permitting provision of the CWA, which “does not
authorize liability against the United States,” United
States Dep’t of Energy v. Ohio, 503 U.S. 607, 624
(1992). Guam could not possibly have resolved
liability it shared in common with the United States—
and therefore could not have triggered a contribution
right—by settling claims under a statutory provision
that does not even authorize liability against the

28
United States. Yet that is the perverse conclusion
that the D.C. Circuit reached in this case.8
The statutory history further confirms that
Section 113(f)(3)(B) is limited to settlements resolving
CERCLA liability. Section 113(f)(3)(B) is among the
provisions that Congress included within Section
113(f) to “encourage” parties to enter into
“[s]ettlement[s] with the government under
CERCLA,” including “consent decree[s] under
CERCLA” that are judicially approved as “consistent
with the purposes that CERCLA is intended to serve.”
H.R. Rep. No. 99-253, pt. 3, at 19-20 (1985) (emphasis
added). The history “leaves no doubt that Congress’s
object” in enacting Section 113(f)(3)(B) was to
authorize contribution “after a CERCLA-based
settlement.” Cooper U.S. Br. 12 (emphasis added).
2. The D.C. Circuit based its contrary conclusion
solely on a negative inference drawn from the fact
that Section 113(f)(1) “expressly requires that a party
first be sued under CERCLA,” while Section
113(f)(3)(B) “contains no such CERCLA-specific
language.” App. 17a-18a (citing Russello v. United
States, 464 U.S. 16, 23 (1983)). But that argument
fails. To begin with, the very premise for a negative
inference is absent: Section 113(f)(3)(B) does contain
8

Further demonstrating the mismatch, the 2004 CWA
decree makes no mention of any “hazardous substances,” the
touchstone of CERCLA “response” actions. See 42 U.S.C.
§ 9601(23)-(25). Nor does the applicable CWA provision, 33
U.S.C. § 1319. To the contrary, a different CWA provision deals
with “hazardous substances,” id. § 1321, and the United States
chose not to bring claims under that provision. Thus, under the
D.C. Circuit’s reasoning, a settlement, like the one here, that
does not even identify a “hazardous substance” covered by
CERCLA can nevertheless trigger Section 113(f)(3)(B).

29
“CERCLA-specific language”—the reference to
“response action,” a defined CERCLA term.
In any event, as this Court has cautioned, the
“Russello presumption” generally applies when “the
omission [is] the sole difference” between the
provisions, and it “grows weaker with each difference
in the formulation of the provisions under inspection.”
City of Columbus v. Ours Garage & Wrecker Serv.,
Inc., 536 U.S. 424, 435-36 (2002). Thus, the Court has
repeatedly refused to draw such an inference when,
given many differences in formulation, the inference
“proves too much.” Field v. Mans, 516 U.S. 59, 67-68
(1995); see, e.g., Entergy Corp. v. Riverkeeper, Inc., 556
U.S. 208, 222 (2009).
That is the case here. Indeed, not even the United
States embraces the consequences of its negative
inference when it comes to the contribution defendant
(i.e., the non-settling party) rather than the
contribution plaintiff. As noted, the United States
contends that, to be subject to a contribution claim
under Section 113(f)(3)(B), the non-settling party
must be “liable for clean-up costs under Section 107.”
Gov’t C.A. Suppl. Br. 10.
Section 113(f)(3)(B),
however, does not mention Section 107; it simply
permits contribution against “any person who is not a
party to a settlement referred to in paragraph (2).” 42
U.S.C. § 9613(f)(3)(B). Section 113(f)(1), by contrast,
does reference Section 107—it permits contribution
against any person “liable or potentially liable under
[Section 107(a)].” Id. § 9613(f)(1). Applying the same
negative inference adopted by the D.C. Circuit below
therefore would mean that a non-settling party need
not be liable under Section 107. The United States
itself agrees that this cannot be right.

30
Ultimately, “[t]he force of any negative implication
. . . depends on context,” NLRB v. SW Gen., Inc., 137
S. Ct. 929, 940 (2017) (citation omitted), and here
context makes plain that Section 113(f)(3)(B) is not
some isolated, self-contained provision to be
contrasted with Section 113(f)(1). It is far more
natural to read the provisions together, so that they
provide a CERCLA-based contribution remedy during
or following a CERCLA-based action or “after a
CERCLA-based settlement.” Cooper U.S. Br. 23.
B. Section 113(f)(3)(B) Requires A Final,
Conclusive Liability Determination
The decision below is wrong for another, equally
glaring, reason: the consent decree did not “resolve[]
. . . liability” at all. 42 U.S.C. § 9613(f)(3)(B).
1. The term “resolved,” which is not defined in
CERCLA, means “decided, determined, or settled—
finished, with no need to revisit.” Bernstein, 733 F.3d
at 211. Thus, in plain English, for a settlement to
resolve liability, the settlement must reach a “‘firm
decision about’ liability,” such that “the question of
liability is not susceptible to further dispute or
negotiation.” Asarco, 866 F.3d at 1122. And to
determine whether a settlement satisfies that test,
“the [settlement] must be construed as it is written,”
“not by reference to what might satisfy the purposes
of one of the parties to it,” and “not as it might have
been written had the plaintiff established his factual
claims and legal theories in litigation.” United States
v. Armour & Co., 402 U.S. 673, 682 (1971).
2. The 2004 CWA decree makes explicit, in
several different provisions, that the parties did not
resolve Guam’s liability for any claim. The D.C.
Circuit disregarded the ordinary meaning of these

31
provisions—viewed against the plain meaning of the
statute—based on its own, arm-chair observations
about the practical operation or effect of such
provisions. That analysis cannot withstand scrutiny.
a. To begin with, the decree explicitly disclaims
“any finding or admission of liability against or by the
Government of Guam.” App. 140a (emphasis added).
As the district court explained, it is difficult to
imagine language that could more “plainly reflect[]
the parties’ intention to leave the question of liability
unresolved.” Id. at 86a; accord Bernstein, 733 F.3d at
212. Yet, instead of “tak[ing] th[is] disclaimer at its
word,” the D.C. Circuit observed that “‘parties often
expressly refuse to concede liability under a
settlement agreement, even while assuming
obligations consistent with a finding of liability.’”
App. 24a (citation omitted). That was error.
By using “resolved,” Congress required a final
determination of liability, and the 2004 consent
decree says in clear terms that there was no such final
determination. The D.C. Circuit’s reasoning defeats
the plain text of both the statute and the decree, and
renders this provision entirely pointless. Congress’s
use of “resolved” was intentional, and Guam obviously
thought that disclaiming a “finding . . . of liability”
meant something, such that it was worth bargaining
for and including in the decree. Yet the D.C. Circuit
read that provision out of the agreement.
b. The consent decree also expressly conditioned
the release of the CWA claims in the complaint on
“[e]ntry of th[e] Consent Decree and compliance with
the requirements [t]herein.” Id. at 166a (emphasis
added). As the district court explained, that provision
“could not be clearer that . . . the resolution of Guam’s
liability for the specified claims” was not resolved but

32
instead “condition[ed]” on future events—namely,
Guam’s actual compliance with all of the decree’s
requirements. Id. at 89a; accord Florida Power, 810
F.3d at 1003-04 (concluding that similar provision
precluded the resolution of liability).
The D.C. Circuit disagreed, claiming that this
interpretation would “nullify section 113(f)(3)(B)”
given the applicable three-year limitations period in
42 U.S.C. § 9613(g)(3)(B), which begins to run upon
“entry of the settlement, not when liability is
‘resolved.’” App. 23a. If claims addressed in the
settlement are not released until years after the
settlement’s entry, the court reasoned, “Guam’s cause
of action under section 113 would not accrue until
after the statute of limitations runs,” a result
“Congress could not have intended.” Id.
The D.C. Circuit’s reasoning wrongly backs into its
own conclusion by starting with the premise that
“Guam[]” had a “cause of action under section 113”
and then reading the terms of the consent decree to
fit the accompanying limitations period. Moreover,
the court’s timing concerns rest on a misreading of the
statutes. Section 113(f)(3)(B) applies only when the
settling party “has resolved its liability” in the
settlement itself, not sometime later. See Carr v.
United States, 560 U.S. 438, 448 (2010) (“present
perfect tense” “‘denot[es] an act that has been
completed’” (citation omitted)). If liability remains
unresolved at the “entry of the settlement,” then
Section 113(f)(3)(B) is not triggered, regardless of
what may (or does) happen in the future.9

9

This does not create any practical anomaly, as the D.C.
Circuit believed. App. 23a. In this instance, the PRP should

33
There is thus no world in which a Section 113(f)
claim could accrue “after the statute of limitations
runs.” App. 23a. That the limitations period is keyed
to the “entry of the settlement” simply reinforces the
point that a settlement that expressly conditions the
release of claims on future events, as the 2004 decree
explicitly did here, is not supposed to trigger Section
113(f)(3)(B). Only by misreading Section 113(f)(3)(B)
to permit a gap between the “entry of the settlement”
and the time “when liability is ‘resolved,’” App. 23a,
did the court below arrive at its supposed anomaly
between Sections 113(f)(3)(B) and 113(g)(3)(B).
c. The consent decree also reserved the rights of
the United States to pursue additional claims against
Guam, leaving Guam “fully exposed” to future
liability, including liability “under CERCLA.” Id. at
87a-89a. The decree makes explicit that, “[e]xcept as
specifically provided herein, the United States does
not waive any rights or remedies available to it for
any violation by the Government of Guam of federal
and territorial laws and regulations,” and that
“[n]othing in this Consent Decree shall limit the
ability of the United States to enforce any and all
provisions of applicable federal laws and regulations
for any violations unrelated to the claims in the
Complaint.” Id. at 166a (emphasis added). And, as
noted, the only “claims in the Complaint” were claims
under the CWA. See id. at 134a-36a.
The D.C. Circuit reasoned that Section 113(f)(3)(B)
“requires merely the resolution of liability for ‘some’
of a response action,” such that the only question that
“matters is whether what [the decree] does require
bring a cost recovery action under Section 107(a), as Guam tried
to do here. See Asarco, 866 F.3d at 1126 n.9.

34
qualifies as ‘some’ of a ‘response action.’” Id. at 22a.
Guam did not undertake any CERCLA-based
response action in carrying out the CWA-based
settlement. But the more pertinent point is that
Guam did not resolve any liability as to any response
action, in part or whole. The D.C. Circuit’s analysis
confuses “perform[ing] certain actions . . . to remedy
an instance of environmental contamination” with
“settl[ing] the issue of liability for that
contamination.” Bernstein, 733 F.3d at 212. The text
of Section 113(f)(3)(B) makes the resolution of liability
the touchstone. Regardless of what actions Guam
agreed to perform in the decree under the CWA, the
decree explicitly left Guam’s liability unresolved.
All told, the D.C. Circuit’s decision strips
Congress’s use of “resolve liability” in Section
113(f)(3)(B) of all ordinary meaning, creates the
perverse result that settlements that expressly
disclaim liability nevertheless resolve it, and sets an
unintended trap for the unwary that defeats
Congress’s goal of sharing remediation costs.
*****
The grave flaws in the D.C. Circuit’s analysis of
the questions presented underscore the need for this
Court’s review of the unjust result reached below.

35
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
LEEVIN T. CAMACHO
Attorney General
JAMES L. CANTO II
Deputy Attorney General
OFFICE OF THE ATTORNEY
GENERAL
590 S. Marine Corps Drive
Suite 901
Tamuning, Guam 96913
JOHN D.S. GILMOUR
WILLIAM J. JACKSON
FABIO C. DWORSCHAK
KELLEY DRYE
& WARREN LLP
515 Post Oak Boulevard
Suite 900
Houston, TX 77027

GREGORY G. GARRE
Counsel of Record
ROMAN MARTINEZ
BLAKE E. STAFFORD
LATHAM & WATKINS LLP
555 Eleventh Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com
BEZALEL STERN
KELLEY DRYE
& WARREN LLP
3050 K Street, NW
Suite 400
Washington, DC 20007

Counsel for Petitioner
September 16, 2020

APPENDIX

TABLE OF CONTENTS
Page
Opinion of the United States Court of Appeals
for the District of Columbia Circuit,
Government of Guam v. United States, 950
F.3d 104 (D.C. Cir. Feb. 14, 2020) .......................1a
Memorandum Opinion of the United States
District Court for the District of Columbia
Certifying
Interlocutory
Appeal,
Government of Guam v. United States, No.
1:17-cv-2487 (KBJ), 2019 WL 1003606
(D.D.C. Feb. 28, 2019) .......................................27a
Memorandum Opinion of the United States
District Court for the District of Columbia
Denying Motion to Dismiss, Government of
Guam v. United States, No. 1:17-cv-2487
(KBJ), 341 F. Supp. 3d 74 (D.D.C. Oct. 5,
2018) ...................................................................51a
Order of the United States Court of Appeals for
the District of Columbia Circuit Denying
Panel Rehearing, Government of Guam v.
United States, No. 19-1531 (D.C. Cir. May
13, 2020) .............................................................98a
Order of the United States Court of Appeals for
the District of Columbia Circuit Denying
Rehearing En Banc, Government of Guam
v. United States, No. 19-1531 (D.C. Cir.
May 13, 2020) .....................................................99a
33 U.S.C. § 1311(a)................................................100a
33 U.S.C. § 1319(a), (b) .........................................101a
33 U.S.C. § 1321(a)(14), (b)(1)-(2)(A),
(3)-(5), (7)(A), (11) ............................................105a

ii
Page
33 U.S.C. § 1342(a)................................................110a
33 U.S.C. § 1362(6), (12) .......................................111a
42 U.S.C. § 9601(14), (21)-(25), (27) .....................112a
42 U.S.C. § 9606(a), (b) .........................................117a
42 U.S.C. § 9607(a)................................................120a
42 U.S.C. § 9613(f)(1)-(3), (g)(2)-(3) ......................122a
42 U.S.C. § 9620(a)(1) ...........................................126a
42 U.S.C. § 9622(a), (c)(1)-(2) ................................127a
Complaint for Injunctive Relief and Civil
Penalties Under the Clean Water Act,
United States v. Government of Guam, No.
02-cv-00022 (D. Guam Aug. 7, 2002)
(C.A.J.A. 82-88) ................................................130a
Consent Decree, United States v. Government
of Guam, No. 02-cv-00022 (D. Guam Feb.
11, 2004) (C.A.J.A. 90-119) ..............................138a

1a
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
GOVERNMENT OF GUAM, Appellee
v.
UNITED STATES of America, Appellant
No. 19-5131
Argued November 12, 2019
Decided February 14, 2020
——————
Appeal from the United States District Court for
the District of Columbia (No. 1:17-cv-02487)
950 F.3d 104
Before: HENDERSON and TATEL, Circuit
Judges, and GINSBURG, Senior Circuit Judge.
TATEL, Circuit Judge:
For nearly half a century, the United States Navy
operated a landfill on the island of Guam. Home to
discarded munitions, chemicals, and everyday
garbage, the so-called Ordot Dump lacked any sort of
environmental safeguards. At bottom, this case
concerns whether Guam or the Navy is financially
responsible for the environmental hazards arising
from the Ordot Dump. The answer to that question
turns on the interaction between two provisions of the
Comprehensive
Environmental
Response,
Compensation, and Liability Act (CERCLA): section
107, the act’s “cost-recovery” provision, and section
113, its “contribution” provision. See 42 U.S.C.
§§ 9607, 9613(f). If Guam must proceed under section
113, then its suit against the Navy for costs related to

2a
the dump is now time-barred. But if it may utilize
section 107, then its suit remains timely.
As
explained below, we conclude that a 2004 consent
decree with EPA triggered Guam’s right to pursue a
contribution claim under section 113, precluding it
from now pursuing a claim under section 107. We
therefore reverse the district court’s contrary
conclusion and remand with instructions to dismiss.
I.
Congress enacted CERCLA, 42 U.S.C. §§ 9601 et
seq., “in response to the serious environmental and
health risks posed by industrial pollution,” United
States v. Bestfoods, 524 U.S. 51, 55, 118 S.Ct. 1876,
141 L.Ed.2d 43 (1998). Seeking to enable the “prompt
cleanup of hazardous waste sites and to ensure that
responsible parties foot the bill,” General Electric Co.
v. Jackson, 610 F.3d 110, 114 (D.C. Cir. 2010),
CERCLA directs that any potentially responsible
party—“PRP” for short—“shall be liable” for the costs
associated with the release of hazardous substances
and subsequent cleanup of polluted sites, CERCLA
§ 107(a).
Remediation at Superfund sites is, unsurprisingly,
expensive. Central to CERCLA’s operation is a
mechanism for entities to seek recoupment of any
cleanup costs incurred from other responsible parties.
As originally drafted, CERCLA provided that “any
person” potentially responsible for hazardous waste
“shall be liable for . . . all costs of removal or remedial
action incurred by the United States Government or
a State or an Indian tribe,” CERCLA § 107(a)(4)(A),
as well as “any other necessary costs of response
incurred by any other person,” id. § 107(a)(4)(B)
(emphasis added). While CERCLA “did not mandate

3a
‘joint and several’ liability in every case,” Burlington
Northern & Santa Fe Railway Co. v. United States,
556 U.S. 599, 613, 129 S.Ct. 1870, 173 L.Ed.2d 812
(2009), “[t]he practical effect of placing the burden on
defendants has been that responsible parties rarely
escape joint and several liability,” O’Neil v. Picillo,
883 F.2d 176, 178–79 (1st Cir. 1989), meaning that
any one PRP may be held responsible for the entire
cost of a cleanup.
Although multiple entities may be responsible for
a superfund site, only one may have actually
“incurred” “costs of response”—a necessary predicate
to bringing a section 107 claim.
CERCLA
§ 107(a)(4)(A), (B). Following CERCLA’s passage in
1980, “litigation arose over whether § 107, in addition
to allowing the Government and certain private
parties to recover costs from PRPs, also allowed a PRP
that had incurred response costs”—that is, a PRP that
had paid out but not actually done a cleanup itself—
“to recover costs from other PRPs.” Cooper Industries,
Inc. v. Aviall Services, Inc., 543 U.S. 157, 161, 125
S.Ct. 577, 160 L.Ed.2d 548 (2004). At common law,
tortfeasors like PRPs were typically entitled to
“contribution”—a “right to collect from joint
tortfeasors when, and to the extent that, the
tortfeasor has paid more than his or her proportionate
share to the injured party, the shares being
determined as percentages of causal fault.”
Contribution, Black’s Law Dictionary (11th ed. 2019).
But as originally passed, “CERCLA contained no
provision expressly providing for a right of action for
contribution;” in fact, it made no mention of
“contribution” at all. Cooper, 543 U.S. at 162, 125
S.Ct. 577.

4a
Congress addressed this gap in the statutory
scheme when it amended CERCLA through the
Superfund Amendments and Reauthorization Act of
1986, Pub. L. 99–499, 100 Stat. 1613. Specifically, it
added a new section to the Act—section 113—which
“provide[d] two express avenues for contribution.”
Cooper, 543 U.S. at 167, 125 S.Ct. 577. The first,
section 113(f)(1), provides that “[a]ny person may seek
contribution from any other person who is liable or
potentially liable under section [107(a) ] of this title,
during or following any civil action . . . under section
[107(a) ] of this title.” CERCLA § 113(f)(1). The
second new avenue, section 113(f)(3)(B), provides that
a party that “has resolved its liability to the United
States or a State for some or all of a response action
or for some or all of the costs of such action in an
administrative or judicially approved settlement may
seek contribution from any person who is not party to
a settlement.” Section 113 also creates special
incentives for PRPs to settle with enforcement
authorities. Although that section broadly allows
PRPs to seek contribution from other PRPs, “[a]
person who has resolved its liability to the United
States or a State in an administrative or judicially
approved settlement shall not be liable for claims for
contribution regarding matters addressed in the
settlement.” Id. § 113(f)(2). Settlement with EPA or
state authorities therefore inoculates a party from
further contribution liability.
The upshot is that CERCLA now offers two
potential causes of action for an entity seeking
recovery from a PRP: a section 107 “cost-recovery”
action, available for recoupment of cleanup costs, and
a section 113(f) “contribution” action, available for
recoupment of funds paid out pursuant to a section

5a
107 action, a settlement, or another contribution
action. Central to this case, the statute of limitations
for a contribution action is three years, see CERCLA
§ 113(g)(3); the statute of limitations for a remedial
section 107 action is six, id. § 113(g)(2)(B).
II.
Nearly a century before CERCLA’s passage, the
United States captured the island of Guam following
the Spanish-American War. See Paul Carano & Pedro
C. Sanchez, A Complete History of Guam 169–83
(1964) (describing how Guam became an American
possession). From 1903 until World War II, the
United States treated Guam as a US Naval ship—the
“USS Guam”—and maintained military rule until the
passage of the Guam Organic Act in 1950. Robert F.
Rogers, Destiny’s Landfall : A History of Guam 126,
226 (1995). That act marked the formal transfer of
power from the United States to Guam’s newly
formed civilian government, id. at 226, but until the
1960s, visiting Guam required a military security
clearance, see Exec. Order No. 11045, 3 C.F.R. 238,
238–39 (1962) (discontinuing the Guam Island Naval
Defensive Sea Area and Guam Island Naval Airspace
Reservation). Guam remained, as it had been since
the Treaty of Paris in 1898, an “unincorporated
territory of the United States.” 48 U.S.C. § 1421a.
Against this colonial backdrop, the Navy
constructed and operated the Ordot Dump for the
disposal of municipal and military waste sometime in
the 1940s. Even after relinquishing sovereignty over
the island, however, the Navy continued to take
advantage of the dump. Throughout the Korean and
Vietnam Wars, the Navy used the Ordot Dump for the
disposal of munitions and chemicals, allegedly

6a
including Dichlorodiphenyltrichloroethane—DDT—
and Agent Orange, Am. Compl. ¶ 11. It was “the only
sited and operational dump on Guam” until the 1970s,
and the only public landfill on the island until its
closure in 2011. Id. And as the Navy continued to use
the Ordot Dump, it continued growing; “[w]hat was
once a valley,” the District Court of Guam explained,
“is now at least a 280-foot mountain of trash.” United
States v. Guam, No.02-00022, slip op. at 1 (D. Guam
Jan. 24, 2008).
Despite its extensive use, the Ordot Dump lacked
basic environmental safeguards. “[U]nlined on its
bottom and uncapped at its top,” the landfill absorbed
rain and surface water, which percolated through the
landfill and mixed with contaminants. Am. Compl.
¶ 12. These contaminants released into the nearby
Lonfit River, which flows into the Pago River, and
ultimately into the Pacific Ocean at Pago Bay. Id.
The Ordot Dump has long attracted the attention
of the United States as regulator. EPA added the
Ordot Dump to its National Priorities List in 1983,
and, in 1988, issued a Record of Decision designating
the Navy as a potentially responsible party for the
site. Id. ¶ 13. But having relinquished sovereignty
over the island, the Navy no longer owned and
operated the Ordot Dump—Guam did.
And,
beginning in 1986, EPA repeatedly ordered Guam to
devise plans for containing and disposing of waste at
the landfill.
Unsatisfied with Guam’s remediation attempts,
EPA sued Guam in 2002 under the Clean Water Act,
33 U.S.C. §§ 1251 et seq., asserting that Guam
violated that act by “discharging pollutants . . . into
waters of the United States without obtaining a
permit.” Complaint for Injunctive Relief, United

7a
States v. Guam, No. 02-00022, at ¶ 26 (D. Guam)
(CWA Compl.), Joint Appendix (J.A.) 86. As EPA
explained in its complaint, the Clean Water Act
defines “waters of the United States” as “including the
territorial seas,” id. at ¶ 14, J.A. 85 (quoting 33 U.S.C.
§ 1362(7), and it alleged that Guam “has routinely
discharged untreated leachate from the Ordot [Dump]
into the Lonfit River and two of its tributaries,” id. at
¶ 21, J.A. 85. EPA sought an injunction ordering
Guam to comply with the Clean Water Act, by, among
other things, “submit[ting] plans and a compliance
schedule for a cover system for the Ordot Landfill”
and “complet[ing] construction of the cover system to
eliminate discharges of untreated leachate.” Id. ¶ 29,
J.A. 86.
Rather than litigate these claims, Guam and EPA
entered into a consent decree in 2004, which the
District Court of Guam approved. See Consent
Decree, United States v. Guam, No. 02-00022 (D.
Guam) (Consent Decree), J.A. 90. That Decree
required Guam, among other things, to pay a civil
penalty, close the Ordot Dump, and design and install
a “dump cover system.” Id. at 5–12, J.A. 94–101. The
Decree expressly states that it “shall apply and be
binding upon the Government of Guam . . . and on the
United States on behalf of U.S. EPA,” and was “based
on the pleadings, before taking testimony or
adjudicating any issue of fact or law, and without any
finding or admission of liability against or by the
Government of Guam,” id. at 3, J.A. 92. Although
cleanup continues, Guam officially closed the Ordot
Dump in 2011 pursuant to the Decree.
Guam initiated this action against the United
States in 2017, arguing that the Navy was responsible
for the Ordot Dump’s contamination and seeking to

8a
recoup its landfill-closure and remediation costs.
Alleging that the costs of the Ordot Dump’s required
remediation
would
“exceed
approximately
$160,000,000,” Am. Compl. ¶ 15, Guam brought two
causes of action relevant here: a CERCLA section
107(a) claim seeking “removal and remediation costs”
related to the landfill, id. ¶ 25, and, “[i]n the
alternative,” a section 113(f) contribution action, id.
¶ 31.
The United States moved to dismiss under Federal
Rule of Civil Procedure 12(b)(6), arguing that Guam
could not avail itself of CERCLA section 107(a)
because section 113(f)(3)(B) is “the exclusive CERCLA
remedy for the costs a liable party is compelled to
incur pursuant to a judicially-approved settlement
with the United States.” Mot. to Dismiss 18. Pointing
to the 2004 Consent Decree, the United States argued
that Guam had resolved its liability for a response
action, and so had to proceed under section 113 rather
than 107.
And, because CERCLA section 113
“imposes a three-year statute of limitations on
contribution claims” that runs from a consent decree’s
entry, the United States argued that Guam was timebarred from pursuing that claim. Id. at 17, J.A. 61.
The district court, accepting the premise that
“Guam is permitted to proceed against the United
States for full cost recovery under section 107(a) only
if Guam’s right to contribution under section
113(f)(3)(B) has not been triggered,” explained that
“the key question[] that the pending motion to dismiss
presents is whether the 2004 Consent Decree
‘resolve[d] [Guam’s] liability’ for the response action
or response costs that Guam undertook with respect
to the Ordot Landfill and also qualifies as a
‘settlement’ within the meaning of” CERCLA’s

9a
contribution provision. Guam v. United States, 341 F.
Supp. 3d 74, 84 (D.D.C. 2018) (quoting CERCLA
§ 113(f)(3)(B)) (alterations in original). In a thorough
opinion, the district court explained that “whether or
not an agreement for the removal or remediation of
hazardous waste ‘resolves’ liability for section
113(f)(3)(B) purposes turns on the terms of the
agreement,” and concluded that “the 2004 Consent
Decree did not resolve Guam’s liability for the Ordot
Landfill cleanup.” Id. Because the Decree failed to
meet the “statutorily prescribed conditions for
bringing a contribution claim under section
113(f)(3)(B),” the court ruled that Guam could
maintain its section 107(a) claim against the United
States and denied the United States’ motion to
dismiss. Id.
The United States sought interlocutory appeal of
the district court’s order pursuant to 28 U.S.C.
§ 1292(b). The district court, noting that “the courts
of appeals diverge . . . with respect to how one best
interprets agreement language” of the kind presented
here, concluded that “there is substantial ground for
difference of opinion regarding at least one controlling
issue of law . . . , and that allowing the United States
to appeal . . . could materially advance this litigation,”
and certified the interlocutory appeal of the order.
Guam v. United States, No. 1:17-CV-2487, 2019 WL
1003606, at *1 (D.D.C. Feb. 28, 2019) (internal
quotation marks omitted). We granted the request for
interlocutory review. “We review de novo the District
Court’s legal conclusions denying a motion to
dismiss.” Liff v. Office of Inspector General for U.S.
Department of Labor, 881 F.3d 912, 918 (D.C. Cir.
2018).

10a
III.
The first question we must decide, as it underlies
this dispute, is whether CERCLA sections 107 and
113 are mutually exclusive. That is, if a party incurs
costs pursuant to a settlement and therefore has a
cause of action under section 113, is it precluded from
seeking cost-recovery under section 107?
While the differences between CERCLA sections
107 and 113 seem clear in theory, the supposedly
sharp distinction between cost-recovery and
contribution does not always play out in practice.
Although the two actions are separate, some
situations ostensibly fall under both CERCLA
provisions. As the Supreme Court explained in
United States v. Atlantic Research Corp., 551 U.S.
128, 127 S.Ct. 2331, 168 L.Ed.2d 28 (2007), “a PRP
may sustain expenses pursuant to a consent decree”
that involve cleanup costs. Id. at 139 n.6, 127 S.Ct.
2331. “In such a case, the PRP does not incur costs
voluntarily,” as one would while undertaking a
cleanup, “but [also] does not reimburse the costs of
another party,” as one would in a traditional
contribution action. Id. Having settled with the
Government, the PRP is authorized to pursue a
section 113(f)(3)(B) contribution action, but because it
has incurred cleanup costs, the recoupment of those
funds would arguably also fall within section 107. In
other words, given that “neither remedy swallows the
other,” id., both cost-recovery and contribution
actions appear available.
In Atlantic Research, the Supreme Court “d[id] not
decide whether these compelled costs of response are
recoverable under § 113(f), § 107(a), or both.” Id. To
date, neither have we. But “every federal court of

11a
appeals to have considered the question since Atlantic
Research . . . has said that a party who may bring a
contribution action for certain expenses must use the
contribution action, even if a cost recovery action
would otherwise be available.” Whittaker Corp. v.
United States, 825 F.3d 1002, 1007 (9th Cir. 2016); see
id. at 1007 n.5 (collecting cases).
Today we join our sister circuits. The entire
purpose of section 113(f)(3)(B) is to “permit[] private
parties to seek contribution after they have settled
their liability with the Government.”
Atlantic
Research Corp., 551 U.S. at 132 n.1, 127 S.Ct. 2331.
Allowing a PRP that has settled with the government
to instead seek recoupment through a section 107
cost-recovery claim would render section 113(f)(3)(B)
superfluous; if a PRP could choose whether to sue
under section 107 or section 113, “a rational PRP
would prefer to file an action under § 107(a)[] in every
case.” Hobart Corp. v. Waste Management of Ohio,
Inc., 758 F.3d 757, 767 (6th Cir. 2014). Like any
statute, CERCLA must be “read as a whole,” King v.
St. Vincent’s Hospital, 502 U.S. 215, 221, 112 S.Ct.
570, 116 L.Ed.2d 578 (1991), and we decline to
interpret section 113(f)(3)(B) as providing superfluous
relief to a party that has settled with the United
States or a State.
Having concluded that section 113(f)(3)(B) and
section 107 are mutually exclusive, we must address
one more threshold issue. Section 113(f)(3)(B) reads:
“A person who has resolved its liability to the United
States . . . for some or all of a response action or for
some or all of the costs of such action in a[] . . .
judicially approved settlement may seek contribution
from any person who is not party to a settlement
referred to in paragraph (2).” CERCLA § 113(f)(3)(B)

12a
(emphasis added). Paragraph (2), in turn, provides
that “[a] person who has resolved its liability to the
United States or a State in an administrative or
judicially approved settlement shall not be liable for
claims for contribution regarding matters addressed
in the settlement.” Id. § 113(f)(2). Here, we face an
unusual situation: the United States, through the
Navy, is a potentially responsible party, but the
United States, through EPA, is also the regulator that
has brought the enforcement action. At first blush,
the “not party to a settlement” language would seem
to preclude a contribution suit by Guam against the
United States regardless of whether the settlement
otherwise triggers section 113(f)(3)(B); after all, the
United States is a “party to a settlement” with Guam.
CERCLA “is not a model of legislative
draftsmanship,” Exxon Corp. v. Hunt, 475 U.S. 355,
363, 106 S.Ct. 1103, 89 L.Ed.2d 364 (1986), and, read
literally, section 113(f)(3)(B)’s “not party to a
settlement” language could create non-sensical
results. For example, imagine hypothetical Company
X settles with EPA for the costs of response actions
for a contaminated site in California in 1990. By
virtue of becoming “party to a settlement,” Company
X would gain immunity from any future section
113(f)(3)(B) action, even if that action were to arise
decades later for an entirely unrelated site in
Massachusetts. The very first time an agency of the
United States settled with a potentially responsible
party at any site, moreover, that agency would
become wholly immune to section 113(f)(3)(B) claims
at every site where it may be a responsible party. “A
fair reading of legislation demands a fair
understanding of the legislative plan,” King v.
Burwell, ––– U.S. ––––, 135 S. Ct. 2480, 2496, 192

13a
L.Ed.2d 483 (2015), and given that section 113 clearly
seeks to incentivize private parties to settle with the
United States, we decline to read the “not party to a
settlement” language as forever foreclosing
contribution actions against any party that has ever
settled any qualifying claim.
The United States offers two alternative
interpretations. First, it argues that reading sections
113(f)(2) and 113(f)(3)(B) together demonstrates that
the phrase “any person who is not party to a
settlement referred to in paragraph (2)” simply means
any person not insulated from such a contribution
claim by a section 113(f)(2) settlement. Appellant’s
Suppl. Br. 7. Alternatively, it argues that, even if the
phrase means that a contribution action could not be
brought against any party to any settlement
whatsoever, it does not matter here because the
Consent Decree was a settlement between Guam and
the EPA and Guam’s contribution action is against
the Navy—a different federal agency. Id. at 7-9.
Because we agree with the first alternative, we need
not address the second.
Congress enacted Section 113(f) to bring PRPs “to
the bargaining table at an early date.” Asarco LLC v.
Atl. Richfield Co., 866 F.3d 1108, 1117 (9th Cir. 2017)
(quoting Whittaker Corp., 825 F.3d at 1013 (Owens,
J., concurring)). Section 113(f) accomplishes this goal
by providing two benefits to such PRPs: a “defensive
benefit” to PRPs who decide to resolve their liability
by entering a settlement with the United States or
with a State and are thereby protected against
contribution actions brought by other PRPs regarding
matters included in the settlement, see CERCLA
§ 113(f)(2); and an “offensive benefit” to those same
PRPs who, again, in exchange for resolving their

14a
liability, can pursue other PRPs for contribution, see
id. § 113(f)(3)(B).
Reading these two sections in pari materia, we
interpret the phrase “any person who is not party to a
settlement referred to in paragraph (2)” in section
113(f)(3)(B) to mean that one benefit does not cancel
out the other. See Motion Picture Association of
America, Inc. v. F.C.C., 309 F.3d 796, 801 (D.C. Cir.
2002) (“Statutory provisions in pari materia normally
are construed together to discern their meaning.”).
Section 113(f)(3)(B) provides that a person who has
resolved its liability with the United States or a State
can pursue a contribution action against any person
but it notes that the right to seek contribution does
not erase the protection provided under section
113(f)(2). For example, if Company A resolves its
liability for a response action with the United States,
it is protected under section 113(f)(2) from future
contribution actions related to its settlement with the
United States.
The fact that Company B
subsequently also resolves its liability to the United
States in a related action—and can thereby initiate a
contribution action against “any person” under
section 113(f)(3)(B)—cannot mean that Company A’s
protection under section 113(f)(2) is forfeited, leaving
it vulnerable to a contribution suit by Company B.
This is what the phrase “any person who is not party
to a settlement referred to in paragraph (2)” clarifies.
Another way to view the two provisions working in
tandem is to think of the above hypothetical in
reverse. As the Third Circuit has explained, “[i]t
appears that the statute allows the government to
immunize a late settlor from an early settlor’s
contribution suit by settling with the government.”
United States v. Alcan Aluminum, Inc., 25 F.3d 1174,

15a
1186 (3d Cir. 1994); see also J. Whitney Pesnell, The
Contribution Bar in CERCLA Settlements and Its
Effect on the Liability of Nonsettlors, 58 La. L. Rev.
167, 231 (1997) (“[Section 113(f)(2)] provides, in no
uncertain terms, that parties who have resolved their
liability to the government in a judicially approved
settlement, such as the parties to the second
settlement, shall not be liable for claims for
contribution regarding matters addressed in the
settlement.”).
This interpretation is supported by the fact that
Congress chose to reference “paragraph (2)” within
section 113(f)(3)(B). “[W]e are obliged to give effect, if
possible, to every word Congress used.” Reiter v.
Sonotone Corp., 442 U.S. 330, 339, 99 S.Ct. 2326, 60
L.Ed.2d 931 (1979). In section 113(f)(3)(B), Congress
did not state “any person who is not party to a
settlement” alone; instead, it specifically stated “any
person who is not a party to a settlement referred to
in paragraph (2).” CERCLA § 113(f)(3)(B) (emphasis
added). A settlement included in “paragraph (2)”
means a settlement entered into by a person to
resolve its liability to the United States or a State in
order to secure protection from a contribution action.
Therefore, giving effect to section 113(f)(3)(B)’s
express reference to section 113(f)(2) and reading that
section in harmony with section 113(f)(3)(B), we think
it quite clear that section 113(f)(3)(B) allows a person
to seek contribution from any person other than those
persons protected by their own settlement under
section 113(f)(2). Put differently, a person may not
use section 113(f)(3)(B) to seek contribution against a
person who has resolved its liability through a
settlement agreement under section 113(f)(2) to the

16a
extent the contribution action involves matters
addressed in that settlement.
Here, the “any person who is not a party” language
in section 113(f)(3)(B) does nothing to prohibit Guam’s
contribution action. Guam is not attempting to
pursue a contribution action against a PRP that has
already resolved its liability to the United States or a
State and is thus protected by section 113(f)(2). The
key inquiry, then, is this: did the 2004 Consent
Decree “resolve [Guam’s] liability” for a response
action within the meaning of section 113(f)(3)(b), thus
triggering Guam’s right to seek contribution and
precluding it from seeking cost-recovery under section
107? It is to that question we now turn.
A.
In order to trigger CERCLA section 113(f)(3)(B), a
party must have “resolved its liability to the United
States or a State for some or all of a response action
or for some or all of the costs of such action in
a[] . . . judicially approved settlement.” CERCLA
§ 113(f)(3)(B). Guam contends that the 2004 Consent
Decree cannot qualify as a settlement under CERCLA
because it settled an action brought by EPA under the
Clean Water Act, not CERCLA. In Guam’s view, the
Consent Decree “requires reference to CERCLA to
trigger a Section 113(f)(3)(B) claim.” Appellee’s Br. 26
n.11.
“Whether a non-[CERCLA] settlement agreement
may give rise to a contribution action has split the
circuits,” three to one. Asarco, 866 F.3d at 1119. As
the Ninth Circuit recently explained, both it and the
Third Circuit have concluded that “Congress did not
intend to limit § 113(f)(3)(B) to response actions and
costs incurred under CERCLA settlements,” and that

17a
“a non-[CERCLA] settlement agreement may form
the necessary predicate for a § 113(f)(3)(B)
contribution action.” Id. at 1120–21; see also Trinity
Industries, Inc. v. Chicago Bridge & Iron Co., 735 F.3d
131, 136 (3d Cir. 2013) (same). The Seventh Circuit
has recently concluded the same. See Refined Metals
Corp. v. NL Industries Inc., 937 F.3d 928, 932 (7th
Cir. 2019) (“[Section] 113(f)(3)(B) . . . does not limit
covered settlements to those that specifically mention
CERCLA.”). The Second Circuit has gone the other
way, holding that section 113(f)(3)(B) creates a
“contribution right only when liability for CERCLA
claims . . . is resolved.” Consolidated Edison Co. of
New York, Inc. v. UGI Utilities, Inc., 423 F.3d 90, 95
(2d Cir. 2005). More recently, however, the Second
Circuit cast doubt on that holding, noting that EPA
“understandably takes issue” with that case and that
“there is a great deal of force to [its] argument.”
Niagara Mohawk Power Corp. v. Chevron USA, Inc.,
596 F.3d 112, 126 n.15 (2d Cir. 2010).
We agree with the Third, Seventh, and Ninth
Circuits that section 113(f)(3)(B) does not require a
CERCLA-specific settlement. As the Seventh and
Ninth have pointed out, another provision of section
113—paragraph (f)(1)—expressly requires that a
party first be sued under CERCLA section 106 or 107
before pursuing contribution.
See CERCLA
§ 113(f)(1) (“Any person may seek contribution from
any other person who is liable or potentially liable
under section [1]07(a) of this title, during or following
any civil action under section [1]06 of this title or
under section [1]07(a) of this title.”) (emphasis added).
But section 113(f)(3)(B) contains no such CERCLAspecific language, and “where Congress includes
particular language in one section of a statute but

18a
omits it in another section of the same Act, it is
generally presumed that Congress acts intentionally
and purposely in the disparate inclusion or
exclusion,” Russello v. United States, 464 U.S. 16, 23,
104 S.Ct. 296, 78 L.Ed.2d 17 (1983) (internal citation,
alterations and quotation marks omitted).
We
therefore conclude that a settlement agreement can
trigger section 113(f)(3)(B) even if it never mentions
CERCLA.
B.
But that conclusion gets us only so far. The fact
that a non-CERCLA settlement can trigger section
113(f)(3)(B) tells us little about whether the 2004
Consent Decree, in fact, “resolve[d] [Guam’s] liability”
for some or all of the response action or response costs
that Guam undertook with respect to the Ordot
Dump. “Whether or not liability is resolved through
a settlement” is unanswerable by a “universal rule;”
it instead requires examination of “the terms of the
settlement on a case-by-case basis.” Bernstein v.
Bankert, 733 F.3d 190, 213 (7th Cir. 2013). Because
“a consent decree . . . is essentially a contract,” a
court’s “construction of a consent decree is essentially
a matter of contract law,” Segar v. Mukasey, 508 F.3d
16, 21 (D.C. Cir. 2007) (internal quotation marks
omitted), and where, as here, that consent decree
binds the United States, that contract is “governed
exclusively by federal law,” Boyle v. United
Technologies Corp., 487 U.S. 500, 504, 108 S.Ct. 2510,
101 L.Ed.2d 442 (1988).
We begin with CERCLA’s text. The phrase
“resolved its liability” is nowhere defined in the
statute, meaning our interpretation of these words
should start “with their ordinary meaning.” BP

19a
American Production Co. v. Burton, 549 U.S. 84, 91,
127 S.Ct. 638, 166 L.Ed.2d 494 (2006). The word
“resolve” usually means “to deal with successfully,”
“reach a firm decision about,” or “work out the
resolution” of something. Resolve, Merriam-Webster’s
Collegiate Dictionary 997 (10th ed. 1997). Our sister
circuits have likewise concluded that in the context of
section 113(f)(3)(B), “resolved” means “decided,
determined, or settled—finished, with no need to
revisit,” Bernstein, 733 F.3d at 211, that is, a “firm
decision” that is no longer “susceptible to further
dispute or negotiation,” Asarco, 866 F.3d at 1122
(internal quotation marks omitted).
The word
“[l]iability,” in turn, means an “obligat[ion] according
to law or equity.”
Liability, Merriam-Webster’s
Collegiate Dictionary 670 (10th ed. 1997); see also
Liability, Black’s Law Dictionary (11th ed. 2019) (“the
quality, state, or condition of being legally obligated
or accountable; legal responsibility to another or to
society, enforceable by civil remedy or criminal
punishment.”); Asarco, 866 F.3d at 1124 (“a
settlement agreement must determine a PRP’s
compliance obligations”) (emphasis added). Taking
the phrase “resolved its liability” as a whole, we think
it clear that “a PRP’s liability must be decided,
determined, or settled, at least in part, by way of
agreement with the EPA.” Bernstein, 733 F.3d at 212
(emphasis in original removed).
So far, so good—but liability for what? Recall that
section 113(f)(3)(B) kicks in where a party has
resolved its liability for “some or all of a response
action” or for some or all “of the costs of such action.”
CERCLA § 113(f)(3)(B) (emphasis added). As Guam
readily admits, “‘[r]esponse’ is a term of art in
CERCLA,” Appellee’s Br. 9, and it entails a wide

20a
range of actions. Specifically, “response” is defined as
any “removal . . . and remedial action; [and] all such
terms (including the terms ‘removal’ and ‘remedial
action’) include enforcement activities related
thereto.” CERCLA § 101(25). “Removal,” in turn, is
defined as “the cleanup or removal of released
hazardous substances from the environment,” “such
actions as may be necessary to monitor, assess, and
evaluate the release or threat of release of hazardous
substances,” “the disposal of removed material,” or
“other actions as may be necessary to prevent,
minimize, or mitigate damage to the public health or
welfare or to the environment.” Id. § 101(23). And
“remedy” or “remedial action” means “actions
consistent with permanent remedy taken instead of
or in addition to removal actions in the event of a
release or threatened release of a hazardous
substance into the environment,” or actions “to
prevent or minimize the release of hazardous
substances so that they do not migrate to cause
substantial danger to present or future public health
or welfare or the environment.” Id. § 101(24). And
there is more: remedial action includes “storage,
confinement, perimeter protection using dikes,
trenches, or ditches, clay cover, neutralization,
cleanup of released hazardous substances and
associated contaminated materials, recycling or
reuse, diversion, destruction, segregation of reactive
wastes, dredging or excavations,” as well as the
“repair or replacement of leaking containers,
collection of leachate and runoff, onsite treatment or
incineration, provision of alternative water supplies,
and any monitoring reasonably required to assure
that such actions protect the public health and
welfare and the environment.”
Id.
Section

21a
113(f)(3)(B) comes into play, therefore, when a party
has resolved its liability for “some or all” of any of the
above actions.
By its plain terms, the 2004 Consent Decree
“resolve[d]” Guam’s liability for “some . . . of a
response action.” The Consent Decree provides that
it “shall be in full settlement and satisfaction of the
civil judicial claims of the United States against the
Government of Guam as alleged in the Complaint
filed in this action.” Consent Decree ¶ 45, J.A. 112.
EPA’s Complaint, in turn, sought an injunction
requiring Guam to comply with the Clean Water Act,
by, among other things, “submit[ting] plans and a
compliance schedule for a cover system for the Ordot
Landfill” and for “complet[ing] construction of the
cover system to eliminate discharges of untreated
leachate.” CWA Complaint ¶ 29, J.A. 86. The
Consent Decree further obligates Guam to design and
install a “dump cover system.” Consent Decree ¶ 8,
J.A. 94. Construction and installation of a cover falls
squarely within the definition of a “remedial action,”
which includes the “confinement” of substances and
the “repair or replacement of leaking containers.”
CERCLA § 101(24). EPA’s Clean Water Act lawsuit,
in other words, sought injunctive relief for Guam to
take action that qualified as a “response action,” and
the 2004 Consent Decree released Guam from legal
exposure for that claim in exchange for Guam’s
commitment to perform work that qualified as a
“response action.”
That “construction of the cover system to eliminate
discharges of untreated leachate” “resolv[ed]
[Guam’s] liability . . . for some or all of a response
action” within the meaning of CERCLA section

22a
113(f)(3)(B), triggering that section and precluding
Guam from seeking cost-recovery under section 107.
C.
Despite the clarity of the Consent Decree, Guam
insists that, for several reasons, the Decree did not
“resolve” Guam’s liability to the United States. We
are unpersuaded.
Guam first argues that because “the US broadly
and unconditionally reserved all of its rights,
including its rights to pursue CERCLA claims,” the
Consent Decree is “replete with ongoing legal
exposure for Guam” and therefore “did not resolve
liability with the requisite finality to trigger a Section
113(f)(3)(B) contribution claim.” Appellee’s Br. 25;
28–29. True, the Consent Decree provides that
“[n]othing . . . shall limit the ability of the United
States to enforce any and all provisions of applicable
federal laws and regulations.” Consent Decree ¶ 46,
J.A. 112.
But that provision applies only to
“violations unrelated to the claims in the Complaint.”
Id. (emphasis added). This reservation of rights tells
us nothing about what the complaint and the consent
decree do or do not resolve under CERCLA. Section
113(f)(3)(B) is clear, moreover, that it requires merely
the resolution of liability for “some” of a response
action. In order to trigger section 113(f)(3)(B), a
decree need not decisively determine every action
that a party may one day be required to perform at
the relevant site. What matters is whether what it
does require qualifies as “some” of a “response action.”
And as explained above, supra at 114–16, Guam’s
construction obligations for the Ordot Dump—agreed
to under the threat of injunctive relief—qualified as
“some of” a “response action” under CERCLA. The

23a
consent decree’s reservation of rights for unrelated
claims does nothing to alter that analysis.
Guam next contends that the Consent Decree
cannot have triggered section 113(f)(3)(B) because “it
only releases Guam from . . . liability upon full
implementation of the settlement’s requirements, and
performance is ongoing.” Appellee’s Br. 19. Such a
reading, however, would nullify section 113(f)(3)(B) in
a host of cases. According to section 113’s statute of
limitations, a party must bring a contribution action
“no more than 3 years after . . . entry of a judicially
approved settlement.”
CERCLA § 113(g)(3)(B)
(emphasis added). The clock starts to run, in other
words, on entry of the settlement, not when liability
is “resolved.” But under Guam’s theory, liability may
not be “resolved” for quite some time. For example,
the Decree requires Guam to perform within “44
months”—nearly four years. Consent Decree ¶ 9, J.A.
100. Guam’s view—that liability is not “resolved”
until that performance is complete—would produce
an absurd result: Guam’s cause of action under
section 113 would not accrue until after the statute of
limitations runs. See Asarco, 866 F.3d at 1124 n.8
(rejecting such a reading of CERCLA). And Guam
would hardly be alone.
A different CERCLA
provision, section 122, provides that “[a] covenant not
to sue concerning future liability to the United States
shall not take effect until the President certifies that
remedial action has been completed.” CERCLA
§ 122(f)(3). If parties “resolve” their liability only
following full performance and Presidential
certification, most PRPs would find themselves
barred by the statute of limitations by the time they
gained the ability to sue under section 113(f)(3)(B).
Congress could not have intended such a result.

24a
Next, Guam directs us to the Consent Decree’s
disclaimer of liability, which provides that the parties’
agreement is “based on the pleadings, before taking
testimony or adjudicating any issue of fact or law, and
without any finding or admission of liability against
or by the Government of Guam.” Consent Decree 3,
J.A. 92. Pointing to what it calls this “clear and
unambiguous” language, Guam urges us to take the
disclaimer at its word. Appellee’s Br. 16–17. To be
sure, a disclaimer of liability may weigh against the
conclusion that the parties intended to resolve
liability within the meaning of section 113(f)(3)(B).
See, e.g., Florida Power Corp. v. FirstEnergy Corp.,
810 F.3d 996, 1002 (6th Cir. 2015) (finding that
consent decree did not resolve the plaintiff’s liability,
in part because “the plaintiff had not conceded the
question of its liability”). As other circuits faced with
similar language have observed, however, “parties
often expressly refuse to concede liability under a
settlement agreement, even while assuming
obligations consistent with a finding of liability.”
Asarco, 866 F.3d at 1123. Accordingly, “the mere fact
that [a party] refused to admit liability is not enough
to exempt [a consent] [d]ecree from the reach of
section 113(f)(3)(B).” Refined Metals Corp., 937 F.3d
at 931. Here, the disclaimer of liability, standing
alone, cannot overcome the Consent Decree’s
substantive provisions.
And because we have
concluded that those substantive terms do, in fact,
“resolve” Guam’s “liability” to the United States “for
some . . . of a response action,” supra at 114–16, the
Consent Decree triggers section 113(f)(3)(B) despite
the disclaimer.
Guam nonetheless asserts that the consent decree
falls outside CERCLA’s provisions because the

25a
statute covers “[c]ontamination involving ‘hazardous
substances’” and the Clean Water Act violations
alleged in EPA’s Complaint concerned “non-CERCLA
pollutant discharges only.” Appellee’s Br. 42. But the
Complaint demanded that Guam “complete
construction of [a] cover system to eliminate
discharges of untreated leachate,” CWA Compl. ¶ 29,
and CERCLA expressly identifies the “collection of
leachate and runoff” as a “remedial action,” CERCLA
§ 101(24).
And finally, Guam argues that denying it the right
to seek recovery under section 107 presents
constitutional concerns. “[A]s to non-settling PRPs,”
Guam insists, “the right to contribution is a property
interest, which cannot be extinguished without due
process of law.” Appellee’s Br. 49 (internal quotations
omitted). Because a qualifying section 113(f)(3)(B)
settlement insulates Guam from further contribution
suits, Guam argues that other PRPs lack notice, and
“[a]llowing the [Clean Water Act] and [Consent
Decree] at issue here to trigger contribution rights
equates to silently extinguishing the property interest
of anyone who might have a potential claim against a
settling party without due process of law.” Id.
Although it is far from clear whether Guam could
assert this claim on behalf of absent third parties,
because Guam failed to raise it in the district court,
“it is forfeited.” Keepseagle v. Vilsack, 815 F.3d 28, 36
(D.C. Cir. 2016). And as to Guam’s own rights, Guam
lost the ability to bring a contribution claim not
because it was deprived of due process, but because
the statute of limitations ran.

26a
IV.
From Guam’s perspective, the result we reach
today is harsh. “[A]ccept[ing] as true,” as we must at
this stage, “all material allegations of the complaint,”
Barker v. Conroy, 921 F.3d 1118, 1121 (D.C. Cir. 2019)
(internal quotations omitted), the United States
deposited dangerous munitions and chemicals at the
Ordot Dump for decades and left Guam to foot the bill.
The practical effect of our decision is that Guam
cannot now seek recoupment from the United States
for that contamination because its cause of action for
contribution expired in 2007. Unfortunately for
Guam, however, “where a statute is clear, the courts
are not at liberty to construe the statute other than
according to its terms, or to depart from its clear
requirements.” Hirshfeld v. District of Columbia, 254
F.2d 774, 775 (D.C. Cir. 1958) (internal citations
omitted). And while offering little consolation to
Guam, EPA has reduced the likelihood that these
circumstances will reoccur by since revising its model
settlement language to include an express statement
that the parties “agree that this Settlement
Agreement constitutes an administrative settlement
for purposes of Section 113(f)(3)(B) of CERCLA.”
Florida Power Corp., 810 F.3d at 1009.
For the foregoing reasons, we reverse the district
court’s denial of the United States’ motion to dismiss
and remand with instructions to dismiss the
complaint.
So ordered.

27a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
GOVERNMENT OF GUAM, Plaintiff,
v.
UNITED STATES of America,
Defendant.
No. 1:17-cv-2487 (KBJ)
Signed February 28, 2019
2019 WL 1003606
MEMORANDUM OPINION
KETANJI BROWN JACKSON, United States
District Judge
On September 30, 2018, this Court issued an
Order denying a motion to dismiss that the United
States had filed in the instant matter, which is a case
that involves cost-recovery and contribution claims
that the government of Guam has brought against the
United States. See Gov’t of Guam v. United States,
341 F. Supp. 3d 74 (D.D.C. 2018). (See also Order,
ECF No. 37.) Guam’s complaint maintains that,
“because the United States substantially contributed
to the environmental contamination at [Guam’s]
Ordot Landfill, the United States should pay the full
$160,000,000 cost of cleaning up the dump under [the
Comprehensive
Environmental
Response,
Compensation, and Liability Act’s (‘CERCLA’s’)]
section 107(a)’s cost-recovery mechanism, or should at
least pay its fair share of the cleanup costs under
CERCLA’s
section
113(f)(3)(B)’s
contribution
mechanism[.]”
Id. at 76–77 (internal citations

28a
omitted).1 In its motion to dismiss, the United States
argued that (1) Guam cannot proceed on its section
107(a) cost-recovery claim, because Guam “resolved
its liability for th[e] cleanup” as part of a past
settlement agreement with the United States and, as
a result, a section 113(f)(3)(B) contribution claim is
the exclusive CERCLA remedy available to Guam at
present, id. at 80; and (2) Guam cannot proceed on
any section 113(f)(3)(B) contribution claim against the
United States because such a claim is now timebarred, see id. This Court disagreed with the
proposition that Guam is precluded from bringing a
section 107(a) cost-recovery claim, based on the plain
language of the settlement agreement and the Court’s
interpretation of section 113(f)(B)(3), and thus, the
Court denied the United States’ Rule 12(b)(6) motion.
See id. at 97 (concluding that “Guam’s right to
contribution under section 113(f)(3)(B) has not yet
been triggered, which means that it is not precluded
from proceeding via a cost-recovery action under
section 107(a)”).
Before this Court at present is another motion that
the United States has presented for this Court’s
consideration: a motion to certify for interlocutory
appeal this Court’s Order denying the motion to
dismiss, in accordance with section 1292(b) of Title 28
of the United States Code, and to stay all district
court proceedings pending a decision by the D.C.

1

In the context of CERCLA, courts commonly refer to the costrecovery authority in section 9607(a) of Title 42 of the United
States Code as a “section 107(a)” action, and they have dubbed
the right to seek contribution under section 9613(f)(3)(B) of Title
42 a “section 113(f)(3)(B)” action. This Memorandum Opinion
generally employs that same nomenclature.

29a
Circuit on appeal. (See Mem. in Supp. of Def.’s Mot.
to Certify Dismissal Orders for Interlocutory Appeal
(“Def.’s Mem.”), ECF No. 49-1, at 6.)2 Because this
Court finds that there is a substantial ground for
difference of opinion regarding at least one controlling
issue of law that the United States has identified, and
that allowing the United States to appeal at this stage
in the litigation could materially advance the
litigation, see 28 U.S.C. § 1292(b), it concludes that
the legal standard for certifying the prior Order for
interlocutory appeal has been met. The Court further
finds that a stay of the district court proceedings
would benefit judicial economy and would not subject
the parties to hardship during the pendency of the
requested appeal. Therefore, the United States’
motion for certification will be GRANTED, and all
district court proceedings will be STAYED pending
the D.C. Circuit’s resolution of the United States’
appeal. A separate Order consistent with this
Memorandum Opinion will follow.
I.
The facts and procedural history of this case are
recited in full in the Memorandum Opinion that this
Court issued in conjunction with its Order denying
the United States’ motion to dismiss. See Gov’t of
Guam, 341 F. Supp. 3d at 78–81. As relevant to the
instant motion, that Opinion notes that “Guam served
as a central base of operations for the United States
Navy in the South Pacific” for the better part of 50
years, beginning in 1898, id. at 76 (citation omitted),
and that during this period of use, the Navy
2

Page-number citations to the documents that the parties
have filed refer to the page numbers that the Court’s electronic
filing system automatically assigns.

30a
“established the Ordot Landfill to dispose of the waste
being generated on the island[,]” id. at 78 (citation
omitted).
When the United States transferred
ownership of the landfill to the newly-formed civilian
government of Guam in 1950, Guam “continued to
operate the Ordot Landfill as a dump until the facility
was officially closed in 2011.” Id. (citation omitted).
Notably, even while it was in operation, the Ordot
Landfill had more than its share of maintenance
issues; indeed, “[t]he [Environmental Protection
Agency (‘EPA’)] ha[d] been aware of . . .
environmental problems with the Ordot Landfill for
many decades[,]” and the EPA “regularly ordered
Guam to devise a feasible plan for containing and
disposing of the waste at the landfill[.]” Id. at 78–79.
In 2002, “[t]he EPA finally filed a lawsuit against
Guam”; the agency specifically claimed that “leachate
was discharging from the Ordot Landfill into the
Lonfit River and two of its tributaries in violation of
the [Clean Water Act].” Id. at 79 (internal quotation
marks and citation omitted). To resolve this legal
action, in 2004, Guam and the EPA “entered into a
consent decree” that “required Guam to pay a
relatively modest civil penalty; mandated that Guam
close the Ordot Landfill and cease the discharge of
pollutants into the Lonfit River; and required Guam
to construct a new municipal landfill to replace the
Ordot Landfill.” Id. (internal citations omitted).
“[T]he Consent Decree [also] specifically provided
that the agreement was based on the pleadings,
before taking testimony or adjudicating any issue of
fact or law, and without any finding or admission of
liability against or by the Government of Guam.” Id.
(alteration, internal quotation marks, and citation
omitted).
Furthermore, the written agreement

31a
expressly stated that “nothing in this Consent Decree
shall limit the ability of the United States to enforce
any and all provisions of applicable federal laws and
regulations for any violations unrelated to the claims
in the [EPA’s] Complaint or for any future events that
occur[.]” Id. (alteration and citation omitted).
Following entry of the 2004 Consent Decree,
“remediation and closure work began[,]” at Guam’s
expense. Id. at 80 (alteration, internal quotation
marks, and citation omitted). At present, “Guam
expects costs of remediation to exceed approximately
$160,000,000.” Id. (internal quotation marks, ellipsis,
and citation omitted). “Guam filed the instant
CERCLA action against the United States [in 2017]
to recoup its landfill-closure and remediation costs.”
Id. (See also Am. Compl., ECF No. 7.)3

3

The first count of Guam’s three-count operative amended
complaint, which was filed May 19, 2017, alleges that
because the United States Navy contributed hazardous
waste to the Ordot Landfill and managed that landfill for
many decades, Guam is entitled to recover all of the ‘removal
and remediation costs’ it incurred at or ‘related to the Ordot
Landfill, plus interest’ from the United States pursuant to
section 107(a) of the CERCLA.
Gov’t of Guam, 341 F. Supp. 3d at 80 (internal citations omitted).
“The second count seeks ‘a declaratory judgment of liability’ to
the effect that the United States will pay for Guam’s future
expenses relating to the remediation of the Ordot Landfill under
CERCLA’s section 113(g)(2).” Id. (citation omitted). In the
alternative to the full cost-recovery counts, the complaint’s third
count seeks “contribution under section 113(f)(3)(B) of
CERCLA[,]” on the grounds that, “even if it is not entitled to
recover the full costs of remediation and closure of the Ordot
Landfill, the United States must nevertheless pay ‘for all such
costs in excess of Plaintiff’s fair and equitable share of costs.’”
Id. (alteration and citation omitted).

32a
A.
The United States filed a motion to dismiss
Guam’s complaint under Federal Rule of Civil
Procedure 12(b)(6) on November 27, 2017. (See Def.’s
Mot. to Dismiss, ECF No. 27.) In that motion, the
United States maintained that Guam cannot state a
claim for either cost recovery or contribution under
the CERCLA as a matter of law. (See id. at 2–3.) The
United States reasoned, first, that because “Guam
resolved its liability for that cleanup in the 2004
Consent Decree,” it “cannot recover its costs for
remediating the Ordot Landfill under section
107(a)[.]” Gov’t of Guam, 341 F. Supp. 3d at 80
(citation omitted); see also id. (quoting the United
States as arguing that “the exclusive CERCLA
remedy for the costs a liable party is compelled to
incur pursuant to a judicially-approved settlement
with the United States” is a contribution claim under
section 113(f)(3)(B)). The United States then asserted
that Guam cannot maintain a contribution claim
under section 113(f)(3)(B) either, because the statute
of limitations has long run on any such claim. See id.
(explaining the United States’ view that “Guam [has]
waited far too long after settling its liability in 2004
to bring its alternative claim for contribution”).
In response, Guam argued that it was legally
entitled to maintain a full cost-recovery action under
CERCLA section 107(a) because
its right to maintain a contribution action
under section 113(f)(3)(B) was never triggered
[given that] Guam had not ‘resolved its liability
for a response action or for some or all of the
costs of such action in the context of ‘an
administrative
or
judicially
approved

33a
settlement’ as the text of section 113(f)(3)(B)
requires.
Id. (citation, ellipsis, and alterations omitted). To be
specific, “Guam insist[ed] that the parties ‘did not
resolve response cost liability’ in the 2004 Consent
Decree,” given that “the provisions of that agreement
left Guam fully exposed to future liability under
CERCLA.” Id. (citation omitted). Guam also asserted
that “because the 2004 Consent Decree was ‘expressly
limited to the [Clean Water Act],’ . . . it does not
qualify as a ‘settlement agreement’ giving rise to a
cause of action for contribution under CERCLA’s
section 113(f)(3)(B).” Id. at 81 (citations omitted).
B.
In ruling on the United States’ motion to dismiss,
this Court acknowledged that “cost-recovery claims
under CERCLA section 107(a) and contribution
claims under CERCLA section 113(f)(3)(B) are
exclusive of one another, such that Guam is permitted
to proceed against the United States for full cost
recovery under section 107(a) only if Guam’s right to
contribution under section 113(f)(3)(B) has not been
triggered.” Id. at 84 (footnote omitted). The Court
therefore assessed “whether the 2004 Consent Decree
resolved Guam’s liability for the response action or
response costs that Guam undertook with respect to
the Ordot Landfill and also qualifies as a ‘settlement’
within the meaning of section 113(f)(B)(3) [of
CERCLA].” Id. (internal quotation marks, citation,
and alterations omitted).
The Court’s resolution of this issue rested on
several significant legal determinations. First, the
Court concluded that liability “is not ‘resolved’ simply
and solely because interested parties have ‘signed a

34a
settlement agreement’ concerning the response
actions that will be taken at the site, or because one
or more [potentially responsibly parties (‘PRPs’)] have
‘cut a check’ made payable to the United States.” Id.
at 85 (alteration and citations omitted). Rather, “‘the
nature, extent, or amount of a PRP’s liability must be
decided, determined, or settled, at least in part, by
way of agreement with the EPA.’” Id. (quoting
Bernstein v. Bankert, 733 F.3d 190, 212 (7th Cir.
2013)) (emphasis in original).
The Court then
explained that in order to determine whether an
agreement has “decided, determined, or settled the
nature, extent, or amount” of a party’s liability, id.
(internal quotation marks and citation omitted), “a
court must ‘look to the specific terms of the
agreement’ and ascertain whether, based on the
provisions in the settlement agreement, the parties
intended to resolve the plaintiff’s liability within the
meaning of section 113(f)(3)(B)[,]” id. (quoting Fla.
Power Corp. v. FirstEnergy Corp., 810 F.3d 996, 1001
(6th Cir. 2015)).
Significantly for present purposes, the Court also
specifically noted that “the courts of appeals diverge
. . . with respect to how one best interprets agreement
language that expressly eschews liability and
reserves the right to sue,” id. at 86 (emphasis in
original), and it joined the Sixth and Seventh Circuits
in concluding that “contracts containing nonadmissions of liability, broad reservations of rights,
and conditional covenants not to sue do not resolve
liability[,]” id. (capitalization altered). Turning to the
settlement agreement at issue in this case—which
contained a “clear disclaimer of liability, [a]
conditional release of liability for the claims the
United States had brought against Guam in a [Clean

35a
Water Act] complaint, and two complementary
reservation-of-rights clauses[,]” id. at 92—this Court
ultimately “conclude[d] that the 2004 Consent Decree
did not trigger Guam’s contribution rights under
section 113(f)(3)(B) . . . which means that Guam is not
precluded from maintaining its section 107(a) claim
against the United States[,]” id. at 84.
Thus, in ruling on the United States’ motion to
dismiss, the Court expressly found
that whether or not an agreement for the
removal or remediation of hazardous waste
‘resolves’ liability for section 113(f)(3)(B)
purposes turns on the terms of the agreement,
and that, here, the 2004 Consent Decree did
not resolve Guam’s liability for the Ordot
Landfill cleanup given the broad, open-ended
reservation of rights, the plain non-admission
of liability, and the conditional resolution of
liability that the agreement contains.
Gov’t of Guam, 341 F. Supp. 3d at 84. And it was for
those reasons that the Court denied the United
States’ motion to dismiss. See id. at 97.
II.
Section 1292(b) of Title 28 of the United States
Code provides that a district court may, in its
discretion, certify an order for interlocutory appeal if
“(1) the order involves a controlling question of law;
(2) a substantial ground for difference of opinion
concerning the ruling exists; and (3) an immediate
appeal would materially advance the litigation.”
APCC Servs., Inc. v. Sprint Commc’ns Co., 297 F.
Supp. 2d 90, 95 (D.D.C. 2003); see also 28 U.S.C.
§ 1292(b). “A mere claim that the district court’s
ruling was incorrect” will not suffice to establish that

36a
“a substantial ground for difference of opinion” exists.
Singh v. George Wash. Univ., 383 F. Supp. 2d 99, 104
(D.D.C. 2005) (internal quotation marks and citation
omitted). Rather, the requisite grounds for difference
of opinion are “often established by a dearth of
precedent within the controlling jurisdiction and
conflicting decisions in other circuits[,] [or] where a
court’s challenged decision conflicts with decisions of
several other courts.” APCC Servs., 297 F. Supp. 2d
at 97–98.
“[A] court faced with a motion for
certification must analyze the strength of the
arguments in opposition to the challenged ruling to
decide whether the issue is truly one on which there
is a substantial ground for dispute.” Id. at 98. And in
order to show that an interlocutory appeal would
“materially advance the ultimate termination of the
litigation[,]” 28 U.S.C. § 1292(b), a movant must show
that “reversal [of the court’s order on appeal] would
hasten or at least simplify the litigation in some
material way, such as by significantly narrowing the
issues, conserving judicial resources, or saving the
parties from needless expense.” Nat’l Veterans Legal
Servs. Program v. United States, 321 F. Supp. 3d 150,
155 (D.D.C. 2018) (internal quotation marks and
citation omitted).
In addition to satisfying the elements of section
1292(b) in a technical sense, the party who seeks an
interlocutory appeal also “has the burden of
persuading the Court that the circumstances justify a
departure from the basic policy of postponing
appellate review until after the entry of a final
judgment.” APCC Servs., 297 F. Supp. 2d at 95
(internal quotation marks and citation omitted).
Because interlocutory appeals are generally
disfavored, given the “strong congressional policy

37a
against piecemeal reviews, and against obstructing or
impeding an ongoing judicial proceeding by
interlocutory appeals,” Judicial Watch, Inc. v. Nat’l
Energy Policy Dev. Grp., 233 F.Supp.2d 16, 20 (D.D.C.
2002) (internal quotation marks and citation
omitted), when deciding whether to grant a request
for certification of an order for interlocutory appeal
under section 1292(b), a court must conclude not only
that the moving party has satisfied all of the elements
of section 1292(b), but also that certification is
appropriate as a discretionary matter. See Molock v.
Whole Foods Mkt. Grp., Inc., 317 F. Supp. 3d 1, 4
(D.D.C. 2018).
There is no dispute in the instant case that the
United States has satisfied the first element of the
section 1292(b) standard. (See Def.’s Mem. at 11, 12
(identifying “several controlling questions of law” that
this Court’s prior Order encompasses, including “how
to properly interpret CERCLA [section 113(f)(3)(B)]”;
“[w]hether the 2004 judicial settlement with the
United States allowed Guam to pursue a CERCLA
contribution claim under CERCLA [section
113(f)(3)(B)]”; and the proper “legal interpretation of
the 2004 consent decree’s terms”); see also Pl.’s Opp’n
at 8 (conceding that “the first prong of the
discretionary § 1292(b) test is admittedly satisfied”).)
For the reasons explained below, this Court further
finds (A) that there is a substantial ground for
difference of opinion concerning at least one such
question, (B) that the immediate resolution of that
question on appeal would materially advance the
ultimate disposition of the litigation, and (C) that
certification of the Court’s prior Order is appropriate
under the circumstances presented here. (See Def.’s
Mem. at 10–11 (citing Howard v. Office of the Chief

38a
Admin. Officer of the U.S. House of Reps., 840 F. Supp.
2d 52, 55 (D.D.C. 2012); GTE New Media Servs. Inc.
v. Ameritech Corp., 44 F. Supp. 2d 313, 316 (D.D.C.
1999)).)
A.
Given this Court’s prior ruling, a “substantial
ground for difference of opinion,” 28 U.S.C. § 1292(b),
plainly exists as to the question of “how one best
interprets agreement language that expressly
eschews liability and reserves the right to sue, when
the court undertakes to evaluate whether a particular
agreement resolved the liability of a CERCLA
plaintiff for section 113(f)(3)(B) purposes[,]” Gov’t of
Guam, 341 F. Supp. 3d at 86 (internal quotation
marks, alterations, and emphasis omitted).
As
explained in Section II above, a substantial ground for
difference of opinion can be “established by a dearth
of precedent within the controlling jurisdiction” or by
“conflicting decisions in other circuits.” APCC Servs.,
297 F. Supp. 2d at 97. It is clear to this Court that
both of these circumstances exist here.
For one thing, there is no controlling precedent
from the D.C. Circuit with respect to how to interpret
section 113(f)(3)(B) in this context, because the D.C.
Circuit has not yet addressed this question. In fact,
this Court appears to be the only district court within
this jurisdiction to have considered the matter. And,
indeed, whether or not a particular consent decree or
other agreement “resolves” liability for the purpose of
this CERCLA section appears to be a mixed question
of law and fact that plainly warrants guidance from
the courts of appeals.
Furthermore, as mentioned above and explained
fully in this Court’s prior opinion, the other courts of

39a
appeals that have analyzed this issue are split—with
the Sixth and Seventh Circuits on one side, and the
Ninth Circuit on the other. See Gov’t of Guam, 341 F.
Supp. 3d at 86; see also Asarco LLC v. Atl. Richfield
Co., 866 F.3d 1108, 1124–25 (9th Cir. 2017); Fla.
Power Corp. v. FirstEnergy Corp., 810 F.3d 996, 1004–
05 (6th Cir. 2015); Bernstein v. Bankert, 733 F.3d 190,
212–14 (7th Cir. 2013). This Court devoted five pages
of its prior opinion to a robust analysis of the
divergent circuit court views, see Gov’t of Guam, 341
F. Supp. 3d at 86–90; see also APCC Servs., 297 F.
Supp. 2d at 98 (directing courts to “analyze the
strength of the arguments in opposition to the
challenged ruling” when evaluating a section 1292(b)
certification motion), and the schism need not be
recounted fully here. It suffices to reiterate that this
Court agreed—and continues to agree—with the
Sixth and Seventh Circuits’ holding that “contracts
containing non-admissions of liability, broad
reservations of rights, and conditional covenants not
to sue do not resolve liability[,]” Gov’t of Guam, 341 F.
Supp. 3d at 86 (capitalization altered and emphasis
added). And this conclusion stands in clear contrast
to the Ninth Circuit’s stated position that such
agreements can “‘resolve’ liability for the purpose of
CERCLA section 113(f)(3)(B)[.]” Id. at 88. This Court
has not faltered in its abiding belief in its own
interpretation of section 113(f)(3)(B), which the Sixth
and Seventh Circuits share; however, given the Ninth
Circuit’s opposing view, there unquestionably exists
substantial ground for different interpretations. See,
e.g., In re Cintas Corp. Overtime Pay Arbitration
Litig., No. M:06-cv-01781, 2007 WL 1302396, at *2
(N.D. Cal. May 2, 2007) (finding that “[s]ubstantial
ground for difference of opinion” existed because

40a
“there is a substantial circuit split” on the pertinent
issue).
The Government of Guam attempts to counter this
conclusion by pointing out that, “while the issue of law
decided in the Court’s Opinion and Order may have
been of first impression in this Circuit, that fact alone
is not dispositive of whether there are ‘substantial
grounds for differences of opinion’ as to that issue.”
(Pl.’s Opp’n at 9–10.) This may be so, but, again, the
fact that the D.C. Circuit has not yet decided the
pertinent legal issue is only one component of this
Court’s conclusion that there exists substantial
ground for difference of opinion for the purpose of the
pending section 1292(b) certification motion. And
Guam does little to diminish the import of the most
significant aspect of this Court’s certification
reasoning: the fact that there is a circuit split on the
precise legal issue that precipitated this Court’s
ruling regarding the United States’ motion to dismiss.
Boiled to bare essence, Guam’s primary argument
in opposition to certification is that the Ninth Circuit
got it wrong, and that, to the extent that “[t]he Court’s
Opinion and Order comports with the majority of
Circuit Courts that have addressed the issue[,]” this
Court has “provided a ‘better approach’ than the
Ninth Circuit to the question of law at issue.” (Id. at
10.) But a district court’s agreement with the weight
of authority regarding a particular issue does not
mean that there is no “substantial ground for
difference of opinion[,]” 28 U.S.C. § 1292(b), as
evidenced by the reasoning and opposing conclusion
of another court of appeals, cf. APCC Servs., 297 F.
Supp. 2d at 98 (“The mere fact that a substantially
greater number of judges have resolved the issue one
way rather than another does not, of itself, tend to

41a
show that there is no ground for difference of opinion.”
(internal quotation marks and citation omitted)). And
while Guam correctly observes that the Ninth Circuit
disagrees with this Court on only “one limited issue”
(Pl.’s Opp’n at 10), it does not dispute that this
relatively narrow disagreement centers on what has
turned out to be the controlling legal issue with
respect to the disputed motion in the instant case.
(See Def.’s Mem. at 11.)
Finally, even when the majority of the circuit
courts that have addressed a particular issue
supports the district-court ruling that a proposed
interlocutory appeal seeks to address, there may still
be a sufficiently “substantial” ground for
disagreement warranting interlocutory review, based
on the nature of the case and the threshold status of
the
disputed
district
court
determination.
Specifically, “[w]here proceedings that threaten to
endure for several years depend on an initial question
of jurisdiction or the like, certification may be
justified even if there is a relatively low level of
uncertainty.” APCC Servs., 297 F. Supp. 2d at 98
(internal quotation marks, citation, and ellipsis
omitted).
So it is here. The proceedings in this case
“threaten to endure for several years[,]” id., as
discussed below, and the issue to be presented on
appeal is a significant threshold question that, if
reversed by the D.C. Circuit, would likely result in
dismissal of Guam’s entire case. Therefore, given that
at least one court of appeals has disagreed with this
Court’s conclusion regarding “how one best interprets
[settlement] agreement language . . . when the court
undertakes to evaluate whether a particular
agreement resolved the liability of a CERCLA

42a
plaintiff for section 113(f)(3)(B) purposes[,]” Gov’t of
Guam, 341 F. Supp. 3d at 86 (internal quotation
marks, alterations, and emphasis omitted)—a legal
issue that arises at the outset of this potentially
lengthy legal dispute and that might well resolve the
entire case—this Court finds that the requisite
“substantial ground for difference of opinion” exists to
support the United States’ call for interlocutory
review.
B.
Allowing the United States to appeal this Court’s
Order denying its motion to dismiss now, rather than
after the Court issues a final judgment, would also
materially advance this litigation. See 28 U.S.C.
§ 1292(b); see also Nat’l Veterans Legal Servs.
Program, 321 F. Supp. 3d at 155 (“[T]he relevant
inquiry is whether reversal would hasten or at least
simplify the litigation in some material way, such as
by significantly narrowing the issues, conserving
judicial resources, or saving the parties from needless
expense.” (internal quotation marks and citation
omitted)). “[A] movant need not show that a reversal
on appeal would actually end the litigation.” Id.
(internal quotation marks and citation omitted). But
adding a belt to suspenders, the United States has
done so here.
That is, if the D.C. Circuit were to reverse this
Court’s ruling and find that the 2004 Consent Decree
did, in fact, “resolve[] [Guam’s] liability to the United
States for the cleanup and closure of the Ordot
Landfill” and was “a cognizable ‘settlement’ for
[CERCLA] section 113(f)(3)(B) purposes[,]” and thus
that the past settlement triggered Guam’s right to
contribution under section 113(f)(3)(B), then Guam’s

43a
“contribution action must be dismissed as untimely,
per the applicable three-year statute of limitations.”
Gov’t of Guam, 341 F. Supp. 3d at 77 (internal
quotation marks and citations omitted); (see also
Def.’s Mem. at 13). Moreover, Guam’s section 107(a)
claim would also necessarily fail, because, as noted
above, “cost-recovery claims under CERCLA section
107(a) and contribution claims under CERCLA
section 113(f)(3)(B) are exclusive of one another,” and
“Guam is permitted to proceed against the United
States for full cost recovery under section 107(a) only
if Guam’s right to contribution under section
113(f)(3)(B) has not been triggered.” Gov’t of Guam,
341 F. Supp. 3d at 84 (footnote omitted); (see also
Def.’s Mem. at 13). A reversal of this Court’s Order
on appeal would therefore bring this litigation to a
close, which obviously meets the standard of
“materially advanc[ing] the ultimate termination of
the litigation.” 28 U.S.C. § 1292(b).
The potential for conservation of judicial resources
and avoidance of “needless expense” to the parties is
another factor that weighs in favor of certifying this
Court’s ruling for interlocutory appeal. Nat’l Veterans
Legal Servs. Program, 321 F. Supp. 3d at 155
(internal quotation marks and citation omitted).
Discovery has not yet begun in this cost-recovery case.
And as the United States notes in its motion to certify,
discovery is likely to be wide-ranging and extensive,
for it “will cover issues ranging from World War II
military engagements on the Island to the many
decades of Guam’s subsequent waste disposal
operations at the Ordot Dump.” (Def.’s Mem. at 17.)
Guam does not contest that “[t]he Parties likely will
spend many thousands of hours[,] and the United
States will incur hundreds of thousands of dollars in

44a
discovery and expert-related expenses[,] to defend
this CERCLA case all the way through trial[.]” (Id. at
18.) And joinder of additional parties, i.e., those
entities “that arranged for the disposal of hazardous
waste at the Ordot Dump or transported such waste
to the Dump[,]” may also be necessary. (Id. at 17.)
Thus, “even under Guam’s case management
proposal[,]” it seems likely that this case could take
several years to litigate. (Id. at 18). On the other
hand, if the Court’s motion-to-dismiss ruling is
certified for interlocutory review, and if the D.C.
Circuit reverses this Court’s Order, none of the
anticipated lengthy and costly proceedings would be
necessary.
Guam responds that even if this Court were to
certify its Order for immediate appeal and the D.C.
Circuit were to reverse the Order, litigation would
still continue, as “the case would be returned to this
Court in order to address Guam’s alternative grounds
for denial” of the United States’ motion to dismiss.
(Pl.’s Opp’n at 11); see also Gov’t of Guam, 341 F.
Supp. 3d at 94 n.13 (“Because this Court concludes
that the 2004 Consent Decree did not resolve liability
within the meaning of section 113(f)(3)(B), it need not
consider whether a consent decree that addresses
claims under the CWA can qualify as a ‘settlement’
within the meaning of section 113(f)(3)(B), or any of
Guam’s myriad other contentions.” (internal citations
omitted)). This argument appears to proceed from a
misunderstanding of the nature of an interlocutory
appeal of the denial of a dispositive motion that
sought to terminate the case.
First of all, it is clear beyond cavil that “the
appellate court may address any issue fairly included
within the certified order because it is the order that

45a
is appealable, and not the controlling question
identified by the district court.” United States v.
Philip Morris USA, Inc., 396 F.3d 1190, 1194 (D.C.
Cir. 2005) (quoting Yamaha Motor Corp., USA v.
Calhoun, 516 U.S. 199, 205 (1996)) (emphasis in
original) (internal quotation marks omitted). This
means that, upon interlocutory appeal, the D.C.
Circuit would be reviewing this Court’s Order
denying the United States’ motion to dismiss,
“regardless of the grounds [this] Court gave for its
decision.” Id. And because Guam’s alternative
arguments were put “before the [C]ourt[,]” the circuit
court can consider those arguments within the ambit
of its interlocutory review. Id.
What is more, because the effect of an appellate
reversal of a district court’s order denying a motion to
dismiss is a holding by the court of the appeals that
the district court should have granted the motion—
i.e., a reversal under these circumstances ends the
case—the D.C. Circuit would most likely reach and
dispose of Guam’s alternative arguments for why the
case should go forward in the course of conducting its
interlocutory review. Cf. id. (noting that “granting
[the summary judgment] motion would have resulted
in complete dismissal of the Government’s claim” and
thus the court of appeals “may review [the District
Court’s denial] regardless of the grounds the District
Court gave for its decision” (emphasis in original)); id.
at 1196 (“[I]t is difficult to see how we could establish
such a policy that would cause us to affirm a decision
denying summary judgment when a ground
compelling its grant is fairly encompassed within the
order.”); see also Lewis v. Pension Benefit Guar. Corp.,
912 F.3d 605, 609 (D.C. Cir. 2018) (explaining that, in
the context of an interlocutory appeal pursuant to

46a
section 1292(b), court of appeals still “review[s] de
novo the district court’s decision on the motion to
dismiss”). Consequently, far from Guam’s suggestion
that an appeal to the D.C. Circuit would encompass
only the one anti-dismissal argument that this Court
found persuasive, the D.C. Circuit would be called
upon to determine the propriety of this Court’s denial
of the United States’ motion more generally (based on
whatever arguments the circuit court deemed
necessary to consider), and if it reversed this Court’s
ruling, it would order that the motion be granted and
that Guam’s case be dismissed.
Undaunted, Guam further insists that the instant
motion for certification is part of an overall “strategy
of delay and piecemeal litigation” on the part of the
United States that this Court should not
countenance. (Pl.’s Opp’n at 12; see also id. (asserting
that “the U.S. also has raised 18 other defenses in this
case for which the same arguments made [in its
motion to certify] could be made again following
another unfavorable (to the U.S.) result[,]” and that
“[t]he Court should not permit the U.S. to continue its
strategy of delay and piecemeal litigation where many
other dispositive motions and differences of opinion
are likely to follow”).) These contentions are plainly
speculative, and Guam has not pointed to any
evidence of bad faith on the part of the United States
or its representatives. In the absence of such
evidence, Guam’s concern about future actions that
counsel for the United States may or may not take is
manifestly insufficient to rebut an otherwise viable
certification request. If litigation continues before
this Court and the United States elects to engage in
unwarranted delay and “piecemeal” challenges in
regard to future matters (id.), then Guam might well

47a
be in a position to support its contentions and to argue
that certain procedural maneuvers should not be
permitted going forward. But for now, Guam has
failed to make a sufficient showing that the present
motion for certification is indicative of any such bad
faith strategy on the part of the United States.
C.
Having concluded that the each of the elements of
section 1292(b) have been met, this Court further
finds that certifying its Order denying the United
States’ motion to dismiss for interlocutory appeal is
appropriate as a discretionary matter. See APCC
Servs., 297 F. Supp. 2d at 95. The Court will exercise
its discretion in this regard for largely the same
reasons that it has determined that allowing for
interlocutory appeal under the circumstances
presented here could materially advance the
litigation. (See supra Sec. II.B.) Well over onehundred million dollars are at stake in this case, see
Gov’t of Guam, 341 F. Supp. 3d at 76, and discovery
regarding the causes of the contamination at issue is
likely to be voluminous and costly (see Def.’s Mem. at
18.).
The parties and this Court would avoid
significant costs if the D.C. Circuit decides on appeal
that this Court was wrong about the threshold legal
question pertaining to Guam’s ability to seek cost
recovery as a matter of law.
In sum, this Court has concluded that allowing the
United States to appeal the Court’s ruling denying its
motion to dismiss immediately not only satisfies the
elements of section 1292(b) of Title 28 of the United
States Code, but also is appropriate under the
circumstances presented in this case. As such, the

48a
Court will certify its Order of September 30, 2018, for
interlocutory appeal.
III.
This Court must next decide whether or not to stay
the present proceedings, in light of its decision to
certify its Order denying the United States’ motion to
dismiss for interlocutory appeal. See 28 U.S.C.
§ 1292(b) (“[A]pplication for an appeal hereunder
shall not stay proceedings in the district court unless
the district judge or the Court of Appeals or a judge
thereof shall so order.”). “District courts have broad
discretion to stay all proceedings in an action pending
the resolution of independent legal proceedings.”
Nat’l Indus. for the Blind v. Dep’t of Veterans Affairs,
296 F. Supp. 3d 131, 137 (D.D.C. 2017).
“In
considering a stay, courts must ‘weigh competing
interests and maintain an even balance between the
court’s interests in judicial economy and any possible
hardship to the parties.’” Id. (quoting Belize Soc. Dev.
Ltd. v. Gov’t of Belize, 668 F.3d 724, 732–33 (D.C. Cir.
2012)). Thus, “hardship to the parties and benefits to
judicial economy are the key interests to consider in
evaluating a motion for a stay.” Id.
It is clear to this Court that staying the instant
district court proceedings would serve judicial
economy and would not subject either party to
hardship. As discussed above, discovery has not yet
begun in this case, and a reversal of this Court’s
ruling would likely make discovery unnecessary.
Moreover, given that the underlying case is itself a
cost-recovery action, any clean-up costs that Guam
incurs during the pendency of the interlocutory
appeal would be subject to recovery (just like the costs

49a
that have already been incurred), plus interest, if the
D.C. Circuit affirms this Court’s Order on appeal.
Guam argues that, instead of issuing a stay, “the
case should be trifurcated,” and the Court should
allow discovery to proceed. (Pl.’s Opp’n at 13; see also
Joint Case Mgmt. Report, ECF No. 48, at 12
(proposing that “Phase I would focus solely on issues
of liability and associated defenses”; “Phase II would
focus solely on damages and associated defenses”; and
“Phase III would focus solely upon allocation of
responsibility between the liable Defendants”).) In
this regard, Guam asserts that the district court’s
rationale behind denying the requested stay in In re
Vitamins Antitrust Litigation is “equally applicable
here[.]” (Id.); see also In re Vitamins Antitrust Litig.,
No. 99-197, 2000 WL 33142129, at *2 (D.D.C. Nov. 22,
2000) (reasoning that “[a] stay of jurisdictional
discovery would certainly thwart the prompt
resolution of this matter”). But the order that was
certified for interlocutory appeal in the In re Vitamins
case addressed only which rules would govern
jurisdictional discovery, and did not resolve any
dispositive legal issues. See id. at *1. Thus, that
court’s “prompt resolution” rationale does not apply
here. Id. at *2. In other words, in the In re Vitamins
case, proceedings would continue before the district
court no matter what the D.C. Circuit decided,
whereas, here, if the D.C. Circuit reverses this Court’s
decision, the case will be over.
Guam further asserts that it “has already
borrowed and spent approximately $160 million on
environmental cleanup related to the Ordot Dump
and relocation of the facility to a new location[,]” and
“[e]very day in which the U.S. delays this case is
another day Guam has to pay full freight for the U.S.’

50a
liability.” (Pl.’s Opp’n at 14.) This argument is not a
persuasive response to the United States’ request for
a stay, because, as this Court has already noted, if the
ruling on the motion to dismiss stands and the case
proceeds, and if Guam ultimately wins on the merits,
Guam will be able to seek prejudgment interest to
compensate for any delay resulting from the
interlocutory appeal. See Oldham v. Korean Air Lines
Co., Ltd., 127 F.3d 43, 54 (D.C. Cir. 1997) (“The
purpose of [pre-judgment interest] awards is to
compensate the plaintiff for any delay in payment
resulting from the litigation.”).
Thus, the Court concludes that a stay will not
subject the parties to hardship, and that staying the
case during the pendency of the D.C. Circuit’s
interlocutory review will promote the efficient use of
judicial
resources
and
prevent
potentially
unnecessary and burdensome discovery expenses.
IV.
For the foregoing reasons, and as set forth in the
accompanying Order, the United States’ motion for
certification under section 1292(b) of Title 28 of the
United
States
Code
will
be
GRANTED.
Furthermore, all proceedings before this Court are
STAYED pending a decision by the D.C. Circuit.

51a
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF COLUMBIA
GOVERNMENT OF GUAM, Plaintiff,
v.
UNITED STATES of America,
Defendant.
No. 1:17-cv-2487 (KBJ)
Signed October 5, 2018
341 F. Supp. 3d 74
MEMORANDUM OPINION
KETANJI BROWN JACKSON, United States
District Judge
The island of Guam has been a territory of the
United States for more than a century, and for most
of the period between 1898 and the mid-1900s, Guam
served as a central base of operations for the United
States Navy in the South Pacific. (Am. Compl., ECF
No. 7, ¶ 6.) Early on, the Navy created a major
landfill on the island—the Ordot Landfill—to support
its mission, and this dump was used to dispose of
munitions and chemicals, as well as military and
civilian waste, for decades. (Id. ¶¶ 7, 11.) As relevant
here, by the time the United States government
relinquished control of Guam to civilian authorities in
the year 1950, the Ordot Landfill contained, and
would continue to receive, significant quantities of
trash and hazardous waste that posed a serious risk
to the surrounding environment. As a protectorate of
the United States, Guam is subject to U.S.
environmental laws, and pursuant to an agreement

52a
with the U.S. Environmental Protection Agency (“the
EPA”) that arose under the Clean Water Act (“CWA”),
33 U.S.C. §§ 1251–1387, the local Guamanian
authorities shut down the Ordot Landfill in 2011, and
commenced the arduous (and quite expensive) task of
cleaning up the landfill and permanently containing
its contents so as to prevent hazardous waste leaks
that threatened rivers, waterways, and the Pacific
Ocean. (See id. ¶¶ 12, 14.) The Government of Guam
(“Guam” or “Plaintiff”) has now brought the instant
three-count complaint against the United States
(“United States” or “Defendant”) under the
Comprehensive
Environmental
Response,
Compensation, and Liability Act (“CERCLA”), 42
U.S.C. § 9601–75. Guam alleges that, because the
United States substantially contributed to the
environmental contamination at the Ordot Landfill,
the United States should pay the full $160,000,000
cost of cleaning up the dump under CERCLA’s section
107(a)’s cost-recovery mechanism (see Am. Compl.
¶¶ 23, 25 (Count I)), or should at least pay its fair
share of the cleanup costs under CERCLA’s section
113(f)(3)(B)’s contribution mechanism (see id. ¶ 31
(Count III)).1
Guam also seeks a declaratory
judgment that establishes the United States’s
liability for “future removal and remediation costs
incurred by Guam[.]” (Id. ¶ 29 (Count II).)

1

In the context of CERCLA, courts commonly refer to the costrecovery claim embodied in section 9607(a) of Title 42 of the
United States Code as a “section 107(a)” action and they call the
contribution claim embodied in section 9613(f)(3)(B) of Title 42
of the United States Code a “section 113(f)(3)(B)” action. This
Memorandum Opinion generally employees that same
nomenclature.

53a
Before this Court at present is the United States’s
motion to dismiss Guam’s complaint under Federal
Rule of Civil Procedure 12(b)(6). (See United States’
Mem. in Supp. of Mot. to Dismiss Guam’s Am. Compl.
(“Def.’s Mem.”), ECF No. 27-1.) In its motion to
dismiss, the United States argues that Guam cannot
compel the United States to pay for the closure and
remediation of the Ordot Landfill under CERCLA’s
section 107(a) because, under the circumstances
presented here, CERCLA only provides Guam with a
claim for contribution under section 113(f)(3)(B) (see
id. at 28–29), and, unfortunately for Guam, any such
contribution action must be dismissed as untimely,
per the applicable three-year statute of limitations
(see id. at 36–39).2 The United States’s argument
hinges on the established view that section 107(a)
claims and section 113(f)(3)(B) claims are mutually
exclusive, and the contention that Guam’s
circumstances fit the latter provision, because Guam
previously executed a 2004 Consent Decree with the
EPA that purportedly “resolve[d] its liability to the
United States” for the cleanup and closure of the
Ordot Landfill, and the United States considers that
agreement to be a cognizable “settlement” for section
113(f)(3)(B) purposes. See 42 U.S.C. § 113(f)(3)(B).
Guam responds that the 2004 Consent Decree did not
“resolve its liability” within the meaning of section
113(f)(3)(B), nor does that agreement qualify as a
CERCLA “settlement,” and thus, Guam maintains
that it is not precluded from bringing a cost-recovery
claim under section 107(a). (See Government of
2

Page-number citations to the documents that the parties
have filed refer to the page numbers that the Court’s electronic
filing system automatically assigns.

54a
Guam’s Mem. in Opp’n to the United States of
America’s Mot. to Dismiss Guam’s Am. Compl. (“Pl.’s
Opp’n”), ECF No. 30, at 15–18.)
On September 30, 2018, this Court issued an
Order that DENIED the United States’s motion to
dismiss. (See Order, ECF No. 37.) This Memorandum
Opinion explains the reasons for that Order. In short,
the Court concludes that a cost-recovery action under
section 107(a) remains available to Guam because the
2004 Consent Decree plainly left the issue of liability
for the costs associated with the Ordot Landfill
cleanup
unresolved,
and
therefore,
section
113(f)(3)(B)’s contribution mechanism was not
triggered. Consequently, and to that extent, the
Court finds that the United States’s motion to dismiss
Guam’s cost-recovery claim under section 107(a) must
be denied.3
I. BACKGROUND4
A. The Ordot Landfill
Over one hundred years ago, the United States
captured the island of Guam from Spain and began
3

The Amended Complaint pleads a cost-recovery claim under
section 107(a) and a contribution claim under section 113(f)(3)(B)
“in the alternative.” (Am. Compl. ¶ 31.) Given this Court’s
conclusion that Guam can maintain its cost-recovery claim
against the United States under section 107(a), the alternative
cause of action in Plaintiff’s amended complaint must be
DISMISSED.
4 The following facts are derived from the Government of
Guam’s amended complaint and certain exhibits that are
referenced in the complaint and are necessary to this Court’s
resolution of the pending motion. See Azima v. RAK Investment
Auth., 305 F.Supp.3d 149, 159 (D.D.C. 2018) (noting that, in the
Rule 12(b)(6) setting, all reasonable inferences must be viewed
“in the light most favorable to the plaintiff” and that this Court

55a
administering the island as a United States territory.
(See Am. Compl. ¶ 6.) Between 1898 and 1950, the
United States Navy “unilaterally governed and
operated” Guam (id.), and at some point during its
administration of the island’s operations, the Navy
established the Ordot Landfill to dispose of the waste
being generated on the island (see id. ¶ 7). In 1950,
the Navy handed Guam, and the landfill, over to the
newly-established civilian government (see id. ¶ 10),
and the Guamanian authorities continued to operate
the Ordot Landfill as a dump until the facility was
officially closed in 2011 (see id. ¶ 14).
Notably, throughout its lifespan, the Ordot
Landfill accepted waste from both military and
civilian entities. (See id. ¶ 11.) The Government of
Guam alleges that the United States military
deposited “[s]ignificant quantities of munitions and
chemicals” at the dump, including hazardous
substances such as DDT and Agent Orange. (Id.) At
the same time, the Ordot Landfill served as the only
public dump site on the island of Guam until 2011 (see
id.), and it appears that even though the landfill
“reached capacity in 1986, it continue[d] to receive
virtually all of the industrial and municipal waste
from the civilian population of Guam” for a significant
period of time thereafter, United States v. Gov’t of
Guam, 02-00022, 2008 WL 216918, at *1 (D. Guam
Jan. 24, 2008). Thus, “[w]hat was once a valley

may consider “the facts alleged in the complaint . . . and
documents upon which the plaintiff’s complaint necessarily
relies even if the document is produced not by the plaintiff in the
complaint but by the defendant in a motion to dismiss” (internal
quotation marks and citation omitted)).

56a
[became] at least a 280-foot mountain of trash.” Id.
(describing the Ordot Landfill back in 2008).
For present purposes, it is important to note that
because the Ordot Landfill was built in the pre-World
War II era, it was not designed with modern
environmental practices in mind, and thus, did not
have certain safeguards to shield the surrounding
environment from contamination.
For example,
“[d]uring its years of operation, the Ordot Landfill
was . . . uncapped at its top.” (Am. Compl. ¶ 12.)
Consequently, “[t]he landfill absorbed rain and
surface water” from storms and other sources, and
this water “percolated through the landfill and picked
up contaminants.” (Id.) In addition, since the landfill
was also “unlined on its bottom[,]” the contaminated
water—which is known as “leachate”—leaked out of
the Ordot Landfill into the nearby Lonfit River, and
the river carried hazardous materials from the
landfill out into the Pacific Ocean. (Id.)
The EPA has been aware of these and other
environmental problems with the Ordot Landfill for
many decades; indeed, the agency placed this site on
the National Priorities List as far back as 1983, which
indicated its “priority [status] for the expenditure of
funds to respond to the release or threatened release
of hazardous substances.” (Id. ¶ 13.) Moreover,
starting in 1986, the EPA began issuing
administrative orders under the CWA, directing
Guam’s civilian government to halt the further
discharge of contaminants from the Ordot Landfill
into the rivers and oceans of Guam. See Guam, 2008
WL 216918, at *1. Over the next fifteen years, the
EPA regularly ordered Guam to devise a feasible plan
for containing and disposing of the waste at the

57a
landfill, but Guam did not provide a plan that
satisfied the agency. See id.
B. The EPA’s CWA Lawsuit
Resulting Consent Decree

And

The

The EPA finally filed a lawsuit against Guam in
2002, “asserting that leachate was discharging from
the Ordot Landfill into the Lonfit River and two of its
tributaries” in violation of the CWA. (Am. Compl.
¶ 14.) The EPA’s legal action sought (1) “[a]n
injunction ordering the Government of Guam to
comply with the [CWA]”; (2) civil monetary penalties;
(3) and court orders that required Guam to file timely
and complete applications for any required discharge
permits and forbade Guam from allowing further
unpermitted discharges from the landfill. (CWA
Compl., Ex. 2 to Decl. of Matthew Woolner in Supp. of
Def. United States’ Mot. to Dismiss (“Woolner Decl.”),
ECF No. 27-2, at 13 (Prayer for Relief).) Ultimately,
rather than litigating these CWA claims in court, the
parties entered into a consent decree in 2004 to
resolve the EPA’s lawsuit. (See 2004 Consent Decree,
Ex. 3 to Woolner Decl., ECF No. 27-2, at 16–45.)
The 2004 Consent Decree between Guam and the
EPA required Guam to pay a relatively modest civil
penalty (see id. ¶ 5); mandated that Guam close the
Ordot Landfill and cease the discharge of pollutants
into the Lonfit River (see id. ¶ 8); and required Guam
to construct a new municipal landfill to replace the
Ordot Landfill (see id. ¶ 9). Significantly for present
purposes, despite imposing these obligations on
Guam, the Consent Decree specifically provided that
the agreement was “based on the pleadings, before
taking testimony or adjudicating any issue of fact or
law, and without any finding or admission of liability

58a
against or by the Government of Guam[.]” (Id. at 18
(Therefore Clause).)
The 2004 Consent Decree also contained a number
of provisions that specified the claims that the EPA
was relinquishing as part of the settlement and the
rights the United States retained notwithstanding
the parties’ agreement. First, the Consent Decree
expressly stated that
[e]ntry of this Consent Decree and compliance
with the requirements herein shall be in full
settlement and satisfaction of the civil judicial
claims of the United States against the
Government of Guam as alleged in the
Complaint filed in this action through the date
of the lodging of the Consent Decree.
(Id. ¶ 45.) The Consent Decree also provided that
[n]othing in this Consent Decree shall limit the
ability of the United States to enforce any and
all provisions of applicable federal laws and
regulations for any violations unrelated to the
claims in the Complaint or for any future
events that occur after the date of lodging of
this Consent Decree.
(Id. ¶ 46.) The Consent Decree further stated that
“[e]xcept as specifically provided herein, the United
States does not waive any rights or remedies
available to it for any violation by the Government of
Guam of federal and territorial laws and regulations.”
(Id. ¶ 48.)
In accordance with the terms of the Consent
Decree, which, as noted, required the “complete
closure
of
[the]
Ordot
Dump”
and
the
“implementation of [a] post-closure plan” (id. ¶ 8(h)),
Guam began taking steps to close the Ordot Landfill

59a
and to put an end to the leaching of pollutants from
that dump. Guamanian officials officially ceased
operations at the Ordot Landfill in 2011, and
“[r]emediation and closure work” began “in December
2013.” (Id. ¶ 14.) That remediation work, “which
include[s] capping the landfill, installing storm water
management ponds, leachate storage tanks and a
sewer line, . . . is still ongoing” (id.), and “Guam
expects costs of remediation . . . to exceed
approximately $160,000,000” (id. ¶ 15).
C. Procedural History
On March 2, 2017, Guam filed the instant
CERCLA action against the United States to recoup
its landfill-closure and remediation costs.
(See
Compl., ECF No. 1.) On May 19, 2017, Guam filed the
operative amended complaint, which contains three
counts that collectively allege that the United States
is liable for at least some, if not all, of the costs that
Guam has incurred in closing and remediating the
Ordot Landfill. (See Am. Compl. ¶¶ 32–34.) The first
count contends that, because the United States Navy
contributed hazardous waste to the Ordot Landfill
and managed that landfill for many decades (see id.
¶ 19), Guam is entitled to recover all of the “removal
and remediation costs” it incurred at or “related to the
Ordot Landfill, plus interest” from the United States
pursuant to section 107(a) of the CERCLA (id. ¶ 25).
The second count seeks “a declaratory judgment of
liability” to the effect that the United States will pay
for Guam’s future expenses relating to the
remediation of the Ordot Landfill under CERCLA’s
section 113(g)(2). (Id. ¶¶ 29, 33.) The third count is a
claim in the alternative for contribution under section
113(f)(3)(B) of CERCLA; Guam maintains that, even

60a
if it is not entitled to recover the full costs of
remediation and closure of the Ordot Landfill, the
United States must nevertheless pay “for all [such]
costs in excess of Plaintiff’s fair and equitable share
of costs.” (Id. ¶ 31.)
On November 27, 2017, the United States filed a
motion to dismiss Guam’s amended complaint under
Federal Rule of Civil Procedure 12(b)(6) for failure to
state a claim upon which relief can be granted. (See
Def.’s Mem.) In its motion, the United States first
argues that Guam cannot recover its costs for
remediating the Ordot Landfill under section 107(a)
because Guam resolved its liability for that cleanup
in the 2004 Consent Decree, and a contribution claim
under section 113(f)(3)(B) is “the exclusive CERCLA
remedy for the costs a liable party is compelled to
incur pursuant to a judicially-approved settlement
with the United States.” (Id. at 28.) The United
States further asserts that, “because CERCLA
imposes a three-year statute of limitations on
contribution claims[,]” Guam “waited far too long
after settling its liability in 2004” to bring its
alternative claim for contribution under section
113(f)(3)(B). (Id. at 27.) Thus, from the United
States’s perspective, Guam has no right to recover
under either section 107(a) or section 113(f)(3)(B) at
this time, and therefore, the Court should “dismiss
Guam’s amended complaint with prejudice.” (Id. at
40.)
Guam’s opposition challenges the United States’s
understanding of the applicable law on several
grounds. Most significantly, Guam argues that its
right to maintain a contribution action under section
113(f)(3)(B) was never triggered because Guam had
not “resolved its liability . . . [for] a response action or

61a
for some or all of the costs of such action” in the
context of “an administrative or judicially approved
settlement[,]” as the text of section 113(f)(3)(B)
requires. (Pl.’s Opp’n at 20.) Guam insists that the
parties “did not resolve response cost liability” in the
2004 Consent Decree, because the provisions of that
agreement left Guam fully exposed to future liability
under CERCLA. (Id. at 16; see also id. at 26–40.)
Moreover, because the 2004 Consent Decree was
“expressly limited to the CWA” (id. at 16), Guam
argues that it does not qualify as a “settlement
agreement” giving rise to a cause of action for
contribution under CERCLA’s section 113(f)(3)(B)
(id.; see also id. at 40–48). Indeed, Guam asserts that
it has not heretofore pursued a contribution claim
against the United States precisely because it is not
entitled to do so, given that its liability for the Ordot
Landfill cleanup costs remains unresolved. (See id. at
20 n.12.) Thus, in Guam’s view, a cost-recovery action
under section 107(a) is appropriate and legally
available, and this Court should not dismiss the
instant cost-recovery claim.
The United States’s motion to dismiss became ripe
for decision on January 8, 2018. (See Def.’s Mem.;
Pl.’s Opp’n; United States’ Reply in Supp. of its Mot.
to Dismiss (“Def.’s Reply”), ECF No. 33.) This Court
held a hearing on May 15, 2018, and on September 30,
2018, the Court issued an Order denying the United
States’s motion to dismiss.
II. LEGAL STANDARDS
A. Motions To Dismiss Under Rule 12(b)(6)
Under Federal Rule of Civil Procedure 12(b)(6), a
party may move to dismiss a complaint on the
grounds that it “fail[s] to state a claim upon which

62a
relief can be granted.” Fed. R. Civ. P. 12(b)(6). To
survive a Rule 12(b)(6) motion to dismiss, a complaint
must comply with Rule 8, which requires a “short and
plain statement of the claim showing that the pleader
is entitled to relief[,]” Fed. R. Civ. P. 8(a)(2), and it
must “contain sufficient factual matter, accepted as
true, to state a claim to relief that is plausible on its
face,” Ashcroft v. Iqbal, 556 U.S. 662, 678, 129 S.Ct.
1937, 173 L.Ed.2d 868 (2009) (internal quotation
omitted). A claim is plausible on its face when it
contains “factual content that allows the court to draw
the reasonable inference that the defendant is liable
for the misconduct alleged.” Id. Therefore, even
though a complaint “‘does not need detailed factual
allegations,’ the factual allegations ‘must be enough
to raise a right to relief above the speculative level.’”
Wash. All. of Tech. Workers v. U.S. Dep’t of Homeland
Sec., 892 F.3d 332, 343 (D.C. Cir. 2018) (quoting Bell
Atl. Corp. v. Twombly, 550 U.S. 544, 555, 127 S.Ct.
1955, 167 L.Ed.2d 929 (2007)).
In evaluating whether a complaint has managed
to set forth sufficient factual allegations, a court must
“accept the plaintiff’s factual allegations as true and
construe the complaint liberally, granting plaintiff
the benefit of all inferences that can reasonably be
derived from the facts alleged.” Sickle v. Torres
Advanced Enter. Sols., LLC, 884 F.3d 338, 345 (D.C.
Cir. 2018) (internal quotation marks, alterations, and
citation omitted). The court generally may not
consider matters beyond the pleadings, see Patterson
v. United States, 999 F.Supp.2d 300, 306 (D.D.C.
2013), but a limited exception to this rule does allow
a court to consider “any documents either attached to
or incorporated in the complaint and matters of which
[the court] may take judicial notice[,]” Equal Emp.

63a
Opportunity Comm’n v. St. Francis Xavier Parochial
Sch., 117 F.3d 621, 624 (D.C. Cir. 1997). A court may
also review “documents upon which the plaintiff’s
complaint necessarily relies even if the document is
produced not by the plaintiff in the complaint but by
the defendant in a motion to dismiss.” Mills v.
Hayden, 284 F.Supp.3d 14, 17 (D.D.C. 2018).
Finally, to the extent that a defendant’s 12(b)(6)
motion rests on the argument that a plaintiff’s claim
falls outside the applicable statute of limitations,
“courts should hesitate to dismiss a complaint on
statute of limitations grounds based solely on the face
of the complaint.” Momenian v. Davidson, 878 F.3d
381, 387 (D.C. Cir. 2017) (internal quotation marks
and citation omitted). “A complaint will be dismissed
under Rule 12(b)(6) as ‘conclusively time-barred’ if ‘a
trial court determines that the allegation of other
facts consistent with the challenged pleading could
not possibly cure the deficiency.’”
Id. (quoting
Firestone v. Firestone, 76 F.3d 1205, 1209 (D.C. Cir.
1996)). Put another way, only “[i]f no reasonable
person could disagree on the date on which the cause
of action accrued [may] the court [] dismiss a claim on
statute of limitations grounds.” Wash. Metro. Area
Transit Auth. v. Ark Union Station, Inc., 268
F.Supp.3d 196, 204 (D.D.C. 2017) (internal quotation
marks and citation omitted).
B. Legal Actions Brought Under CERCLA
Congress enacted CERCLA in 1980 “in response to
the serious environmental and health risks posed by
industrial pollution.” United States v. Bestfoods, 524
U.S. 51, 55, 118 S.Ct. 1876, 141 L.Ed.2d 43 (1998).
The statute is designed to “promote the timely
cleanup of hazardous waste sites and to ensure that

64a
the costs of such cleanup efforts [a]re born by those
responsible for the contamination[,]” Burlington N. &
Santa Fe Ry. Co. v. United States, 556 U.S. 599, 602,
129 S.Ct. 1870, 173 L.Ed.2d 812 (2009) (internal
quotation marks and citation omitted), and to achieve
these goals, Congress “impose[d] strict liability for
environmental remediation” of any hazardous waste,
including waste that was initially “disposed of
according to then-acceptable practices before [it was]
known to be hazardous[,]” Lockheed Martin Corp. v.
United States, 833 F.3d 225, 227 (D.C. Cir. 2016).
Thus, CERCLA “reach[es] back indefinitely into the
past to make a[n] [entity] liable for the cleanup of
hazardous materials it may have [properly] disposed
of decades ago.” John L. Ropiequet, Environmental
Law Litigation Under CERCLA, 47 Am. Jur. Trials
§ 1 (April 2018 Update).
The instant case centers on the text of two of
CERCLA’s remedial provisions: (1) section 107(a)’s
cost-recovery mechanism, which is codified at section
9607(a) of Title 42 of the United States Code, and (2)
section 113(f)(3)(B)’s contribution mechanism, which
is codified at section 9613(f)(3)(B) of Title 42 of the
United States Code. These two provisions work in
harmony to encourage response actions such as
“removal[s]” (i.e., carting away hazardous waste from
a given waste site) or “remediation[s]” (i.e., taking
action that ensures that hazardous waste will never
escape from its current waste site), 42 U.S.C.
§ 9601(23)–(25); see also Asarco LLC v. Atl. Richfield
Co., 866 F.3d 1108, 1117 (9th Cir. 2017), and they
provide the actor with the means to ensure that the
costs of such response activities are covered, while
assuring any payor that such costs will ultimately be
allocated properly among all “potentially responsible

65a
parties” (hereinafter referred to as “PRPs”), see
United States v. Atl. Research Corp., 551 U.S. 128,
139, 127 S.Ct. 2331, 168 L.Ed.2d 28 (2007).
Specifically, section 107(a) “creates a cause of
action through which entities that have incurred costs
cleaning up contaminated sites may sue to recover
cleanup costs from” four categories of PRPs, Lockheed
Martin, 833 F.3d at 227—the present owners of the
facility; the past owners of the facility; individuals
who disposed of hazardous waste at that site; and
individuals who transported hazardous waste to
these facilities, see 42 U.S.C. § 9607(a)(1)–(4). When
sued, such PRPs are usually subject to joint-andseveral liability for the entire cost of cleaning up the
hazardous waste site, meaning that a single
defendant sued under section 107(a) can be held
legally responsible for all of the cleanup costs even if
other PRPs also disposed of hazardous pollutants at
that site. See, e.g., Chem-Nuclear Sys., Inc. v. Bush,
292 F.3d 254, 259 (D.C. Cir. 2002). But see Bernstein
v. Bankert, 733 F.3d 190, 201 (7th Cir. 2013)
(explaining that, while joint-and-several liability is
the default presumption, if “the defendant can
demonstrate that there is a reasonable basis for
determining the contribution of each cause to a single
harm[,]” then a court considering a section 107(a)
claim may apportion the costs of the cleanup in
proportion to the responsibility of the PRPs for those
costs).
Through section 113(f), Congress has provided a
mechanism for PRPs who have been held liable for
cleanup costs to seek contribution from other
responsible parties, thereby ensuring that the costs of
cleaning up hazardous waste sites are divided fairly
among all PRPs. See Cooper Indus., Inc. v. Aviall

66a
Servs., Inc., 543 U.S. 157, 162–63, 125 S.Ct. 577, 160
L.Ed.2d 548 (2004). As relevant here, a PRP may
bring an action for contribution under section
113(f)(3)(B) if that PRP
has resolved its liability to the United States or
a State for some or all of a response action or
for some or all of the costs of such action in an
administrative
or
judicially
approved
settlement[.]
42 U.S.C. § 9613(f)(3)(B); see also Atl. Research
Corp., 551 U.S. at 132 n.1, 127 S.Ct. 2331 (“Section
113(f)(3)(B) permits private parties to seek
contribution after they have settled their liability
with the Government.”).5
Thus, when coupled together, the remedies
available under sections 107(a) and 113(f) serve to
ensure that PRPs pick up the tab for the cleanup costs
that occur with respect to hazardous waste sites and
that PRPs share the costs in an equitable manner. In
this way, sections 107(a) and 113(f) provide
“complementary yet distinct” causes of action. Id. at
138, 127 S.Ct. 2331. And because these statutory
provisions establish “distinct remed[ies] available to
persons in different procedural circumstances[,]”
Bernstein, 733 F.3d at 202, every circuit to have
addressed the issue has held that claims for costrecovery under section 107(a) and claims for
contribution under section 113(f) (3)(B) are exclusive,
in the sense that a CERCLA plaintiff cannot seek to
advance both claims against the same defendant at
5

Section 113(f)(1) parallels section 113(f)(3)(B), insofar as it
bestows upon PRPs a cause of action for contribution, but only
once they have been found liable in the context of a fully litigated
section 106(a) or section 107(a) action. See 42 U.S.C. § 9613(f)(1).

67a
the same time, see Justin R. Pidot & Dale Ratliff, The
Common Law of Liable Party CERCLA Claims, 70
Stan. L. Rev. 191, 226–27 (2018).6 What is more,
courts routinely evaluate the availability of a costrecovery claim under section 107(a) by determining
whether the circumstances that give rise to a
contribution claim under section 113(f) have occurred.
See, e.g., Asarco, 866 F.3d at 1127 (examining
whether a settlement agreement has “resolved
liability” in order to assess the availability of a section
107(a) claim); Bernstein, 733 F.3d at 207–08 (same).
The instant dispute concerns whether, and to what
extent, Guam can pursue either of these remedies in
this case.7
III. ANALYSIS
In its motion to dismiss, the United States
maintains that Guam is precluded from seeking cost6 See also Asarco, 866 F.3d at 1117; Bernstein, 733 F.3d at 206;
Solutia, Inc., v. McWane, Inc, 672 F.3d 1230, 1236–37 (11th Cir.
2012); Morrison Enters., LLC v. Dravo Corp., 638 F.3d 594, 603–
04 (8th Cir. 2011); Agere Sys., Inc. v. Advanced Envtl. Tech.
Corp., 602 F.3d 204, 229 (3d Cir. 2010); Niagara Mohawk Power
Corp. v. Chevron U.S.A., Inc., 596 F.3d 112, 128 (2d Cir. 2010);
ITT Indus., Inc. v. BorgWarner, Inc., 506 F.3d 452, 458 (6th Cir.
2007).
7 Although not pivotal to the outcome of this case, it is
noteworthy that the two causes of action at the center of this
dispute have different statutes-of-limitations periods. See
Asarco, 866 F.3d at 1117. The CERCLA plaintiff who intends to
file a lawsuit under section 107(a) must do so within six years of
the “initiation of physical on-site construction of the remedial
action.” 42 U.S.C. § 9613(g)(2)(B). Meanwhile, an action under
section 113(f) must commence no later than three years after
“the date of judgment in any [CERCLA action]” or within three
years of the entry of “a judicially approved settlement with
respect to such costs or damages.” Id. § 9613(g)(3)(B).

68a
recovery under CERCLA’s section 107(a) because the
prescriptions of section 113(f)(3)(B) apply to the
circumstances presented here. As noted, and as the
amended complaint itself suggests, cost-recovery
claims under CERCLA section 107(a) and
contribution claims under CERCLA section
113(f)(3)(B) are exclusive of one another, such that
Guam is permitted to proceed against the United
States for full cost recovery under section 107(a) only
if Guam’s right to contribution under section
113(f)(3)(B) has not been triggered.8 Thus, the key
questions that the pending motion to dismiss presents
is whether the 2004 Consent Decree “resolve[d]
[Guam’s] liability” for the response action or response
costs that Guam undertook with respect to the Ordot
Landfill and also qualifies as a “settlement” within
the meaning of section 113(f)(B)(3). (Compare Def.’s
Mem. at 28–31 (discussing the resolution of liability
issue) and id. at 31–34 (arguing that a settlement
under the CWA can trigger a section 113(f)(3)(B)
action) with Pl.’s Opp’n at 22–40 (contending that
Guam’s liability for the Ordot Landfill cleanup costs
was not resolved in the 2004 Consent Decree) and id.
at 40–47 (contending that a CWA consent decree

8

Although the D.C. Circuit has not yet made this particular
pronouncement and Guam’s counsel refused to concede at the
motion hearing that Guam cannot maintain both a section 107(a)
cost-recovery claim and a section 113(f) contribution claim
simultaneously (see Hr’g Tr. at 16:4–13), the amended complaint
quite clearly seeks full cost recovery under section 107(a) and
pleads contribution under section 113(f) “in the alternative” (Am.
Compl. ¶¶ 31, 34), and a party cannot amend its complaint
through subsequent argument, see Hudson v. Am. Fed’n of Gov’t
Emps., 308 F.Supp.3d 388, 396 (D.D.C. 2018).

69a
cannot qualify as a “settlement” under section
113(f)(3)(B)).)
For the reasons explained below, this Court
concludes that the 2004 Consent Decree did not
trigger Guam’s contribution rights under section
113(f)(3)(B). In accordance with the persuasive
reasoning of the Sixth and Seventh Circuits in
CERCLA cases that are substantially similar to this
one, this Court finds that whether or not an
agreement for the removal or remediation of
hazardous waste “resolves” liability for section
113(f)(3)(B) purposes turns on the terms of the
agreement, and that, here, the 2004 Consent Decree
did not resolve Guam’s liability for the Ordot Landfill
cleanup given the broad, open-ended reservation of
rights, the plain non-admissions of liability, and the
conditional resolution of liability that that agreement
contains. Thus, the statutorily prescribed conditions
for bringing a contribution claim under section
113(f)(3)(B) have not been satisfied, which means that
Guam is not precluded from maintaining its section
107(a) claim against the United States.
A. To “Resolve” Liability Within The
Meaning Of Section 113(f)(3)(B), The
Agreement At Issue Must Decide Or
Determine That The Claimant PRP Is
Liable For The Costs Of A Response
Action
CERCLA nowhere defines the phrase “resolved its
liability,” which, as noted, is one of the veritable
linchpins of section 113(f)(3)(B). See 42 U.S.C.
§ 9613(f)(3)(B) (providing an action for contribution to
“[a] person who has resolved its liability to the United
States or a State for some or all of a response action”

70a
(emphasis added)).
Therefore, consistent with
ordinary principles of statutory construction, this
Court must interpret that phrase in accordance with
its plain meaning. See S.D. Warren Co. v. Me. Bd. of
Envtl. Prot., 547 U.S. 370, 376–77, 126 S.Ct. 1843, 164
L.Ed.2d 625 (2006) (citation omitted). The ordinary
meaning of the verb “resolve” is “[t]o find an
acceptable or even satisfactory way of dealing with []a
problem or difficulty[.]” Black’s Law Dictionary 1504
(10th ed. 2014); see also Merriam-Webster Dictionary
Online (defining “resolve” to mean “to deal with
successfully,” “reach a firm decision about,” or “work
out the resolution” of something).9 Thus, Congress’s
invocation of the word “resolved” suggests an
“element of finality[,]” Asarco, 866 F.3d at 1122,
meaning that the issue has been “decided,
determined, or settled—finished, with no need to
revisit[,]” Bernstein, 733 F.3d at 211. One reasonably
concludes, then, that “resolving” liability requires the
parties to have reached a “firm decision about
liability” such that the “the question of liability” is no
longer “susceptible to further dispute or negotiation.”
Asarco, 866 F.3d at 1122.
Given this understanding, it is clear to this
Court—as it was to the Sixth, Seventh, and Ninth
Circuits—that liability with respect to cleaning up a
hazardous waste site is not “resolved” simply and
solely because interested parties have “sign[ed] a
settlement agreement” concerning the response
actions that will be taken at the site, Bernstein, 733
F.3d at 213, or because one or more PRPs have “cut a
check” made payable to the United States, Fla. Power
9 See https://www.merriam-webster.com/dictionary/resolve
(last visited June 27, 2018).

71a
Corp. v. FirstEnergy Corp., 810 F.3d 996, 1006 (6th
Cir. 2015). Instead, “[t]o meet the statutory trigger
for a contribution action under [section 113(f)(3)(B)],
the nature, extent, or amount of a PRP’s liability must
be decided, determined, or settled, at least in part, by
way of agreement with the EPA.” Bernstein, 733 F.3d
at 212 (emphasis in original); see also Asarco, 866
F.3d at 1122 (endorsing and adopting that definition);
Fla. Power, 810 F.3d at 1003 (same).
Of course, there exists no formulaic means of
determining when a particular settlement agreement
has “decided, determined, or settled” the “nature,
extent, or amount” of an entity’s liability, Bernstein,
733 F.3d at 212, and, for present purposes, therein
lies the rub. Each superfund dispute is unique, and
every settlement agreement comes about through
individualized negotiations between parties who have
idiosyncratic concerns that inform the final contents
of the contract they create. The circuits appear
unanimous in their conclusion that, to best evaluate
the parties’ intent given this conglomeration of
circumstances, a court must “look to the specific terms
of the agreement” and ascertain whether, based on
the provisions in the settlement agreement, the
parties intended to resolve the plaintiff’s liability
within the meaning of section 113(f)(3)(B). Fla.
Power, 810 F.3d at 1001; see also Asarco, 866 F.3d at
1125 (“Whether this test is met depends on a case-bycase analysis of a particular agreement’s terms.”);
Bernstein, 733 F.3d at 213 (“Whether or not liability
is resolved through a settlement simply is not the sort
of question which can or should be decided by
universal rule. Instead, it requires a look at the terms
of the settlement on a case-by-case basis.”).

72a
In this regard, when the agreement that is subject
to interpretation is a federal consent decree, its
“construction . . . is essentially a matter of contract
law.” Segar v. Mukasey, 508 F.3d 16, 21 (D.C. Cir.
2007) (internal citation and quotation marks
omitted). Moreover, contracts to which the United
States is a party must be interpreted according to the
precepts of federal common law. See Boyle v. United
Techs. Corp., 487 U.S. 500, 504, 108 S.Ct. 2510, 101
L.Ed.2d 442 (1988) (“We have held that obligations to
and rights of the United States under its contracts are
governed exclusively by federal law.”). Therefore, a
consent decree between the federal government and
another party must also be interpreted in light of the
federal common law of contracts. See United States v.
Volvo Powertrain Corp., 854 F.Supp.2d 60, 64 n.1
(D.D.C. 2012); see also Bowden v. United States, 106
F.3d 433, 439 (D.C. Cir. 1997) (explaining that this
circuit typically derives the rules governing the
federal common law of contracts from the Second
Restatement of Contracts since “those principles
represent the ‘prevailing view’ among the states”).10

10

Guam’s suggestion that the 2004 Consent Decree must be
interpreted according to the precepts of state contract law—in
this case, the law of Guam—ignores the different practices of
this Circuit with respect to this issue. (See Pl.’s Opp’n at 20–22.)
The Sixth Circuit appears to have taken the approach that state
common law governs with respect to its interpretation of
administrative orders by consent and consent decrees. See Fla.
Power, 810 F.3d at 1001 (applying Ohio law to an administrative
order by consent); John B. v. Emkes, 710 F.3d 394, 407 (6th Cir.
2013) (applying Tennessee law in interpreting a consent decree).
But, that view is flatly inconsistent with the D.C. Circuit’s
precedent; therefore, this Court will look to federal common law
here.

73a
Where the courts of appeals diverge is with respect
to how one best interprets agreement language that
expressly eschews liability and reserves the right to
sue, when the court undertakes to evaluate whether
a particular agreement “resolve[d] [the] liability” of a
CERCLA plaintiff for section 113(f)(3)(B) purposes.
Compare, e.g., Asarco, 866 F.3d at 1124–25 and
Chitayat v. Vanderbilt Assoc., 702 F.Supp.2d 69, 81
(E.D.N.Y. 2010) with Fla. Power, 810 F.3d at 1004–
05; Bernstein, 733 F.3d at 212–14; and DMJ Assocs.,
LLC v. Capasso, 181 F.Supp.3d 162, 168 (E.D.N.Y
2016). The Sixth, Seventh, and Ninth Circuits have
considered settlement agreements that contain nonadmissions with respect to liability, conditional
releases of liability for the claims addressed therein,
and unambiguous reservation-of-rights clauses—
agreements much like the 2004 Consent Decree at
issue here (see, e.g., 2004 Consent Decree ¶¶ 45–46,
48)—and have reached different conclusions
regarding whether agreements that contain such
clauses should be deemed to have “resolved” liability
such that they trigger a claimant’s right to bring a
contribution action under section 113(f)(3)(B). As
explained below, this Court believes that the Sixth
and Seventh Circuits have the better approach.
1. The Sixth And Seventh Circuits Correctly
Concluded That Contracts Containing NonAdmissions
Of
Liability,
Broad
Reservations Of Rights, And Conditional
Covenants Not To Sue Do Not Resolve
Liability
At issue in the Seventh Circuit’s Bernstein
decision was whether two written agreements
between the EPA and several different PRPs

74a
(agreements that were denominated “Administrative
Orders by Consent” (“AOCs”)) had resolved those
PRPs’ liability for the purpose of section 113(f)(3)(B).
See 733 F.3d at 212–16. In the latter of the two
agreements, the EPA had “select[ed] a removal action
and cleanup objective[]” for the PRPs to perform. Id.
at 207. Yet, the written agreement also specifically
stated that “[e]xcept as expressly provided in” the
covenants not to sue, “nothing in this [o]rder
constitutes a satisfaction of or release from any claim
or cause of action . . . under CERCLA, other statutes,
or the common law.” Id. at 203. Furthermore, while
the covenants not to sue warranted that the EPA
would not proceed to sue the PRPs under section
107(a), the agreement “conditioned” that promise
“upon the complete and satisfactory performance” of
the terms of the AOC. Id. That AOC also stated that
the agreement would not “constitute any admission of
liability by any (or all) of the Respondents nor any
admission . . . of the basis or validity of U.S. EPA’s
findings, conclusions or determinations[.]” Id. at 204.
Thus, the Seventh Circuit panel astutely observed
that the agreement contained “reservations of rights,
conditional covenants, and express disclaimers of
liability.” Id. at 214.
In analyzing the agreement for section 113(f)(3)(B)
purposes, the Seventh Circuit panel took particular
stock in the fact that the parties had expressly
disclaimed any resolution of liability; given that fact
alone, the panel noted that it was “very difficult to say
. . . that the agreement between the parties
constituted a resolution of liability.” Id. at 212. And
in light of this express disclaimer of liability and other
indicia within the terms of the contract, the court
concluded that, while the PRPs had “‘settled’ with the

75a
EPA[]” insofar as the PRPs had “agreed to perform
certain actions in order to remedy an instance of
environmental contamination[,]” the parties had not
“settl[ed] the issue of liability for that
contamination—which is what the statute requires[.]”
Id. (emphasis in original).
The panel further addressed—and rejected—the
EPA’s argument that the covenants not to sue within
the AOC demonstrated that the parties had intended
to resolve their liability. See id. The Seventh Circuit
noted that, while the AOC included promises by the
agency not to sue the PRPs concerning the response
actions the agreement covered, within the AOC, the
parties had expressly conditioned those covenants not
to sue upon the PRPs’ “complete performance” of the
removal and cleanup actions, see id. at 212–13, and in
the Seventh Circuit’s view, such conditional clauses
did not demonstrate that the parties had intended to
resolve liability, because those clauses’ terms made it
emphatically clear that “the resolution of liability
would not occur until performance was complete,” as
that would be “the first time at which the covenant
would have any effect[,]” id.
Ultimately, the Seventh Circuit explained its
conclusion with respect to the resolution of liability
this way: “[t]he parties to a settlement may choose to
structure their contract so that liability is resolved
immediately upon execution of the contract. Or, the
parties may choose to leave the question of liability
open through the inclusion of reservations of rights,
conditional covenants, and express disclaimers of
liability.” Id. at 213–14 (citation omitted). The panel
concluded that the terms and circumstances of the
settlement agreement in Bernstein indicated that the
parties had opted to do the latter, and it therefore

76a
held that the settlement agreement between the EPA
and the pertinent PRPs had not resolved liability
within the meaning of section 113(f)(3)(B). See id. at
214; see also, e.g., NCR Corp. v. George A. Whiting
Paper Co., 768 F.3d 682, 691–92 (7th Cir. 2014)
(applying these same principles in determining
whether a PRP has resolved its liability within the
meaning of section 113(f)(3)(B)).
The Sixth Circuit has recently employed similar
reasoning to reach similar results. See, e.g., Fla.
Power, 810 F.3d at 1003–04. Thus, that court has
plainly stated that broad reservations of rights,
conditional covenants not to sue, and/or language that
“explicitly condition[s] the resolution of liability on
performance” can prevent a settlement agreement
from being interpreted as one that resolves liability
under CERCLA. Id. at 1003–04; see also ITT Indus.,
Inc. v. BorgWarner, Inc., 506 F.3d 452, 459 (6th Cir.
2007) (holding that the EPA’s reservation of rights “to
adjudicate Plaintiff’s liability for failure to comply
with the AOC, for costs of response . . . costs of
injunctive relief” and so on demonstrates no intent to
resolve liability). Moreover, like the Bernstein court,
the Sixth Circuit appears to find that disclaimers of
liability weigh against the conclusion that the parties
intended to resolve liability within the meaning of
section 113(f)(3)(B). See Fla. Power, 810 F.3d at 1004
(“This provision parallels the non-admission of
liability provisions in the ITT Industries and
Bernstein AOCs.” (citations omitted)); ITT Indus., 506
F.3d at 460 (“[P]articipation in this Consent Order
does not constitute an admission of liability[.]”).
This reasoning was on full display in the Sixth
Circuit’s Florida Power case. In that case, the court
examined whether two Administrative Orders of

77a
Consent resolved liability within the meaning of
section 113(f)(3)(B)—AOCs that expressly provided
that “[f]ollowing satisfaction of the requirements of
this Consent Order, plaintiff shall have resolved its
liability to EPA[.]” 810 F.3d at 1004 (alterations
omitted). In both AOCs, the EPA also “broadly
reserved its ‘right to take any enforcement action
pursuant to CERCLA or any other available legal
authority . . . for any violation of law or this Consent
Order[,]’” id. at 1003 (alteration omitted), and while
one of the AOCs also contained an express disclaimer
of liability, the other AOC contained no statement on
liability either way, see id. at 1004. Taking all of these
provisions into consideration, the Sixth Circuit held
that these agreements did not resolve liability within
the meaning of section 113(f)(3)(B), because the AOCs
“expressly condition[ed] the resolution of liability on
performance of the contract, as opposed to resolving
liability on the contract’s effective date[,]” and also
“broadly reserve[d] the EPA’s rights.” Id. at 1005. In
this regard, courts concluded that there were “no
material differences between the AOCs in [the Sixth
Circuit’s ITT case] and Bernstein that warrant[ed] a
different outcome[.]” Id. at 1004.11
11

In ITT, the Sixth Circuit held that an Administrative Order
by Consent “did not resolve any of the plaintiff’s liability for at
least two reasons.” Fla. Power, 810 F.3d at 1002. “First, the
EPA broadly reserved its rights to take legal action to adjudicate
the plaintiff’s liability for failure to comply with the AOC, for
costs of response (past, present, or future), for costs of injunctive
relief or enforcement, criminal liability, and other damages.
And, “[s]econd, the plaintiff had not conceded the question of its
liability, and the AOC expressly stated that the plaintiff’s
‘participation in this Consent Order does not constitute an
admission of liability.’” Id. (quoting ITT, 506 F.3d at 460).

78a
2. The
Ninth
Circuit
Mistakenly
Characterizes Settlements That Contain
Conditional Releases, Non-Admissions, And
Broad Reservations Of Rights As
Agreements That “Resolve” Liability For
The Purpose Of CERCLA Section
113(f)(3)(B)
By contrast, the Ninth Circuit considered whether
a settlement agreement “resolved [the] liability” of a
PRP within the meaning of section 113(f)(3)(B) just
last year, and it appears to have charted its own
course in analyzing the effect of disclaimers of
liability, conditional releases, broad reservations of
rights, and the like. See Asarco LLC v. Atl. Richfield
Co., 866 F.3d 1108 (9th Cir. 2017). The panel in
Asarco determined (unpersuasively, in this Court’s
view) that the Sixth and Seventh Circuits had
misunderstood Congress’s intent with respect to
section 113(f)(3)(B), see id. at 1124–25, and it
concluded that conditional covenants and disclaimers
of liability in a settlement agreement are essentially
irrelevant to the determination of whether a PRP had
resolved its liability, see id. at 1125.
The Asarco court began the relevant analysis by
accepting the premise that, in order to qualify as
having resolved liability for the purpose of section
113(f)(3)(B), “a settlement agreement must determine
a PRP’s compliance obligations with certainty and
finality.” Id. at 1124 (citations omitted). But the
panel then proceeded to disclaim the significance of
certain terms of an agreement that ordinarily indicate
the parties’ intention to leave the matter of liability
for the compliance obligations that the PRP agrees to
undertake open and unresolved. For example, the
circuit stated that it “disagree[d] with the Sixth and

79a
Seventh Circuits’ holdings in Florida Power and
Bernstein” concerning conditional covenants not to
sue, id., not because those circuits were wrong to
reason that such language means that liability is not
resolved until the competition of performance, as a
matter of fact, but because, as a matter of policy,
settlement agreements of this nature ordinarily and
necessarily contain such conditional language, and
thus, none would ever count as resolutions of liability
for section 113(f)(3)(B) purposes if interpreted in this
fashion, see id. (explaining that “CERCLA prevents a
covenant not to sue from taking effect until the
President certifies that remedial action has been
completed”; therefore, if such a condition served as a
barrier to resolution of liability under section
113(f)(3)(B), “it is unlikely that a settlement
agreement could ever resolve a party’s liability”
(alterations, internal quotation marks, and citation
omitted)). Put another way, the Asarco court appears
to have viewed a covenant not to sue that is
conditioned on completed performance as merely a
mechanism for enforcement of the agreement’s terms,
rather than a statement regarding the status of
liability for the claims addressed in the agreement,
and thereby flatly rejected the Seventh Circuit’s
conclusions regarding the significance such language.
See id. (“An agreement may ‘resolve’ a PRP’s liability
once and for all without hobbling the government’s
ability to enforce its terms if the PRP reneges.”
(alteration omitted)).
The Asarco court used similar logic when it
concluded, contrary to the Sixth Circuit in Florida
Power, that “it matters not that a PRP refuses to
concede liability in a settlement agreement.” Id. at
1125. The reasoning that the circuit offers to justify

80a
this view is rooted in policy—i.e., its belief that
“Congress’ intent in enacting section 113(f)(3)(B) was
to encourage prompt settlements that establish PRP’s
cleanup obligations with certainty and finality[,]” and
its concern that “requiring a PRP to concede liability
may discourage PRPs from entering into settlements
because doing so could open the PRP to additional
legal exposure.” Id. And it sidestepped consideration
of what the parties’ themselves intended with respect
to liability when they inserted a non-admissions
clause into the agreements at issue.
Thus,
notwithstanding the clear congressional mandate
that “liability” for response actions actually be
“resolved”
by
the
settlement,
42
U.S.C.
§ 9613(f)(3)(B), the Asarco court held that “a covenant
not to sue or release from liability conditioned on
completed performance does not undermine such a
resolution, nor does a settling party’s refusal to
concede liability.” Asarco, 866 F.3d at 1125.
The primary concern that this Court has with the
Ninth Circuit’s reasoning concerning disclaimers of
liability in a settlement agreement in particular is
that the Ninth Circuit’s position results in a situation
in which parties who have clearly opted to set aside
the resolution of the PRP’s “liability”—i.e., its legal
responsibility—in the context of an agreement to
undertake (or pay for) response actions are
nevertheless deemed to have “resolved its liability” for
the purpose of section 113(f)(3)(B). As the Seventh
Circuit astutely exclaimed, in the face of an explicit
disclaimer of liability in a written settlement
agreement, “[i]t is very difficult to say . . . that the
agreement between the parties constituted a
resolution of liability.” Bernstein, 733 F.3d at 212.
And nothing in the statute suggests that Congress

81a
intended section 113(f)(3)(B) to be read to trigger
contribution rights based merely on the fact that a
settlement agreement contains terms that specify “a
PRP’s obligations for a least some of its response
actions[,]” Asarco, 866 F.3d at 1125 (emphasis added);
indeed, the statute Congress penned plainly requires
that any such agreement “resolve[] [the PRP’s]
liability[,]” 42 U.S.C. § 9613(f)(3)(B) (emphasis
added), and an agreement that delineates “a PRP’s
compliance obligations”—even “with certainty and
finality”—Asarco, 866 F.3d at 1124, does not thereby
“resolve[] [the PRP’s] liability” within the plain
meaning of that statutory phrase, 42 U.S.C.
§ 9613(f)(3)(B) (emphasis added); see also 42 U.S.C.
§ 9607(a) (holding certain listed persons strictly
“liable” for specified cleanup costs). In other words, if
Congress had intended to provide contribution rights
for any person who has merely entered into a
settlement agreement with the United States or a
State concerning a CERCLA response action or its
costs, it certainly could have said so. Instead,
Congress mandated that, in order to give rise to the
right to bring a contribution action, the agreement
must “resolve [the contribution claimant’s] liability to
the United States or a State for some or all of a
response action or for some or all of the costs of such
action[,]” id. § 9613(f)(3)(B), which, in this Court’s
view, necessarily means that a settlement that
expressly disclaims liability does not count.
Nor is the Ninth Circuit’s analysis persuasive with
respect to the appropriate evaluation of conditional
covenants not to sue. In Bernstein, the Seventh
Circuit made clear that the existence of a covenant
not to sue in a settlement agreement was a contract
term that the agency had pointed to in order to

82a
support its own section 113(f)(3)(B) contention.
Specifically, because the parties in Bernstein had
included such a release in the agreements at issue,
the agency argued that the agreements did, in fact,
resolve the liability of the PRPs concerning the
cleanup costs and remediation that the agreements
addressed. See Bernstein, 733 F.3d at 212 (noting the
EPA had argued that the AOCs resolved the PRPs
liability because “[i]n the AOCs, the settling PRPs
promised to perform certain removal actions and EPA
promised not to sue concerning those actions”). The
Seventh Circuit’s response was the imminently
reasonable assertion that “[i]f the EPA’s covenant not
to sue is the contemplated ‘resolution of liability’ in
this case . . . then, by the terms of the AOC itself, the
resolution of liability would not occur until
performance was complete, which is the first time at
which the covenant could have any effect.” Id. In
rejecting this contention, it appears that the Ninth
Circuit misread Bernstein to hold that an agreement
that contains such a conditional covenant cannot by
any means be construed as resolving liability for the
purpose of section 113(f)(3)(B), see Asarco, 866 F.3d at
1124 (retorting that “[a]n agreement may ‘resolve’ a
PRP’s liability once and for all without hobbling the
government’s ability to enforce its terms if the PRP
reneges” (alteration omitted)), when Bernstein
actually stands for the far more modest proposition
that the reasonable reservation of an agency’s right to
enforce the terms of the agreement through a
conditional release or conditional covenant not to sue
is not itself indicative of the parties’ intent to resolve
all liability by virtue of the agreement, particularly
when the specified conditions for such resolution have
not been satisfied.

83a
For what it’s worth, this Court also questions the
Ninth Circuit’s view of the requirements for
“resolv[ing] [] liability” under section 113(f)(3)(B)
from a practical perspective. First of all, it is difficult
to see how a settlement agreement can meaningfully
“decide[], determine[], or settle[]” the “nature, extent,
or amount” of a PRP’s liability if that agreement has
not established that the PRP is in fact liable. Cf.
Queen v. Schultz, 747 F.3d 879, 889 (D.C. Cir. 2014)
(suggesting that whether a defendant is liable must
be established before determining the scope of that
liability). Thus, it is hard to know what to do when a
settlement agreement expressly disclaims any finding
or admission of liability; apparently, under the Ninth
Circuit’s interpretation, such language must simply
be ignored.
But see Restatement (Second) of
Contracts § 202(2) (“A writing is interpreted as a
whole[.]”); id. § 202(3) (“Unless a different intention is
manifested, where language has a generally
prevailing meaning, it is interpreted in accordance
with that meaning[.]”).
And this is no rare
happenstance, even the Ninth Circuit acknowledges
that parties to a CERCLA settlement may “often
expressly refuse to concede liability under a
settlement agreement,” Asarco, 866 F.3d at 1123, and
it is certainly odd to give non-admissions of liability
that clearly mattered to the parties when they struck
their bargain no effect in the context of a statute that
turns on whether a settlement has resolved the
liability of a party, see Collins v. Pension Benefit Guar.
Corp., 881 F.3d 69, 72 (D.C. Cir. 2018) (“It is a
commonplace of contract law that we will give the
parties’ agreement the meaning they have given it
themselves.”).

84a
The concern that giving effect to the parties’
disclaimer of liability will discourage PRPs from
entering into “prompt settlements that establish
PRPs’ cleanup obligations with certainty and
finality[,]” Asarco, 866 F.3d at 1125, might well be
justified (see Def.’s Reply at 22–23), but it should not
compel a different outcome, for that result was
manifestly insufficient to deter Congress from setting
the “resolved its liability” bar for the triggering of the
contribution rights that the statute plainly confers.
Moreover, it is entirely possible that, from a PRP’s
perspective, the benefit derived from entering into a
timely settlement agreement that disclaims any
finding of liability outweighs the cost of obtaining the
right to contribution under section 113(f)(3)(B), such
that “the timely cleanup of hazardous waste sites”
that Congress plainly sought to promote, Burlington
N., 556 U.S. at 602, 129 S.Ct. 1870, will occur
nonetheless. Thus, even if a PRP that is considering
a disclaimer of liability faces a Sophie’s choice in the
context of section 113(f)(3)(B)—i.e., either settle with
a disclaimer and not receive contribution rights or go
to trial on the question of CERCLA liability—it is not
necessarily the case that the PRP would decline to
settle, and would opt instead to engage in protracted
and potentially lengthy litigation, with the
concomitant risk of being found liable for a strict
liability CERCLA offense, all to the continued
detriment of the “air, earth, rivers, and sea[,]” Rachel
Carson, Silent Spring (1962). In any event, resolution
of liability in the context of a settlement is plainly
what the pertinent statutory provision demands in
order for the right to contribution to be triggered, and
instead of rewriting contractual agreements, courts
should have faith that the relevant stakeholders can

85a
effect a prompt cleanup (as Congress prefers), in a
manner that disclaims the PRP’s liability for the
response action (as the PRP desires) while also
releasing any other claims (as the agency is willing to
do), within the parameters of the law as written.
B. The 2004 Consent Decree Did Not
“Resolve” Guam’s Liability For The Ordot
Landfill Hazardous Waste Response
Actions It Has Undertaken
Of course, as noted earlier, whether or not
contractual terms such as a disclaimer of liability or
a covenant not to sue in a settlement agreement with
the United States “resolve[s]” a party’s liability, and
thereby gives rise to a right to seek contribution under
section 113(f)(3)(B), must be determined through “a
case-by-case analysis of a particular agreement’s
terms.” Asarco, 866 F.3d at 1125. This Court now
turns its attention to various pertinent provisions of
the 2004 Consent Decree—namely, its clear
disclaimer of liability, its conditional release of
liability for the claims the United States had brought
against Guam in a CWA complaint, and two
complementary reservation-of-rights clauses—and
addresses whether, in light of these provisions, the
parties to the 2004 Consent Decree can be said to have
“decided, determined, or settled” the “nature, extent,
or amount” of Guam’s liability for the response
actions or costs relating to the Ordot Landfill.
Bernstein, 733 F.3d at 212.

86a
1. The 2004 Consent Decree’s Disclaimer Of
Liability, Broad Reservation-Of-Rights
Clause, And Conditional Resolution Of
Liability Are Not Indicative Of An Intent To
Resolve Guam’s Liability
The very first affirmative representation Guam
and the EPA make in the 2004 Consent Decree
(following an unremarkable series of “Whereas”
clauses) is that the agreement itself is “based on the
pleadings, before taking testimony or adjudicating
any issue of fact or law, and without any finding or
admission of liability against or by the Government of
Guam.”
(2004 Consent Decree 18, lines 7–9
(emphasis added).) This “therefore” provision leaves
no room for ambiguity; it specifies exactly what
materials the parties had access to at the time they
signed the Consent Decree (few); which legal and
factual issues remained unexamined (all of them);
and what liability Guam is accepting by virtue of
consenting to settlement (none). Thus, this contract
language plainly reflects the parties’ intention to
leave the question of liability unresolved, despite the
fact that Guam was proceeding to consent to engage
in the immediate cleanup of the Ordot Landfill by
virtue of entering into the agreement. (Id. ¶ 9(a)
(requiring Guam to start taking steps within thirty
days of the entry of the consent decree).) Cf.
Bernstein, 733 F.3d at 212 (“They agreed to perform
certain actions in order to remedy an instance of
environmental contamination. But they did not settle
the issue of liability for that contamination[.]”
(emphasis in original)).
The argument that Guam “resolved its liability” to
the United States by executing the 2004 Consent
Decree is thus facially untenable. But that conclusion

87a
becomes even more far-fetched when one considers
the broad reservation of rights that the EPA inserted
into this contract.
The 2004 Consent Decree
agreement specifically provides that
[n]othing in this Consent Decree shall limit the
ability of the United States to enforce any and
all provisions of applicable federal laws and
regulations for any violations unrelated to the
claims in the Complaint or for any future events
that occur after the date of lodging of this
Consent Decree.
(2004 Consent Decree ¶ 46 (emphasis added).) And
presumably to reinforce the point that Guam could
still be held potentially liable notwithstanding the
settlement, the Consent Decree also states that
“[e]xcept as specifically provided herein, the United
States does not waive any rights or remedies available
to it for any violation by the Government of Guam of
federal and territorial laws and regulations.” (Id. ¶ 48
(emphasis added).)
Much like the disclaimer of liability clause, the
takeaway from these two provisions in the 2004
Consent Decree is that the United States was
reserving its right to pursue any violation of law that
Guam may have committed other than those
articulated in the 2002 CWA complaint to which the
settlement agreement was addressed, and the scope
of the 2002 CWA complaint was similarly clear: it
asserted that Guam was liable under the CWA and
should be ordered to pay monetary penalties and to
cease the discharge of hazardous chemicals into the
Lonfit River. (See CWA Compl. ¶¶ 25–27, 34–35,
Prayer for Relief.) Thus, the careful wording of the
2004 Consent Decree’s reservation-of-rights clause
makes clear that the United States retained its rights

88a
to sue Guam under countless other environmental
statutes for the response actions and costs relating to
any cleanup at the Ordot Landfill, and it can hardly
be viewed as evidencing the parties’ intention that
this settlement agreement resolved Guam’s liability
for any response costs or response actions that those
other statutes might demand. See Fla. Power, 810
F.3d at 1006; Bernstein, 733 F.3d at 212–13; ITT
Indus., 506 F.3d at 459–60.
If any more proof that the 2004 Consent Decree did
not resolve Guam’s liability is needed, one need look
no further than paragraph forty-five of the 2004
Consent Decree, which unequivocally establishes the
agreement’s scope, by stating that
[e]ntry of this Consent Decree and compliance
with the requirements herein shall be in full
settlement and satisfaction of the civil judicial
claims of the United States against the
Government of Guam as alleged in the
Complaint filed in this action through the date
of the lodging of this Consent Decree.
(2004 Consent Decree ¶ 45 (emphasis added).) Again,
the parties clearly contemplated Guam’s compliance
with the 2004 Consent Decree as settling and
satisfying only the CWA claims that the EPA had
brought against Guam. And because Guam was
plainly left fully exposed to other environmental suits
and allegations—say, a subsequent suit brought by
the United States to recover costs under CERCLA
section 107(a)—the language above cannot be
reasonably interpreted to evince the parties’ intent
that the 2004 Consent Decree resolved Guam’s
liability for the response costs or actions associated
with the cleanup of the Ordot Landfill under section
107(a) or any other statute.

89a
Also noteworthy is the fact that paragraph 45 of
the 2004 Consent Decree explicitly conditions the
resolution of whatever CWA liability that the 2004
Consent Decree addresses on both the “[e]ntry of this
Consent Decree and compliance with the
requirements herein.” (Id. (emphasis added).) Thus,
the agreement could not be clearer that the “entry of
this Consent Decree” alone does not settle or resolve
any of the claims against Guam—that is, whatever
circumstances might be inferred from a general
conditional covenant not to sue, this agreement states
that the resolution of Guam’s liability for the specified
claims does not occur until Guam has actually
complied with all of the Consent Decree’s
requirements.12
In short, it is clear to this Court that, taken
together, the terms of the 2004 Consent Decree do not
support the conclusion that Guam and the EPA
intended to resolve Guam’s liability for any response
actions or costs relating to the Ordot Landfill. (Id. at
18 (Therefore Clause), ¶¶ 45–46, 48.) Under the
terms of that settlement, Guam and the United States
unquestionably reached a consensus that Guam
would engage in certain response actions to clean up
and remediate the dump, but the 2004 Consent
Decree does not decide—much less determine with
finality and certainty—who bears the ultimate
12

Indeed, because the Ordot Landfill cleanup is still ongoing
(see Am. Compl. ¶ 14), it remains to be seen whether Guam will
actually be released from the specter of liability per this
agreement in the future. See Fla. Power, 810 F.3d at 1004
(explaining that “language” that “explicitly condition[s] the
resolution of liability on performance” goes “a step beyond []
conditional covenants not to sue and reservations of rights” in
preventing the resolution of liability).

90a
responsibility for the costs of that cleanup. Cf.
Bernstein, 733 F.3d at 212. Consequently, the 2004
Consent Decree did not “resolve[]” Guam’s “liability”
within the meaning of section 113(f)(3)(B), and absent
such a resolution, Guam can maintain its costrecovery claim under section 107(a), given that the
six-year statute of limitations for the remediation and
recovery actions that Guam has and is taking has not
even begun to run. See 42 U.S.C. § 9613(g)(2)(B).13
2. The United States’s Argument That The
2004 Consent Decree Resolved Guam’s
Liability Distorts Both The Provisions Of
That Contract And Relevant Case Law
To resist the above conclusion, the United States
makes several pointed arguments that are largely
aimed at the just-discussed provisions of the 2004
Consent Decree. In this Court’s view, each of
Defendant’s arguments either warps the underlying
text of CERCLA and/or the 2004 Consent Decree
beyond recognition, or advances a dubious reading of
case law from the courts of appeals.
For example, the United States maintains that,
because the 2004 Consent Decree “resolved Guam’s
liability for the civil penalties paid and the injunctive
relief performed under the decree,” it should be
construed as having resolved Guam’s liability for the
purpose of CERCLA’s section 113(f)(3)(B). (Def.’s
13

Because this Court concludes that the 2004 Consent Decree
did not resolve liability within the meaning of section
113(f)(3)(B), it need not consider whether a consent decree that
addresses claims under the CWA can qualify as a “settlement”
within the meaning of section 113(f)(3)(B) (see Pl.’s Opp’n at 22–
26; 40–45), or any of Guam’s myriad other contentions (see Pl.’s
Opp’n at 46–51).

91a
Reply at 19.) But as has already been explained,
CERCLA has its own (strict) liability provision, see 42
U.S.C. § 9607, and the complaint that the 2004
Consent Decree settles requested only civil monetary
penalties and an injunction requiring Guam to bring
the Ordot Landfill into compliance with the CWA.
(See CWA Compl. ¶¶ 25–27, 34–35, Prayer for Relief.)
Consequently, under the terms of the agreement, once
Guam completes the response activities laid out in the
2004 Consent Decree, it will have resolved its liability
only with respect to the prescribed fines and any
outstanding obligation to bring the landfill into
compliance with the CWA. (See 2004 Consent Decree
¶ 7 (stating that “[t]he Government of Guam shall
correct all compliance problems that form the basis
for the Complaint filed in this action by undertaking
the action identified below within the specified
times”).)
The allocation of costs for CERCLA
purposes is not covered, and thus would remain
unresolved.
In a similarly bewildering reading of the
agreement between Guam and the EPA, the United
States argues that the 2004 Consent Decree contains
no “specific covenant not to sue, let alone one” that
resolves liability “in a conditional manner.” (Def.’s
Reply at 24.) Yet, as the United States readily admits
(see id.), the consent decree explicitly states that
“entry of this consent decree and compliance with the
requirements herein shall be in full settlement and
satisfaction of” the complaint’s claims (2004 Consent
Decree ¶ 45 (emphasis added)).
This language
establishes duties that are inherently conditional—
i.e., no release of liability will actually occur until (1)
the Consent Decree has been entered, and (2) Guam
has fully complied with the terms of the Consent

92a
Decree. And because the removal and remediation
work required in the 2004 Consent Decree is still
ongoing (see Am. Compl. ¶ 14), it is still possible for
Guam to fall out of compliance with the 2004 Consent
Decree—a circumstance that would seemingly
resuscitate the United States’s CWA claims. See Fla.
Power, 810 F.3d at 1004 (concluding that language
that stated that “[f]ollowing satisfaction of the
requirements of this Consent Order, [plaintiff] shall
have resolved [its] liability to EPA” amounted to a
conditional resolution of liability (alteration in
original)). It is thus difficult to accept the United
States’s suggestion that the 2004 Consent Decree’s
release language is unconditional.
The Eighth Circuit’s decision in Dravo
Corporation v. Zuber, 13 F.3d 1222 (8th Cir. 1994), is
not to the contrary. (See Def.’s Reply at 23 (citing
Dravo Corp., 13 F.3d at 1225–26).) There, the Eighth
Circuit examined whether the parties had resolved
liability for section 113(f)(2) purposes within the
context of a de minimis settlement that had provided
that the defendants “will have resolved” their liability
“by entering into and carrying out” the terms of that
settlement. 13 F.3d at 1226 (internal quotation
marks omitted). De minimis settlements constitute a
unique type of settlement within CERCLA’s statutory
scheme, and are only available when a particular PRP
has minimal responsibility for the contamination of a
hazardous waste site. See 42 U.S.C. § 9622(g)(1).
Congress has repeatedly emphasized that the
President shall enter into and encourage de minimis
settlements “as promptly as possible[,]” id., “as soon
as possible[,]” id. § 9622(g)(3), and “as soon as
practicable[,]” id. § 9622(g)(10). And in the context of
a de minimis settlement that expressly incorporated

93a
such statutory language, the Eighth Circuit
concluded that the parties had not intended to leave
the issue of the defendants’ liability unresolved. See
13 F.3d at 1226; see also id. (reasoning that, in the de
minimis settlement context, a statement of resolution
“subject to a condition subsequent” qualifies as a
resolution of liability).
Thus, the nature of the settlement (de minimis
versus substantive) is an important distinction that
differentiates the instant case from the facts of Dravo
Corporation. As the D.C. Circuit and the Supreme
Court have both explained, “[i]dentical words [within
a statute] may have different meanings where ‘the
subject-matter to which the words refer is not the
same in the several places where they are used, or the
conditions are different, or the scope of the legislative
power exercised in one case is broader than that
exercised in another.’” Weaver v. U.S. Info. Agency,
87 F.3d 1429, 1437 (D.C. Cir. 1996) (quoting Atl.
Cleaners & Dyers, Inc. v. United States, 286 U.S. 427,
433, 52 S.Ct. 607, 76 L.Ed. 1204 (1932)). This
cautionary sentiment is especially apt in the instant
case, given that “the language of CERCLA is not a
model of precise crafting[.]” Pakootas v. Teck Cominco
Metals, LTD., 830 F.3d 975, 985 (9th Cir. 2016). As
relevant here, Congress has explicitly and repeatedly
authorized the prompt, immediate, and final
resolution of liability in the context of de minimis
settlements, but not for other types of settlements of
CERCLA claims. This means that Congress has
provided contextual clues that attach different
meanings to the phrase “resolved its liability” as that
phrase appears in sections 113(f)(3)(B) and 122(g)(5),
and this difference in context suffices to warrant
different interpretations. Therefore, even if being

94a
“subject to condition subsequent” does not interfere
with resolving liability under section 122(g)(5), Dravo
Corp., 13 F.3d at 1226, that holding does not
necessarily suggest that, in a context in which
liability must actually be negotiated and established,
the parties intended to resolve liability despite
including a condition subsequent for the purpose of
section 113(f)(3)(B), see Fla. Power, 810 F.3d at 1004.
The United States also appears to attach
significance to the fact that the instant case involves
a “judicially-approved consent decree that also
constituted a final judgment[,]” rather than an
“administrative settlement[.]” (Def.’s Reply at 20.)
But it fails to explain why this distinction makes a
difference with respect to an evaluation of its terms,
and it does not cite a single case that supports the
suggestion that this distinction matters when it
comes to determining whether a settlement
agreement
resolves
liability
under
section
113(f)(3)(B). Compare Asarco, 866 F.3d at 1122
(examining whether a consent decree had
“determined, decided, or settled” the “nature, extent,
or amount of a PRP’s liability”) with Bernstein, 733
F.3d at 212 (applying the same inquiry to
administrative settlements).
Finally, the United States seeks to distinguish this
case from the Sixth Circuit’s reasoning in ITT
Industries and Florida Power by maintaining that the
reservation-of-rights clauses in those cases were
“substantially broader” than the reservation of rights
in the 2004 Consent Decree. (Def.’s Reply at 20; see
also id. at 20–22.) This Court has dutifully compared
the clauses in each of those cases with the
reservation-of-rights clause at issue here, and it
cannot
agree
with
the
United
States’s

95a
characterization.
In ITT Industries, “the EPA
expressly reserve[d] its rights to legal action to
adjudicate Plaintiff’s liability for failure to comply
with the AOC, for costs of response (past, present or
future), for costs of injunctive relief of enforcement,
criminal liability, and other damages.” 506 F.3d at
459; see id. (“U.S. EPA retains all of its rights under
this Consent Order and CERCLA[.]” (internal
quotation marks omitted)). The reservation of rights
in Florida Power was similar; it “broadly reserved
[the EPA’s] right to take any enforcement action
pursuant to CERCLA or any other available legal
authority . . . for any violation of law or this Consent
Order.” 810 F.3d at 1003 (internal quotation marks
omitted).
Neither of these reservation-of-rights clauses is
any broader than the one at issue in this case.
Although no mention of CERCLA is made in the
relevant portions of the 2004 Consent Decree, the
EPA expressly reserved its rights “to enforce any and
all provisions of applicable federal laws and
regulations for any violations unrelated to the claims
in the Complaint” (2004 Consent Decree ¶ 46
(emphasis added)), which patently includes any
violations under CERCLA, and to be doubly clear, the
agreement also stated that “except as specifically
provided herein, the United States does not waive any
rights or remedies available to it for any violation . . .
of federal and territorial laws and regulations” (id.
¶ 48 (emphasis added)). Therefore, it appears that
the United States has discerned a material difference
where there is none: all of these provisions plainly
reserve the right of the United States to take any
other action against the signatory of the agreement
for any violation of law, and if the 2004 Consent

96a
Decree is narrower, it is only marginally so, given that
the United States only expressly waived its ability to
seek the monetary penalties and compliance actions
that it requested for the CWA violations that were
specified in the underlying complaint.
In the final analysis, then, the 2004 Consent
Decree between Guam and the EPA did not “resolve[]”
Guam’s “liability” within the meaning of section
113(f)(3)(B), as evidenced principally by the following
provisions: (1) the statement disclaiming any
admission of liability on Guam’s part (see id. at 18
(Therefore Clause)); (2) the broad reservation-ofrights clauses that benefited the United States (see id.
¶¶ 46, 48); and (3) the omission of any language that
immediately and effectively insulated Guam from
future lawsuits by the EPA under CERCLA sections
106(a) and 107(a).
IV. CONCLUSION
For the reasons explained above, this Court has
concluded that, in order to resolve liability within the
meaning of CERCLA section 113(f)(3)(B), a
settlement agreement must “decide[], determine[], or
settle[]” the “nature, extent, or amount of a PRP’s
liability,” Bernstein, 733 F.3d at 212, and that the
2004 Consent Decree between Guam and the EPA
failed to do so because the provisions within that
agreement—from a conditional release of liability to
an overly broad reservation of rights to a clear nonadmission of liability—demonstrate that the parties
did not reach an agreement as to whether Guam was
liable for the cost of the Ordot Landfill cleanup, much
less determine the scope of its liability. Consequently,
Guam’s right to contribution under section
113(f)(3)(B) has not yet been triggered, which means

97a
that it is not precluded from proceeding via a costrecovery action under section 107(a). As a result, this
Court determined, on September 30, 2018, that the
United States’s motion to dismiss under 12(b)(6) must
be DENIED.

98a
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
——————
No. 19-5131

September Term, 2019
1:17-cv-02487-KBJ
Filed On: May 13, 2020

Government of Guam,
Appellee
v.
United States of America,
Appellant
BEFORE: Henderson and Tatel; and Ginsburg,
Senior Circuit Judge
ORDER
Upon consideration of appellee’s petition for panel
rehearing filed on April 29, 2020, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Michael C. McGrail
Deputy Clerk

99a
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
——————
No. 19-5131

September Term, 2019
1:17-cv-02487-KBJ
Filed On: May 13, 2020

Government of Guam,
Appellee
v.
United States of America,
Appellant
BEFORE: Srinivasan, Chief Judge; Henderson,
Rogers, Tatel, Garland, Griffith,
Millett, Pillard, Wilkins, Katsas, and
Rao, Circuit Judges; and Ginsburg,
Senior Circuit Judge
ORDER
Upon consideration of appellee’s petition for
rehearing en banc, and the absence of a request by
any member of the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Michael C. McGrail
Deputy Clerk

100a
33 U.S.C. § 1311
§ 1311. Effluent limitations
(a) Illegality of pollutant discharges except in
compliance with law
Except as in compliance with this section and
sections 1312, 1316, 1317, 1328, 1342, and 1344 of
this title, the discharge of any pollutant by any person
shall be unlawful.
* * *

101a
33 U.S.C. § 1319
§ 1319. Enforcement
(a) State enforcement; compliance orders
(1) Whenever, on the basis of any information
available to him, the Administrator finds that any
person is in violation of any condition or limitation
which implements section 1311, 1312, 1316, 1317,
1318, 1328, or 1345 of this title in a permit issued by
a State under an approved permit program under
section 1342 or 1344 of this title he shall proceed
under his authority in paragraph (3) of this
subsection or he shall notify the person in alleged
violation and such State of such finding. If beyond the
thirtieth day after the Administrator’s notification
the State has not commenced appropriate
enforcement action, the Administrator shall issue an
order requiring such person to comply with such
condition or limitation or shall bring a civil action in
accordance with subsection (b) of this section.
(2) Whenever, on the basis of information
available to him, the Administrator finds that
violations of permit conditions or limitations as set
forth in paragraph (1) of this subsection are so
widespread that such violations appear to result from
a failure of the State to enforce such permit conditions
or limitations effectively, he shall so notify the State.
If the Administrator finds such failure extends
beyond the thirtieth day after such notice, he shall
give public notice of such finding. During the period
beginning with such public notice and ending when
such State satisfies the Administrator that it will
enforce such conditions and limitations (hereafter
referred to in this section as the period of ‘‘federally

102a
assumed enforcement’’), except where an extension
has been granted under paragraph (5)(B) of this
subsection, the Administrator shall enforce any
permit condition or limitation with respect to any
person—
(A) by issuing an order to comply with such
condition or limitation, or
(B) by bringing a civil action under subsection
(b) of this section.
(3) Whenever on the basis of any information
available to him the Administrator finds that any
person is in violation of section 1311, 1312, 1316,
1317, 1318, 1322(p), 1328, or 1345 of this title, or is in
violation of any permit condition or limitation
implementing any of such sections in a permit issued
under section 1342 of this title by him or by a State or
in a permit issued under section 1344 of this title by
a State, he shall issue an order requiring such person
to comply with such section or requirement, or he
shall bring a civil action in accordance with
subsection (b) of this section.
(4) A copy of any order issued under this
subsection shall be sent immediately by the
Administrator to the State in which the violation
occurs and other affected States. In any case in which
an order under this subsection (or notice to a violator
under paragraph (1) of this subsection) is issued to a
corporation, a copy of such order (or notice) shall be
served on any appropriate corporate officers. An
order issued under this subsection relating to a
violation of section 1318 of this title shall not take
effect until the person to whom it is issued has had an
opportunity to confer with the Administrator
concerning the alleged violation.

103a
(5)(A) Any order issued under this subsection
shall be by personal service, shall state with
reasonable specificity the nature of the violation, and
shall specify a time for compliance not to exceed thirty
days in the case of a violation of an interim
compliance schedule or operation and maintenance
requirement and not to exceed a time the
Administrator determines to be reasonable in the case
of a violation of a final deadline, taking into account
the seriousness of the violation and any good faith
efforts to comply with applicable requirements.
(B) The Administrator may, if he determines (i)
that any person who is a violator of, or any person who
is otherwise not in compliance with, the time
requirements under this chapter or in any permit
issued under this chapter, has acted in good faith, and
has made a commitment (in the form of contracts or
other securities) of necessary resources to achieve
compliance by the earliest possible date after July 1,
1977, but not later than April 1, 1979; (ii) that any
extension under this provision will not result in the
imposition of any additional controls on any other
point or nonpoint source; (iii) that an application for a
permit under section 1342 of this title was filed for
such person prior to December 31, 1974; and (iv) that
the facilities necessary for compliance with such
requirements are under construction, grant an
extension of the date referred to in section
1311(b)(1)(A) of this title to a date which will achieve
compliance at the earliest time possible but not later
than April 1, 1979.
(6) Whenever, on the basis of information
available to him, the Administrator finds (A) that any
person is in violation of section 1311(b)(1)(A) or (C) of
this title, (B) that such person cannot meet the

104a
requirements for a time extension under section
1311(i)(2) of this title, and (C) that the most
expeditious and appropriate means of compliance
with this chapter by such person is to discharge into
a publicly owned treatment works, then, upon request
of such person, the Administrator may issue an order
requiring such person to comply with this chapter at
the earliest date practicable, but not later than July
1, 1983, by discharging into a publicly owned
treatment works if such works concur with such
order.
Such order shall include a schedule of
compliance.
(b) Civil actions
The Administrator is authorized to commence a
civil action for appropriate relief, including a
permanent or temporary injunction, for any violation
for which he is authorized to issue a compliance order
under subsection (a) of this section. Any action under
this subsection may be brought in the district court of
the United States for the district in which the
defendant is located or resides or is doing business,
and such court shall have jurisdiction to restrain such
violation and to require compliance. Notice of the
commencement of such action shall be given
immediately to the appropriate State.
* * *

105a
33 U.S.C. § 1321
§ 1321. Oil and hazardous substance liability
(a) Definitions
For the purpose of this section, the term—
* * *
(14) “hazardous substance” means any
substance designated pursuant to subsection (b)(2)
of this section;
* * *
(b) Congressional declaration of policy against
discharges of oil or hazardous substances;
designation of hazardous substances; study
of higher standard of care incentives and
report to Congress; liability; penalties; civil
actions: penalty limitations, separate
offenses,
jurisdiction,
mitigation
of
damages and costs, recovery of removal
costs,
alternative
remedies,
and
withholding clearance of vessels
(1) The Congress hereby declares that it is the
policy of the United States that there should be no
discharges of oil or hazardous substances into or upon
the navigable waters of the United States, adjoining
shorelines, or into or upon the waters of the
contiguous zone, or in connection with activities
under the Outer Continental Shelf Lands Act [43
U.S.C. 1331 et seq.] or the Deepwater Port Act of 1974
[33 U.S.C. 1501 et seq.], or which may affect natural
resources belonging to, appertaining to, or under the
exclusive management authority of the United States
(including resources under the Magnuson-Stevens

106a
Fishery Conservation and Management Act [16
U.S.C. 1801 et seq.]).
(2)(A) The
Administrator
shall
develop,
promulgate, and revise as may be appropriate,
regulations designating as hazardous substances,
other than oil as defined in this section, such elements
and compounds which, when discharged in any
quantity into or upon the navigable waters of the
United States or adjoining shorelines or the waters of
the contiguous zone or in connection with activities
under the Outer Continental Shelf Lands Act [43
U.S.C. 1331 et seq.] or the Deepwater Port Act of 1974
[33 U.S.C. 1501 et seq.], or which may affect natural
resources belonging to, appertaining to, or under the
exclusive management authority of the United States
(including resources under the Magnuson-Stevens
Fishery Conservation and Management Act [16
U.S.C. 1801 et seq.]), present an imminent and
substantial danger to the public health or welfare,
including, but not limited to, fish, shellfish, wildlife,
shorelines, and beaches.
* * *
(3) The discharge of oil or hazardous substances
(i) into or upon the navigable waters of the United
States, adjoining shorelines, or into or upon the
waters of the contiguous zone, or (ii) in connection
with activities under the Outer Continental Shelf
Lands Act [43 U.S.C. 1331 et seq.] or the Deepwater
Port Act of 1974 [33 U.S.C. 1501 et seq.], or which may
affect natural resources belonging to, appertaining to,
or under the exclusive management authority of the
United States (including resources under the
Magnuson-Stevens Fishery Conservation and
Management Act [16 U.S.C. 1801 et seq.]), in such

107a
quantities as may be harmful as determined by the
President under paragraph (4) of this subsection, is
prohibited, except (A) in the case of such discharges
into the waters of the contiguous zone or which may
affect natural resources belonging to, appertaining to,
or under the exclusive management authority of the
United States (including resources under the
Magnuson-Stevens Fishery Conservation and
Management Act), where permitted under the
Protocol of 1978 Relating to the International
Convention for the Prevention of Pollution from
Ships, 1973, and (B) where permitted in quantities
and at times and locations or under such
circumstances or conditions as the President may, by
regulation, determine not to be harmful.
Any
regulations issued under this subsection shall be
consistent with maritime safety and with marine and
navigation laws and regulations and applicable water
quality standards.
(4) The President shall by regulation determine
for the purposes of this section those quantities of oil
and any hazardous substances the discharge of which
may be harmful to the public health or welfare or the
environment of the United States, including but not
limited to fish, shellfish, wildlife, and public and
private property, shorelines, and beaches.
(5) Any person in charge of a vessel or of an
onshore facility or an offshore facility shall, as soon as
he has knowledge of any discharge of oil or a
hazardous substance from such vessel or facility in
violation of paragraph (3) of this subsection,
immediately notify the appropriate agency of the
United States Government of such discharge. The
Federal agency shall immediately notify the
appropriate State agency of any State which is, or

108a
may reasonably be expected to be, affected by the
discharge of oil or a hazardous substance. Any such
person (A) in charge of a vessel from which oil or a
hazardous substance is discharged in violation of
paragraph (3)(i) of this subsection, or (B) in charge of
a vessel from which oil or a hazardous substance is
discharged in violation of paragraph (3)(ii) of this
subsection and who is otherwise subject to the
jurisdiction of the United States at the time of the
discharge, or (C) in charge of an onshore facility or an
offshore facility, who fails to notify immediately such
agency of such discharge shall, upon conviction, be
fined in accordance with title 18, or imprisoned for not
more than 5 years, or both. Notification received
pursuant to this paragraph shall not be used against
any such natural person in any criminal case, except
a prosecution for perjury or for giving a false
statement.
* * *
(7)

CIVIL PENALTY ACTION.—
(A) DISCHARGE, GENERALLY.—Any person
who is the owner, operator, or person in charge of
any vessel, onshore facility, or offshore facility
from which oil or a hazardous substance is
discharged in violation of paragraph (3), shall be
subject to a civil penalty in an amount up to
$25,000 per day of violation or an amount up to
$1,000 per barrel of oil or unit of reportable
quantity of hazardous substances discharged.
* * *

109a
(11) LIMITATION.—Civil penalties shall not be
assessed under both this section and section 1319 of
this title for the same discharge.
* * *

110a
33 U.S.C. § 1342
§ 1342. National
pollutant
elimination system

discharge

(a) Permits for discharge of pollutants
(1) Except as provided in sections 1328 and 1344
of this title, the Administrator may, after opportunity
for public hearing issue a permit for the discharge of
any pollutant, or combination of pollutants,
notwithstanding section 1311(a) of this title, upon
condition that such discharge will meet either (A) all
applicable requirements under sections 1311, 1312,
1316, 1317, 1318, and 1343 of this title, or (B) prior to
the taking of necessary implementing actions relating
to all such requirements, such conditions as the
Administrator determines are necessary to carry out
the provisions of this chapter
* * *

111a
33 U.S.C. § 1362
§ 1362. Definitions
Except as otherwise specifically provided, when
used in this chapter:
* * *
(6) The term “pollutant” means dredged spoil,
solid waste, incinerator residue, sewage, garbage,
sewage sludge, munitions, chemical wastes, biological
materials, radioactive materials, heat, wrecked or
discarded equipment, rock, sand, cellar dirt and
industrial, municipal, and agricultural waste
discharged into water. This term does not mean (A)
‘‘sewage from vessels or a discharge incidental to the
normal operation of a vessel of the Armed Forces’’
within the meaning of section 1322 of this title; or (B)
water, gas, or other material which is injected into a
well to facilitate production of oil or gas, or water
derived in association with oil or gas production and
disposed of in a well, if the well used either to
facilitate production or for disposal purposes is
approved by authority of the State in which the well
is located, and if such State determines that such
injection or disposal will not result in the degradation
of ground or surface water resources.
* * *
(12) The term “discharge of a pollutant” and the
term ‘‘discharge of pollutants’’ each means (A) any
addition of any pollutant to navigable waters from
any point source, (B) any addition of any pollutant to
the waters of the contiguous zone or the ocean from
any point source other than a vessel or other floating
craft.
* * *

112a
42 U.S.C. § 9601
§ 9601. Definitions
For purposes of this subchapter—
* * *
(14) The term “hazardous substance” means
(A) any substance designated pursuant to section
311(b)(2)(A) of the Federal Water Pollution
Control Act [33 U.S.C. 1321(b)(2)(A)], (B) any
element, compound, mixture, solution, or
substance designated pursuant to section 9602 of
this title, (C) any hazardous waste having the
characteristics identified under or listed pursuant
to section 3001 of the Solid Waste Disposal Act
(but not including any waste the regulation of
which under the Solid Waste Disposal Act [42
U.S.C. 6921] (but not including any waste the
regulation of which under the Solid Waste
Disposal Act [42 U.S.C. 6901 et seq.]has been
suspended by Act of Congress), (D) any toxic
pollutant listed under section 307(a) of the Federal
Water Pollution Control Act [33 U.S.C. 1317(a)],
(E) any hazardous air pollutant listed under
section 112 of the Clean Air Act [42 U.S.C. 7412],
and (F) any imminently hazardous chemical
substance or mixture with respect to which the
Administrator has taken action pursuant to
section 7 of the Toxic Substances Control Act [15
U.S.C. 2606].
The term does not include
petroleum, including crude oil or any fraction
thereof which is not otherwise specifically listed or
designated as a hazardous substance under
subparagraphs (A) through (F) of this paragraph,
and the term does not include natural gas, natural

113a
gas liquids, liquefied natural gas, or synthetic gas
usable for fuel (or mixtures of natural gas and such
synthetic gas).
* * *
(21) The term “person” means an individual,
firm, corporation, association, partnership,
consortium, joint venture, commercial entity,
United States Government, State, municipality,
commission, political subdivision of a State, or any
interstate body.
(22) The term “release” means any spilling,
leaking, pumping, pouring, emitting, emptying,
discharging,
injecting,
escaping,
leaching,
dumping, or disposing into the environment
(including the abandonment or discarding of
barrels, containers, and other closed receptacles
containing any hazardous substance or pollutant
or contaminant), but excludes (A) any release
which results in exposure to persons solely within
a workplace, with respect to a claim which such
persons may assert against the employer of such
persons, (B) emissions from the engine exhaust of
a motor vehicle, rolling stock, aircraft, vessel, or
pipeline pumping station engine, (C) release of
source, byproduct, or special nuclear material
from a nuclear incident, as those terms are defined
in the Atomic Energy Act of 1954 [42 U.S.C. 2011
et seq.], if such release is subject to requirements
with respect to financial protection established by
the Nuclear Regulatory Commission under section
170 of such Act [42 U.S.C. 2210], or, for the
purposes of section 9604 of this title or any other
response action, any release of source byproduct,
or special nuclear material from any processing

114a
site designated under section 7912(a)(1) or 7942(a)
of this title, and (D) the normal application of
fertilizer.
(23) The terms “remove” or “removal” means2
the cleanup or removal of released hazardous
substances from the environment, such actions as
may be necessary taken in the event of the threat
of release of hazardous substances into the
environment, such actions as may be necessary to
monitor, assess, and evaluate the release or threat
of release of hazardous substances, the disposal of
removed material, or the taking of such other
actions as may be necessary to prevent, minimize,
or mitigate damage to the public health or welfare
or to the environment, which may otherwise result
from a release or threat of release. The term
includes, in addition, without being limited to,
security fencing or other measures to limit access,
provision of alternative water supplies, temporary
evacuation and housing of threatened individuals
not otherwise provided for, action taken under
section 9604(b) of this title, and any emergency
assistance which may be provided under the
Disaster Relief and Emergency Assistance Act [42
U.S.C. 5121 et seq.].
(24) The terms “remedy” or “remedial action”
means2 those actions consistent with permanent
remedy taken instead of or in addition to removal
actions in the event of a release or threatened
release of a hazardous substance into the
environment, to prevent or minimize the release of
hazardous substances so that they do not migrate
to cause substantial danger to present or future
2

So in original. Probably should be “mean”.

115a
public health or welfare or the environment. The
term includes, but is not limited to, such actions at
the location of the release as storage, confinement,
perimeter protection using dikes, trenches, or
ditches, clay cover, neutralization, cleanup of
released hazardous substances and associated
contaminated materials, recycling or reuse,
diversion, destruction, segregation of reactive
wastes, dredging or excavations, repair or
replacement of leaking containers, collection of
leachate and runoff, onsite treatment or
incineration, provision of alternative water
supplies, and any monitoring reasonably required
to assure that such actions protect the public
health and welfare and the environment. The
term includes the costs of permanent relocation of
residents and businesses and community facilities
where the President determines that, alone or in
combination with other measures, such relocation
is more cost-effective than and environmentally
preferable to the transportation, storage,
treatment, destruction, or secure disposition
offsite of hazardous substances, or may otherwise
be necessary to protect the public health or
welfare; the term includes offsite transport and
offsite storage, treatment, destruction, or secure
disposition of hazardous substances and
associated contaminated materials.
(25) The terms “respond” or “response” means2
remove, removal, remedy, and remedial action;,3
all such terms (including the terms “removal” and

2

So in original. Probably should be “mean”.

3

So in original.

116a
“remedial action”) include enforcement activities
related thereto.
* * *
(27) The terms “United States” and “State”
include the several States of the United States, the
District of Columbia, the Commonwealth of Puerto
Rico, Guam, American Samoa, the United States
Virgin Islands, the Commonwealth of the
Northern Marianas, and any other territory or
possession over which the United States has
jurisdiction.
* * *

117a
42 U.S.C. § 9606
§ 9606. Abatement actions
(a) Maintenance, jurisdiction, etc.
In addition to any other action taken by a State or
local government, when the President determines
that there may be an imminent and substantial
endangerment to the public health or welfare or the
environment because of an actual or threatened
release of a hazardous substance from a facility, he
may require the Attorney General of the United
States to secure such relief as may be necessary to
abate such danger or threat, and the district court of
the United States in the district in which the threat
occurs shall have jurisdiction to grant such relief as
the public interest and the equities of the case may
require. The President may also, after notice to the
affected State, take other action under this section
including, but not limited to, issuing such orders as
may be necessary to protect public health and welfare
and the environment.
(b) Fines; reimbursement
(1) Any person who, without sufficient cause,
willfully violates, or fails or refuses to comply with,
any order of the President under subsection (a) may,
in an action brought in the appropriate United States
district court to enforce such order, be fined not more
than $25,000 for each day in which such violation
occurs or such failure to comply continues.
(2)(A) Any person who receives and complies with
the terms of any order issued under subsection (a)
may, within 60 days after completion of the required
action, petition the President for reimbursement from
the Fund for the reasonable costs of such action, plus

118a
interest. Any interest payable under this paragraph
shall accrue on the amounts expended from the date
of expenditure at the same rate as specified for
interest on investments of the Hazardous Substance
Superfund established under subchapter A of chapter
98 of title 26.
(B) If the President refuses to grant all or part of
a petition made under this paragraph, the petitioner
may within 30 days of receipt of such refusal file an
action against the President in the appropriate
United States district court seeking reimbursement
from the Fund.
(C) Except as provided in subparagraph (D), to
obtain reimbursement, the petitioner shall establish
by a preponderance of the evidence that it is not liable
for response costs under section 9607(a) of this title
and that costs for which it seeks reimbursement are
reasonable in light of the action required by the
relevant order.
(D) A petitioner who is liable for response costs
under section 9607(a) of this title may also recover its
reasonable costs of response to the extent that it can
demonstrate, on the administrative record, that the
President’s decision in selecting the response action
ordered was arbitrary and capricious or was
otherwise
not
in
accordance
with
law.
Reimbursement awarded under this subparagraph
shall include all reasonable response costs incurred
by the petitioner pursuant to the portions of the order
found to be arbitrary and capricious or otherwise not
in accordance with law.
(E) Reimbursement awarded by a court under
subparagraph (C) or (D) may include appropriate

119a
costs, fees, and other expenses in accordance with
subsections (a) and (d) of section 2412 of title 28.
* * *

120a
42 U.S.C. § 9607
§ 9607. Liability
(a) Covered persons; scope; recoverable costs
and damages; interest rate; “comparable
maturity” date
Notwithstanding any other provision or rule of
law, and subject only to the defenses set forth in
subsection (b) of this section—
(1) the owner and operator of a vessel or a
facility,
(2) any person who at the time of disposal of
any hazardous substance owned or operated any
facility at which such hazardous substances were
disposed of,
(3) any person who by contract, agreement, or
otherwise arranged for disposal or treatment, or
arranged with a transporter for transport for
disposal or treatment, of hazardous substances
owned or possessed by such person, by any other
party or entity, at any facility or incineration
vessel owned or operated by another party or
entity and containing such hazardous substances,
and
(4) any person who accepts or accepted any
hazardous substances for transport to disposal or
treatment facilities, incineration vessels or sites
selected by such person, from which there is a
release, or a threatened release which causes the
incurrence of response costs, of a hazardous
substance, shall be liable for—
(A) all costs of removal or remedial action
incurred by the United States Government or a

121a
State or an Indian tribe not inconsistent with
the national contingency plan;
(B) any other necessary costs of response
incurred by any other person consistent with
the national contingency plan;
(C) damages for injury to, destruction of, or
loss of natural resources, including the
reasonable costs of assessing such injury,
destruction, or loss resulting from such a
release; and
(D) the costs of any health assessment or
health effects study carried out under section
9604(i) of this title.
The amounts recoverable in an action under this
section shall include interest on the amounts
recoverable under subparagraphs (A) through (D).
Such interest shall accrue from the later of (i) the date
payment of a specified amount is demanded in
writing, or (ii) the date of the expenditure concerned.
The rate of interest on the outstanding unpaid
balance of the amounts recoverable under this section
shall be the same rate as is specified for interest on
investments of the Hazardous Substance Superfund
established under subchapter A of chapter 98 of title
26. For purposes of applying such amendments to
interest under this subsection, the term “comparable
maturity” shall be determined with reference to the
date on which interest accruing under this subsection
commences.
* * *

122a
42 U.S.C. § 9613
§ 9613. Civil proceedings
* * *
(f)

Contribution
(1) Contribution
Any person may seek contribution from any
other person who is liable or potentially liable
under section 9607(a) of this title, during or
following any civil action under section 9606 of
this title or under section 9607(a) of this title.
Such claims shall be brought in accordance with
this section and the Federal Rules of Civil
Procedure, and shall be governed by Federal law.
In resolving contribution claims, the court may
allocate response costs among liable parties using
such equitable factors as the court determines are
appropriate. Nothing in this subsection shall
diminish the right of any person to bring an action
for contribution in the absence of a civil action
under section 9606 of this title or section 9607 of
this title.
(2) Settlement
A person who has resolved its liability to the
United States or a State in an administrative or
judicially approved settlement shall not be liable
for claims for contribution regarding matters
addressed in the settlement. Such settlement does
not discharge any of the other potentially liable
persons unless its terms so provide, but it reduces
the potential liability of the others by the amount
of the settlement.

123a
(3) Persons not party to settlement
(A) If the United States or a State has
obtained less than complete relief from a person
who has resolved its liability to the United States
or the State in an administrative or judicially
approved settlement, the United States or the
State may bring an action against any person who
has not so resolved its liability.
(B) A person who has resolved its liability to
the United States or a State for some or all of a
response action or for some or all of the costs of
such action in an administrative or judicially
approved settlement may seek contribution from
any person who is not party to a settlement
referred to in paragraph (2).
(C) In any action under this paragraph, the
rights of any person who has resolved its liability
to the United States or a State shall be
subordinate to the rights of the United States or
the State. Any contribution action brought under
this paragraph shall be governed by Federal law.
(g) Period in which action may be brought
* * *
(2) Actions for recovery of costs
An initial action for recovery of the costs
referred to in section 9607 of this title must be
commenced—
(A) for a removal action, within 3 years
after completion of the removal action, except
that such cost recovery action must be brought
within 6 years after a determination to grant a
waiver under section 9604(c)(1)(C) of this title
for continued response action; and

124a
(B) for a remedial action, within 6 years
after initiation of physical on-site construction
of the remedial action, except that, if the
remedial action is initiated within 3 years after
the completion of the removal action, costs
incurred in the removal action may be
recovered in the cost recovery action brought
under this subparagraph.
In any such action described in this subsection, the
court shall enter a declaratory judgment on
liability for response costs or damages that will be
binding on any subsequent action or actions to
recover further response costs or damages. A
subsequent action or actions under section 9607 of
this title for further response costs at the vessel or
facility may be maintained at any time during the
response action, but must be commenced no later
than 3 years after the date of completion of all
response action. Except as otherwise provided in
this paragraph, an action may be commenced
under section 9607 of this title for recovery of costs
at any time after such costs have been incurred.
(3) Contribution
No action for contribution for any response
costs or damages may be commenced more than 3
years after—
(A) the date of judgment in any action
under this chapter for recovery of such costs or
damages, or
(B) the date of an administrative order
under section 9622(g) of this title (relating to
de minimis settlements) or 9622(h) of this title
(relating to cost recovery settlements) or entry

125a
of a judicially approved settlement with respect
to such costs or damages.
* * *

126a
42 U.S.C. § 9620
§ 9620. Federal facilities
(a) Application
of
chapter
to
Federal
Government
(1) In general
Each department, agency, and instrumentality
of the United States (including the executive,
legislative, and judicial branches of government)
shall be subject to, and comply with, this chapter
in the same manner and to the same extent, both
procedurally
and
substantively,
as
any
nongovernmental entity, including liability under
section 9607 of this title. Nothing in this section
shall be construed to affect the liability of any
person or entity under sections 9606 and 9607 of
this title.
* * *

127a
42 U.S.C. § 9622
§ 9622. Settlements
(a) Authority to enter into agreements
The President, in his discretion, may enter into an
agreement with any person (including the owner or
operator of the facility from which a release or
substantial threat of release emanates, or any other
potentially responsible person), to perform any
response action (including any action described in
section 9604(b) of this title) if the President
determines that such action will be done properly by
such person. Whenever practicable and in the public
interest, as determined by the President, the
President shall act to facilitate agreements under this
section that are in the public interest and consistent
with the National Contingency Plan in order to
expedite effective remedial actions and minimize
litigation. If the President decides not to use the
procedures in this section, the President shall notify
in writing potentially responsible parties at the
facility of such decision and the reasons why use of
the procedures is inappropriate. A decision of the
President to use or not to use the procedures in this
section is not subject to judicial review.
* * *
(c) Effect of agreement
(1) Liability
Whenever the President has entered into an
agreement under this section, the liability to the
United States under this chapter of each party to
the agreement, including any future liability to the
United States, arising from the release or

128a
threatened release that is the subject of the
agreement shall be limited as provided in the
agreement pursuant to a covenant not to sue in
accordance with subsection (f) of this section. A
covenant not to sue may provide that future
liability to the United States of a settling
potentially responsible party under the agreement
may be limited to the same proportion as that
established in the original settlement agreement.
Nothing in this section shall limit or otherwise
affect the authority of any court to review in the
consent decree process under subsection (d) of this
section any covenant not to sue contained in an
agreement under this section. In determining the
extent to which the liability of parties to an
agreement shall be limited pursuant to a covenant
not to sue, the President shall be guided by the
principle that a more complete covenant not to sue
shall be provided for a more permanent remedy
undertaken by such parties.
(2) Actions against other persons
If an agreement has been entered into under
this section, the President may take any action
under section 9606 of this title against any person
who is not a party to the agreement, once the
period for submitting a proposal under subsection
(e)(2)(B) has expired. Nothing in this section shall
be construed to affect either of the following:
(A) The liability of any person under
section 9606 or 9607 of this title with respect to
any costs or damages which are not included in
the agreement.

129a
(B) The authority of the President to
maintain an action under this chapter against
any person who is not a party to the agreement.
* * *

130a
[Counsel
information
omitted]

FILED
DISTRICT COURT OF
GUAM
AUG 07 2002
MARY L. M. MORAN
CLERK OF COURT

IN THE UNITED STATES DISTRICT COURT
FOR THE TERRITORY OF GUAM
UNITED STATES OF
AMERICA,
Plaintiff,
vs.
GOVERNMENT OF
GUAM,
Defendant.

)
)
)
)
)
)
)
)
)
)
)
)

CIVIL CASE NO. 0200022

COMPLAINT FOR
INJUNCTIVE
RELIEF AND CIVIL
PENALTIES UNDER
THE CLEAN WATER
ACT

The United States of America (“United States”),
through its undersigned attorneys, by authority of the
Attorney General and at the request of the
Administrator of the United States Environmental
Protection Agency (“EPA”), alleges:
INTRODUCTION
This complaint seeks civil penalties under the
Clean Water Act (“CWA” or “Act”), 33 U.S.C. § 1319,
and seeks the closure of the Ordot Landfill on Guam.

131a
This facility has exceeded its appropriate closure date
by over five years. The landfill has produced leachate
which has been discharged into the Lonfit River
throughout that time period. As early as March 1986,
leachate discharge from the landfill to the Lonfit
River was documented through Guam Environmental
Protection Agency (“GEPA”) inspections. In 1986, the
landfill was, by administrative order of the U.S. EPA,
ordered to cease discharge into the Lonfit River. To
date, the leachate discharges have not ceased.
PARTIES
1. The plaintiff is the United States of America
(“United States”).
2. The defendant is the Government of Guam
(“Guam”).
3. Guam is an unincorporated territory of the
United States created by statute and has the power to
sue and be sued. 48 U.S.C. § 1421a; 33 U.S.C.
§§ 1311(a) and 1365(3), (5).
JURISDICTION AND VENUE
4. This Court has jurisdiction over the parties to
and the subject matter of this action pursuant to CWA
Section 309(b), 33 U.S.C. § 1319(b), and 28 U.S.C.
§§ 1331, 1345 and 1355.
5. Venue is proper in this judicial district
pursuant to CWA Section 309(b), 33 U.S.C. § 1319(b),
and 28 U.S.C. §§ 1391(b) and (c) and 1395, because
the defendant is located in this district and the events
or omissions giving rise to this claim occurred in this
district.
6. EPA has notified Guam of this action under
CWA Section 309(b), 33 U.S.C. § 1319(b).

132a
STATUTORY BACKGROUND
7. CWA Section 301(a), 33 U.S.C. § 1311(a),
prohibits the discharge of pollutants into navigable
waters by any person except as authorized by, and in
compliance with, certain other sections of the Act,
including CWA Section 402, 33 U.S.C. § 1342.
8. Under CWA Section 402(a), 33 U.S.C.
§ 1342(a), the Administrator of EPA may issue
National Pollutant Discharge Elimination System
(“NPDES”) permits which authorize the discharge of
pollutants into waters of the United States, subject to
the conditions and limitations set forth in such
permits.
9. Under CWA Section 402(b), 33 U.S.C.
§ 1342(b), the EPA Administrator may approve a
state’s administration of the NPDES program in that
state. The EPA Administrator has not approved
Guam to administer the NPDES permit program in
Guam.
10. CWA Section 502(5) defines “person” to include
a “state.” 33 U.S.C. § 1362(5).
11. CWA Section 502(3) defines “state” to include
Guam. 33 U.S.C. § 1362(3).
12. CWA Section 502(6) defines “pollutant” to
include “dredged spoil, solid waste, incinerator
residue, sewage, garbage, sewage sludge, munitions,
chemical wastes, biological materials, radioactive
materials, heat, wrecked or discarded equipment,
rock, sand, cellar dirt and industrial, municipal, and
agricultural waste discharged into water.” 33 U.S.C.
§ 1362(6).
13. CWA Section 502(12) defines “discharge of a
pollutant” to include “any addition of any pollutant to

133a
navigable waters from any point source.” 33 U.S.C.
§ 1362(12).
14. CWA Section 502(7) defines “navigable waters”
to be “the waters of the United States, including the
territorial seas.” 33 U.S.C. § 1362(7).
15. CWA Section 502(14) defines “point source” to
include “any discernible, confined and discrete
conveyance, including but not limited to any pipe,
ditch, channel, tunnel conduit, well [or] container
from which pollutants are or may be discharged.” 33
U.S.C. § 1362(14).
16. CWA Section 309(a)(3), 33 U.S.C. § 1319(a)(3),
among other things, authorizes EPA to order any
violator of CWA Section 301(a) to comply with CWA
Section 301(a).
17. CWA Section 309(b), 33 U.S.C. § 1319(b),
authorizes EPA to commence a civil action for
appropriate relief, including a permanent or
temporary injunction, against any person who
violates CWA Section 301 or commits any violation
against which EPA may issue a compliance order
pursuant to 33 U.S.C. § 1319(a).
18. CWA Section 309(d), 33 U.S.C. § 1319(d),
provides that any person who violates CWA Section
301(a), 33 U.S.C. § 1311(a), or an order issued
pursuant to CWA Section 309(a), 33 U.S.C. § 1319(a),
shall be subject to civil penalties not to exceed $25,000
per day for each violation which occurred on or before
January 30, 1997. The maximum civil penalty has
been increased to $27,500 per day per violation, after
January 30, 1997, 40 C.F.R. § 19.4.
GENERAL ALLEGATIONS
19. Defendant owns and operates the Ordot
Landfill which is located in the village of Ordot and is

134a
the municipal landfill for the Island of Guam. It has
been in operation since the early 1950s.
20. Guam does not have any NPDES permit from
the EPA authorizing the discharge of any pollutant
from the Ordot Landfill to waters of the United
States.
21. From at least 1988 through the present, Guam
has routinely discharged untreated leachate from the
Ordot Landfill into the Lonfit River and two of its
tributaries.
22. Leachate is a “pollutant” under CWA Section
502(6), 33 U.S.C. § 1362(6).
23. The Ordot Landfill, together with earthen
channels, gullies, trenches, and ditches which carry
leachate to the Lonfit River’s tributaries, are “point
sources” under CWA Section 502(14), 33 U.S.C.
§ 1362(14).
24. The Lonfit River and its tributaries drain into
the Pacific Ocean at Pago Bay. The Lonfit River and
its tributaries are “waters of the United States” and
“navigable waters” under CWA Section 502(7), 33
U.S.C. 1362(7).
FIRST CLAIM FOR RELIEF
25. The United States fully incorporates by
reference the allegations in paragraphs 1 through 24.
26. By reason of the foregoing, Guam has
repeatedly violated CWA Section 301 (a), 33 U.S.C.
§ 1311(a), by discharging pollutants from a point
source into waters of the United States without
obtaining a permit in accordance with CWA Section
402, 33 U.S.C. § 1342.
27. Pursuant to CWA Section 309, 33 U.S.C.
§ 1319, Guam is liable, for civil penalties of up to

135a
$25,000 per day per violation on or before January 30,
1997, and after January 30, 1997 for civil penalties of
up to $27,500 per day per violation. Unless enjoined,
Guam will continue to violate the CWA.
SECOND CLAIM FOR RELIEF
28. The United States fully incorporates by
reference the allegations in paragraphs 1 through 24.
29. On July 19, 1990, in EPA Docket No. IX-FY9028, the EPA issued an administrative order to Guam
under CWA Section 309(a), 33 U.S.C. § 1319(a),
requiring, among other things, that Guam submit
plans and a compliance schedule for a cover system
for the Ordot Landfill and complete construction of
the cover system to eliminate discharges of untreated
leachate to the waters of the United States by June
30, 1992.
30. On October 9, 1990, EPA extended the deadline
for demonstration of compliance under the
administrative order, that is elimination of the
discharge, to August 15, 1992.
31. On April 10, 1997, EPA extended the deadline
under the administrative order to July 9, 1997, for
submission of a schedule for design and construction
of a cover system to eliminate untreated leachate
discharges.
32. Guam submitted a proposed schedule for
design and construction on July 9, 1997.
33. On September 19, 1997, EPA disapproved the
proposed schedule. Specifically, EPA found that the
submittal was not a credible schedule, as performance
of many of the important items were conditioned on
the availability of funds. The submittal did not
identify an assured source of funding.

136a
34. To date, Guam has failed to submit a schedule
that incorporates an unconditional source of funding
and has failed to construct a closure system.
35. Each day that Guam fails to comply with the
deadline for submittal of an acceptable schedule is a
separate violation of the administrative order and the
CWA.
Each day that Guam fails to complete
construction of a cover system is a separate violation
of the administrative order and the CWA. Pursuant
to CWA Section 309, 33 U.S.C. § 1319, Guam is liable
for civil penalties of up to $27,500 per day for each
violation of the administrative order and the CWA.
Unless enjoined, Guam will continue to violate the
administrative order and the CWA.
PRAYER FOR RELIEF
WHEREFORE, the United States of America
prays that the Court provide the following relief:
1. An injunction ordering the Government of
Guam to comply with the Clean Water Act;
2. A judgment for the United States of America
imposing civil penalties on the Government of Guam
not to exceed $25,000 per day for each day of each
violation of the Clean Water Act, including violations
of the 1990 EPA Administrative Order, up to January
30, 1997, and $27,500 for each day of each violation
thereafter;
3. An order that Guam file timely and complete
applications for all required permits;
4. An order that Guam cease all further
unpermitted discharges;
5. An award to the United States of America of its
costs and disbursements in this action; and

137a
6. Such other
appropriate.

relief

as

this

Court

deems

DATED this 14 day of [May,] 2002.
/s/ Tom Sansonetti
THOMAS L. SANSONETTI
Assistant Attorney General
Environmental & Natural
Resources Division
CYNTHIA S. HUBER
Senior Attorney
Environmental Enforcement
Section
P.O. Box 7611
Washington, D.C. 20044-7611
FREDERICK A. BLACK
United States Attorney
Districts of Guam and NMI
By: /s/ Mikel W. Schwab
MIKEL W. SCHWAB
Assistant U.S. Attorney
Of Counsel: JULIA JACKSON
U.S. Environmental Protection Agency
Office of Regional Counsel, Region IX
75 Hawthorne Street
San Francisco, CA 94105

138a
[Counsel
information
omitted]

FILED
DISTRICT COURT OF
GUAM
FEB 11 2004
MARY L. M. MORAN
CLERK OF COURT

UNITED STATES DISTRICT COURT
TERRITORY OF GUAM
UNITED STATES OF
AMERICA,
Plaintiff,
v.
GOVERNMENT
OF
GUAM,
Defendant.

) CIVIL CASE NO. 02) 00022
)
)
)
CONSENT DECREE
)
)
)

WHEREAS, Plaintiff United States of America, on
behalf of the United States Environmental Protection
Agency (“U.S. EPA”), filed a civil lawsuit against the
Government of Guam;
WHEREAS, the Government of Guam owns and
operates a solid waste disposal facility in the Village
of Ordot, hereinafter referred to as the “Ordot Dump;”
WHEREAS, the operation of the Ordot Dump is
subject to, among other things, the provisions of the
Clean Water Act, 33 U.S.C. §§ 1251-1387;
WHEREAS, 33 U.S.C. § 1311(a) makes it unlawful
to discharge pollutants from a point source to waters

139a
of the United States, except as authorized by a permit
issued pursuant to 33 U.S.C. § 1342;
WHEREAS, in the Complaint, the United States
alleges that discharges from the Ordot Dump into the
Lonfit River constitute discharges of pollutants into a
water of the United States and that such discharges
are not authorized by a permit issued pursuant to 33
U.S.C. § 1342;
WHEREAS, pursuant to the authority in 33 U.S.C.
§ 1319, on July 24, 1990, U.S. EPA issued an
administrative order to the Government of Guam
Department of Public Works (“DPW”) requiring the
cessation of discharges in accordance with a plan and
schedule to be submitted to and approved by U.S.
EPA;
WHEREAS, pursuant to the authority in 33 U.S.C.
§ 1318(a), on September 19, 1997, U.S. EPA requested
DPW to obtain and submit to U.S. EPA certain data
and information on the discharges from the Ordot
Dump and the receiving water in accordance with
specified deadlines;
WHEREAS, in the Complaint, the United States
alleges that the Government of Guam did not comply
with the terms and conditions of the administrative
order and the request for information;
WHEREAS, Guam law, at 10 G.C.A. § 51118,
provides for a financing source from tipping and user
fees for the Government of Guam costs and expenses
directly related to the closure of Ordot Dump and the
development, design, construction, and operation of a
new sanitary landfill;
WHEREAS, the parties agree that settlement of
the civil judicial claims as alleged in the Complaint is
in the public interest and that entry of this Consent

140a
Decree without further litigation is the most
appropriate way to resolve this action and avoid
protracted litigation;
THEREFORE, based on the pleadings, before
taking testimony or adjudicating any issue of fact or
law, and without any finding or admission of liability
against or by the Government of Guam;
IT IS ORDERED, ADJUDGED, AND DECREED
as follows:
I. JURISDICTION
1. This Court has jurisdiction over the subject
matter of this action and over the parties pursuant to
33 U.S.C. § 1319(b) and (d) and 28 U.S.C. §§ 1331,
1345, and 1355. Venue is proper in this Court
pursuant to 28 U.S.C. §§ 1391(b) and 1395(a) and 33
U.S.C. § 1319(b).
II. PARTIES BOUND
2. This Consent Decree shall apply and be
binding upon the Government of Guam and its
boards, directors, agencies, authorities, departments
(including and not limited to DPW and the Guam
Environmental Protection Agency (“GEPA”)), and
their successors and assigns, and on the United
States on behalf of U.S. EPA.
3. The Government of Guam shall give written
notice of this Consent Decree to any successor in
interest prior to the transfer of any ownership
interest or right to operate the Ordot Dump. The
Government of Guam shall send a copy of such
notification to U.S. EPA prior to such sale or transfer.
Upon sale or transfer of the Ordot Dump, the
Government of Guam shall attach a copy of this
Consent Decree to the agreement which effects the

141a
sale or transfer and shall make performance of the
obligations of the Government of Guam under this
Consent Decree an obligation of the purchaser or
transferee. Transfer of ownership of the Ordot Dump
will not relieve the Government of Guam from the
obligations of this Consent Decree.
4. Within TEN (10) days from the entry of this
Consent Decree and as appropriate thereafter, the
Government of Guam shall provide copies of this
Consent Decree, accompanied by a summary
explanation of its terms, to all persons who are bound
by this Consent Decree as specified in Paragraph 2 or
who are in a position to ensure or affect compliance
with this Consent Decree, including notice to any
successors in interest to property governed by this
Consent Decree prior to the transfer of said property.
The Government of Guam shall provide a copy of this
Consent Decree to any contractor or consultant
retained to perform any activity required by this
Consent Decree. No later than TEN (10) days after
any such notice, the Government of Guam shall
provide U.S. EPA with a copy of its summary
explanation and a list of the names, titles, and
addresses of all recipients.
III. CIVIL PENALTY
5. The Government of Guam shall pay a civil
penalty of $200,000 to the United States in
accordance with Paragraph 6 below.
6. Payments shall be made by wire transfers
payable to the United States Department of Justice in
accordance with the FEDWIRE Electronic Funds
Transfer instructions (forms attached as Appendix A)
at the following times:

142a
a. Thirty days after the effective date in
amount of $25,000;
b. One (1) year after the effective date in
amount of $50,000;
c. Two (2) years after the effective date in
amount of $50,000; and
d. Three (3) years after the effective date in
amount of $75,000.

the
the
the
the

IV. COMPLIANCE
7. The Government of Guam shall correct all
compliance problems that form the basis for the
Complaint filed in this action by undertaking the
actions identified below within the specified times.
Unless otherwise specified, the times given in days
refer to calendar days from the date of entry of this
Consent Decree. U.S. EPA may, at its discretion,
review documents submitted by the Government of
Guam concerning operation and closure of Ordot
Dump and the construction or operation of the new
Municipal Solid Waste Landfill (“MSWLF”). In the
event that U.S. EPA provides written comments, the
Government of Guam must respond in writing within
30 days and incorporate such comments into the
document. Representatives of the Parties shall make
themselves readily available during and after the
comment period to informally discuss questions and
comments on any documents.
a. For purposes of this Consent Decree, (i) “Ordot
Dump” shall refer to Ordot Dump in its current
configuration and current boundaries as depicted in
Appendix B; and (ii) the new Municipal Solid Waste
Landfill or “MSWLF” shall include the option of
constructing and operating new cells at a location
adjacent to the Ordot Dump location.

143a
8. Closure of Ordot Dump and Cessation of
Discharge of Pollutants from Ordot Dump into
Waters of the United States.
a. Within 300 days (approximately 10 months),
DPW shall:
i. Submit a Draft Closure Plan to U.S. EPA
that shall include, but not be limited to:
– Site investigation, survey & mapping.
– Environmental baseline survey.
– 40% (conceptual) design of the dump cover
system including methods and procedures
to be used to install the cover system and
operational plans to implement measures to
cease discharge of pollutants into waters of
the United States.
– 40% (conceptual) design of perimeter
surface water diversion system.
– Other measures necessary to comply with
Government of Guam regulations regarding
closure of municipal solid waste landfills (22
G.A.R. § 23601).
ii. Submit a permit application to GEPA
pursuant to Government of Guam regulations
(22 G.A.R. § 23104) for the disposal of
municipal solid waste at Ordot Dump until
such time as the facility is closed and no longer
accepts municipal solid waste for disposal.
DPW shall provide a copy of this permit
application to U.S. EPA at the time of
submission.
b. Within 450 days (approximately 15 months),
DPW shall:

144a
i. Submit to U.S. EPA a 90% Draft Final
Closure Plan that shall include, but not be
limited to:
– 100% design of the dump cover system
including methods and procedures to be
used to install the cover system and
operational plans to implement measures to
cease discharge of pollutants into water of
the United States.
– 100% design of the perimeter surface water
diversion system.
– 100% post-closure care and monitoring
plan.
– 40% Draft Specifications (including a
Construction Management Plan) that
describes the quality assurance measures
necessary to ensure that the final dump
closure
system
meets
the
design
specifications.
– Other measures necessary to comply with
Government of Guam regulations regarding
closure of municipal solid waste landfills (22
G.A.R. § 23601).
ii. Submit to U.S. EPA and GEPA a draft final
plan and a schedule to implement post-closure
requirements.
iii. Submit to U.S. EPA a supplement to its
original permit application to GEPA that
includes complete information about closure
plans, in compliance with Government of
Guam Regulations (22 G.A.R. § 23104).
c. Within 570 days (approximately 19 months),
DPW shall:

145a
i. Submit to U.S. EPA a Final Closure Plan
that shall include, but not be limited to:
– 100% design of the dump cover system
including methods and procedures to be
used to install the cover system and
operational plans to implement measures to
cease discharge of pollutants into waters of
the United States.
– 100% design of the perimeter surface water
diversion system.
– Final
Specifications
(including
a
Construction Management Plan) that
describes the quality assurance measures
necessary to ensure that the final dump
closure
system
meets
the
design
specifications.
– Other measures necessary to comply with
Government of Guam regulations regarding
closure of municipal solid waste landfills (22
G.A.R. § 23601).
ii. Submit to GEPA a final plan and schedule
to implement post-closure requirements, in
accordance with Government of Guam
requirements. A copy shall be provided to U.S.
EPA at the same time.
iii. Submit to GEPA, U.S. EPA, and U.S. Army
Corps of Engineers a 90% Draft Wetland
Mitigation Plan for closure of Ordot Dump. An
approved Wetland Mitigation Plan, including a
viable financial plan, shall be required before
the issuance of any closure construction
permits.
d. Within 570 days (approximately 19 months),
GEPA shall notify DPW and U.S. EPA of the

146a
adequacy of the solid waste permit application filed
pursuant to Paragraph 8(a)(ii) and 8(b)(iii) above in
accordance with Government of Guam regulations
(22 G.A.R. § 23104(c)(2)).
e. Within 660 days (approximately 22 months),
GEPA shall issue or deny a solid waste permit for
the continued operation of Ordot Dump for a period
not to extend beyond 1,350 days (approximately 45
months) after the entry of this Consent Decree and
for the closure of Ordot Dump and provide a copy of
the permit, including any conditions, or the denial
to U.S. EPA.
f. Within 700 days (approximately 23 months),
DPW shall advertise for bids to construct Ordot
closure plans and specifications.
g. Within 800 days (approximately 27 months),
DPW shall award a construction contract for Ordot
Dump closure and provide a notice to proceed to the
selected contractor and submit evidence of such
award and notice to U.S. EPA.
h. Within 1,350 days (approximately 45 months),
DPW shall complete closure of Ordot Dump, begin
implementation of the post-closure plan in
accordance
with
Government
of
Guam
requirements, and submit a certification to U.S.
EPA that the Ordot Dump no longer receives
municipal solid waste for disposal.
i. Within 1,350 days (approximately 45 months),
DPW shall cease all discharges to waters of the
United States and submit a certification to U.S.
EPA that discharges to waters of the United States
from the Ordot Dump have ceased.

147a
9. Construction and Operation of New Municipal
Solid Waste Landfill (“MSWLF”).
a. Within 30 days, DPW shall submit a list of at
least three potential landfill sites to U.S. EPA and
GEPA.
Within 300 days (approximately 10
months), DPW shall complete an Environmental
Impact Statement (“EIS”) that includes a detailed
analysis and comparison of at least three potential
landfill sites for the MSWLF and identifies DPW’s
preferred alternative for the MSWLF. DPW shall
provide U.S. EPA and GEPA with a copy of the
draft and final EIS within 10 days after completion
of the draft and final EIS.
b. If U.S. EPA does not agree with DPW’s
preferred alternative, the parties shall use their
best efforts to come to an agreement regarding the
location of the new MSWLF within 90 days after
completion of the final EIS. If the parties are
unable to agree on a location, the Government of
Guam shall file a motion within 110 days after
completion of the final EIS, submitting the
disputed matter to the Court for resolution. The
Government of Guam’s motion shall request oral
argument and shall be set for hearing not less than
45 after service of the moving papers. The United
States shall have 30 days to respond to the
Government of Guam’s motion. The Court shall
render a decision on the location of the new
MSWLF based on the written materials on file and
any oral argument.
c. Within 540 days (approximately 18 months),
DPW shall submit a Draft Plan for the design,
construction, and operation for the new MSWLF to
U.S. EPA. The Draft Plan shall include but not be
limited to:

148a
– Site investigation, survey, and mapping.
– Hydrogeologic/subsurface investigation.
– 40% design and specifications for
construction and operation of the new
MSWLF system.
– Other measures necessary to comply with
Government of Guam regulations regarding
siting, design, and operational criteria for
Municipal Solid Waste Landfills (22 G.A.R.
§ 23601).
d. Within 725 days (approximately 24 months),
DPW shall:
i. Submit a 90% Draft Final Plan for the
design, construction, and operation for the
new MSWLF to U.S. EPA. The Draft Final
Plan shall include but not be limited to:
– 100% design for construction and operation
of the new MSWLF system.
– Draft
Specifications
(including
a
Construction Management Plan) that
describes the quality assurance measures
necessary to ensure that the final new
municipal solid waste landfill system meets
the design specifications.
– Other measures necessary to comply with
Government of Guam regulations regarding
siting, design, financial and operational
criteria for Municipal Solid Waste Landfills
(22 G.A.R. § 23401).
ii. Submit a permit application to GEPA in
accordance with Government of Guam
Regulations (22 G.A.R. § 23104) to site,
construct, and operate a new municipal
solid waste disposal landfill in accordance

149a
with applicable Guam and Federal
regulations. A copy of the application shall
also be submitted to U.S. EPA at the same
time.
iii. Submit to GEPA, U.S. EPA, and U.S. Army
Corps of Engineers a 90% Draft Wetland
Mitigation Plan and submit a Wetland
Development Permit application to the
Guam Land Use Commission. Approval of
the 100% Final Wetland Mitigation Plan,
including a viable financial plan, and a
Wetland Development Permit shall be
required before the issuance of any landfill
construction permits.
e. Within 845 days (approximately 28 months,
which is 120 days after DPW’s application is
submitted), GEPA shall notify DPW and U.S. EPA
of the adequacy of the permit application filed
pursuant to Paragraph 9(d)(ii) above and in
accordance with Government of Guam Regulations
(22 G.A.R. § 23104(c)(2)).
f. Within 845 days (approximately 28 months),
DPW shall:
i. Submit 100% Final Plan for the design,
construction, and operation for the new
MSWLF to U.S. EPA. The Final Plan shall
include but not be limited to:
– 100% design for construction and operation
of the new MSWLF system.
– Other measures necessary to comply with
Government of Guam regulations regarding
the design criteria for Municipal Solid
Waste Landfill (22 G.A.R. § 23401).

150a
– Final
Specifications
(including
a
Construction Management Plan) that
describes the quality assurance measures
necessary to ensure that the final new
municipal solid waste landfill system meets
the design specifications.
ii. Advertise for bids to construct the new
MSWLF.
g. Within 935 days (approximately 31 months),
GEPA shall issue or deny a permit for the new
MSWLF and provide a copy of the permit, including
any conditions, or the denial to U.S. EPA.
h. Within 975 days (approximately 32 months),
DPW shall award a construction contract for the
new MSWLF in accordance with applicable
procurement rules and policies of the Government
of Guam and provide a notice to proceed to the
selected contractor and submit evidence of such
award and notice to U.S. EPA.
i. Within 1,320 days (approximately 44 months),
DPW shall begin operations of the new MSWLF
and so certify to U.S. EPA within 7 days of
commencement of operation.
10. Financing Closure of Ordot Dump and
Construction and Operation of New Municipal Solid
Waste Landfill.
a. Within 120 days, the Government of Guam
shall submit to U.S. EPA a financial plan for
funding those actions identified in Paragraphs 8
and 9, over time, including the funding source or
sources and a schedule to secure funds for the
capital and operating costs necessary to fully
implement those actions identified in Paragraphs 8
and 9 above. The parties acknowledge and agree

151a
that the total amount of funding needed to
complete the projects required under this Consent
Decree is not currently available. The parties agree
that the projects shall be funded by the Solid Waste
Operations Fund, established by 10 G.C.A. § 51118,
including the costs and expenses directly related to
the closure of the Ordot Dump and the
development, design, construction, and operation of
a new sanitary landfill. The parties also agree that
the Solid Waste Operations Fund shall not be
regarded as the exclusive source of funding for the
projects; and that the Government of Guam may
obtain funding from other sources.
The
Government of Guam shall use its best efforts to
obtain sufficient funding to fully implement the
projects required by this Consent Decree. If
funding from the Solid Waste Operations Fund is
not sufficient to fully implement the projects, the
Government of Guam shall seek funding through
legislative appropriation, loans, grants, and rates
charged for consumer services such as tipping or
user fees.
b. Notwithstanding any of the time frames set
forth in Paragraph 8 or 9 above, upon the opening
of a properly licensed and permitted municipal
solid waste landfill prior to the times set forth in
Paragraphs 8 and 9 above, no further dumping of
any kind will be permitted at the Ordot Dump.
V. REPORTING REQUIREMENTS
11. Beginning with the first quarter following the
quarter in which this Consent Decree is entered and
continuing until termination of this Consent Decree,
the Government of Guam shall submit to U.S. EPA
written quarterly reports of its progress in

152a
implementing the provisions of this Consent Decree.
Quarterly reports shall be submitted within twentyone (21) days after the last day of each quarter. At a
minimum, these Progress Reports shall include:
a. All tasks required under the Consent Decree
and performed during the reporting period;
b. All deadlines in this Consent Decree that the
Government of Guam was required to meet during
the reporting period;
c. A report whether the Government of Guam met
these deadlines;
d. The reasons for any failure to meet these
deadlines and all steps taken to remedy such
failure; and
e. A projection of the tasks to be performed
pursuant to this Consent Decree during the next
reporting period.
VI. STIPULATED PENALTIES
12. Stipulated Penalties.
a. The Government of Guam shall pay stipulated
penalties for failure to meet deadlines specified in
Section IV (Compliance) as follows:
i. For failure to meet any of the deadlines
specified in Paragraphs 8(a) - 8(f) and 9(a) 9(g):
– $250 per day per violation for the first 30
days, $500 per day per violation for the
following 30 days, and $1,000 per day per
violation for each day thereafter.
ii. For failure to meet any of the deadlines
specified in Paragraphs 8(g), 9(h), and 10:
– $500 per day per violation for the first 30
days, $1,000 per day per violation for the

153a
following 30 days, and $2,000 per day per
violation for each day thereafter.
iii. For failure to meet any of the deadlines
specified in Paragraphs 8(h), 8(i), and 9(i):
– $1,000 per day per violation for the first 30
days, $2,000 per day per violation for the
following 30 days, and $5,000 per day per
violation for each day thereafter.
b. The Government of Guam shall pay stipulated
penalties in the amount of $500 per day for failure
to timely pay the civil penalty required by Section
III.
c. The Government of Guam shall pay stipulated
penalties for failure to meet any other
requirements of this Consent Decree (with the
exception of the failure to complete the
Supplemental Environmental Project as set forth
in Appendix C that is subject to penalties pursuant
to Paragraph 18) as follows:
– $250 per day per violation for the first 30
days, $500 per day per violation for the
following 30 days, and $1,000 per day per
violation for each day thereafter.
13. Stipulated penalties shall begin to accrue on
the day after performance is due and shall continue to
accrue through the final date of completion even if no
notice of the violation is sent to the Government of
Guam.
Nothing herein shall prevent the
simultaneous accrual of separate penalties for
separate violations of the Consent Decree.
14. Any stipulated penalty accruing pursuant to
this Consent Decree shall be payable upon demand
and due not later than THIRTY (30) days after the
Government of Guam’s receipt of U.S. EPA’s written

154a
demand. Stipulated penalties shall be paid by
certified or cashier’s check in the amount due, shall
be made payable to the “U.S. Department of Justice,”
referencing DOJ #90-5-1-1-06658 and USAO File
Number 1998V00094, and shall be delivered by
certified mail with return receipt requested to:
United States Attorney, District of Guam
Attention: Financial Litigation Unit
Suite 500, Sirena Plaza
108 Hernan Cortez
Hagatna, Guam 96910
Concurrently with making the payment, Defendant
shall send notice of payment to U.S. EPA and DOJ,
directed to the addresses provided in Section XI
(Notification). The notice of payment shall also
identify: (i) the specific provision of this Section VI
(Stipulated Penalties) related to such payment, and
(ii) a description of the violation(s) of this Consent
Decree for which the stipulated penalties or interest
are being tendered.
15. If the Government of Guam fails to pay
stipulated penalties owed pursuant to this Consent
Decree within THIRTY (30) days of receipt of U.S.
EPA’s written demand, the Government of Guam
shall pay interest on the late payment for each day
after the initial thirty day due date. The rate of
interest shall be the most recent interest rate
determined pursuant to 28 U.S.C. § 1961.
16. Stipulated penalties are not the Plaintiff’s
exclusive remedy for violations of this Consent
Decree. The United States expressly reserves the
right to seek any other relief it deems appropriate,
including, but not limited to, action for statutory

155a
penalties, contempt, or injunctive relief against the
defendant.
VII. SUPPLEMENTAL ENVIRONMENTAL
PROJECT
17. In partial satisfaction of Plaintiff’s claims, the
Government of Guam shall perform and complete the
Supplemental Environmental Project (“SEP”) set
forth in Appendix C, which has the objective of
securing significant environmental or public health
protection and improvements. The Government of
Guam shall complete the SEP in accordance with the
schedule and requirements set forth in Appendix C.
The SEP shall be completed by March 2007. The SEP
shall develop and implement a comprehensive waste
diversion strategy for household hazardous waste on
Guam.
18. The total expenditure for the SEP shall be not
less than the present value of $1,000,000. The
Government of Guam shall include documentation of
the expenditures made in connection with the SEP as
part of the SEP Completion Report described in
Paragraph 21 below.
In the event that the
Government of Guam fails to perform and complete
the SEP as set forth in Appendix C, it shall, in the
same manner as set forth in Paragraph 14, pay a civil
penalty to the United States equal to the difference
between the sum of $1,000,000 and the total SEP
costs that the Government of Guam has incurred and
itemized according to the requirements set forth in
Paragraph 21.
19. The Government of Guam is responsible for the
satisfactory completion of the SEP in accordance with
the requirements of this Decree. The Government of

156a
Guam may use contractors and/or consultants in
planning and implementing the SEP.
20. The Government of Guam hereby certifies that,
as of the date of this Consent Decree, it is not required
by any federal, state or local law or regulation to
perform or develop the SEP; nor is the Government of
Guam required by agreement, grant or as injunctive
relief in this or any other case to perform or develop
the SEP. The Government of Guam further certifies
that is has not received, and is not presently
negotiating to receive, credit in any other enforcement
action for the SEP; nor will the Government of Guam
realize any profit attributable to or associated with
the SEP, or receive any reimbursement for any
portion of the SEP from any other person.
21. SEP Completion Report. The Government of
Guam shall complete the SEP by March 2007. The
Government of Guam shall submit a SEP Completion
Report to the United States within thirty (30) days
after completion of the SEP. The SEP Completion
Report shall contain the following information:
a. A detailed description of the SEP as
implemented;
b. A description of any implementation problems
and the solutions thereto;
c. An itemization of all SEP costs and acceptable
evidence of such costs;
d. Certification that the SEP has been completed
pursuant to the provisions of this Consent Decree,
including Appendix C;
e. A description of the environmental and public
health benefits resulting from implementation of
the SEP (with a quantification of the benefits and
pollutant reduction to the extent feasible); and

157a
f. Copies of any training materials, brochures,
databases, or software relating to the SEP.
22. Periodic Reports. While the SEP is being
planned and implemented, the Government of Guam
shall submit quarterly reports to U.S. EPA describing
the progress of the SEP within twenty-one (21) days
after the end of each Calendar Quarter.
23. Following receipt of the SEP Completion
Report described in Paragraph 21 above, U.S. EPA
will do one of the following in writing:
a. Accept the SEP Completion Report; or
b. Reject the SEP Completion Report, notifying
Government of Guam in writing of deficiencies in
the SEP Completion Report. If U.S. EPA rejects
SEP Completion Report, the Government of Guam
shall have thirty (30) days from the date of receipt
of U.S. EPA’s notice in which to correct any
deficiencies and submit a revised SEP Completion
Report.
If U.S. EPA rejects a revised SEP
Completion Report, it shall notify the Government
of Guam about the rejection. The Government of
Guam shall be subject to stipulated penalties in
accordance with Paragraph 12(c) herein for each
day after receipt of U.S. EPA’s notice of rejection of
the revised SEP Completion Report until an
acceptable SEP Completion Report is submitted to
U.S. EPA.
24. If U.S. EPA rejects the SEP Completion Report
pursuant to Paragraph 23(b), U.S. EPA shall permit
the Government of Guam the opportunity to object in
writing to the notification of deficiency within ten (10)
days of receipt of such notification. U.S. EPA and the
Government of Guam shall have an additional thirty
(30) days from the receipt by U.S. EPA of the

158a
notification of objection to reach agreement relating
to U.S. EPA’s notice of deficiency. If agreement
cannot be reached on any issue in the notice of
deficiency within this thirty (30) day period, U.S. EPA
shall thereafter provide a written statement of its
decision to the Government of Guam, which decision
shall be final and binding. Any such decision shall
not be subject to Dispute Resolution.
The
Government of Guam agrees to comply with any SEPrelated requirements imposed by U.S. EPA’s written
decision.
25. If upon receipt of the SEP Completion Report,
U.S. EPA determines in its sole discretion that part
or all of the SEP has not been implemented in
accordance with this Consent Decree, including
Appendix C, and any statements of work, U.S. EPA
may require the Government of Guam: (1) to repeat
any deficient tasks; or (2) if specific tasks set forth in
Appendix C were not performed at all, to perform such
tasks. U.S. EPA shall provide any such requirement
to the Government of Guam in writing.
26. The Government of Guam bears the burden of
segregating eligible SEP costs from costs not eligible
for SEP credit. Any non-segregable cost evidence (i.e.,
containing both eligible SEP costs and costs not
eligible for SEP credit) shall be disallowed in its
entirety. “Acceptable evidence” includes invoices,
purchase orders, or other documentation that
specifically identifies and itemizes the individual
costs of the goods or services for which payment is
made. Cancelled drafts are not acceptable evidence
unless such drafts specifically identify and itemize
the individual costs of the goods or services for which
payment is made. Each submission required under
this Section shall be signed by an official with

159a
knowledge of the SEP and shall bear the certification
language set forth in Paragraph 42 below.
27. The Government of Guam hereby agrees that
if, in estimating the cost of the SEP, it did not subtract
the estimated savings achieved from deducting the
cost of each SEP in calculating state and federal
taxes, any funds expended by the Government of
Guam in the performance of each SEP shall not be
deductible for purposes of such taxes.
The
Government of Guam, at the time of completion of the
SEP, shall submit to the United States written
certification than any funds expended in the
performance of each SEP have not been and will not
be deducted for purposes of such taxes.
28. In the event the Government of Guam does not
spend the present value attributed to a SEP pursuant
to Paragraph 18 above, the Government of Guam
shall perform additional work on the SEP, as set forth
in Appendix C, such that the total expenditures on the
SEP equals or exceeds the required present value of
the SEP. If the Government of Guam performs the
additional work as required by this Paragraph, it
shall not be subject to the civil penalty set out in
Paragraph 18.
29. Any public statement, oral or written, in print,
film, or other media made by the Government of
Guam making reference to the SEP shall include the
following language, “This project was undertaken in
connection with the settlement of a civil enforcement
action taken by the United States for violations of the
Clean Water Act.”
VIII. RIGHT OF ENTRY
30. U.S. EPA and its contractors and consultants
shall have the authority to enter Ordot Dump and any

160a
facility related to the SEP at all reasonable times,
upon proper presentation of credentials.
This
provision in no way limits or otherwise affects any
right of entry held by U.S. EPA pursuant to applicable
federal or territorial laws, regulations, or permits.
IX. FORCE MAJEURE
31. The Government of Guam shall perform all
requirements of this Consent Decree in accordance
with the time schedules set forth except to the extent,
and for the period of time, that such performance is
prevented or delayed by events which constitute a
force majeure. The schedule set forth in Paragraph 9
above for the construction of a new municipal solid
waste landfill is not based on, or dependent upon, the
existence of any contractual arrangements the
Government of Guam may or may not have, now or in
the future, for the construction and operation of a new
landfill or incinerator.
32. For the purposes of this Consent Decree, a force
majeure is defined as any event arising from causes
beyond the control of the Government of Guam and
that cannot be overcome by diligent and timely efforts
of the Government of Guam, including its contractors.
Economic hardship, normal inclement weather, and
increased costs of performance shall not be considered
events beyond the reasonable control of the
Government of Guam for purposes of determining
whether an event is force majeure. The requirement
that the Government of Guam exercise diligent and
timely efforts to fulfill its obligations includes using
best efforts to anticipate any force majeure event and
best efforts to address the effects of any potential force
majeure event (1) as it is occurring and (2) following

161a
the potential force majeure events, such that delay is
minimized to the greatest extent possible.
33. In the event of a force majeure, the time of
performance of the activity delayed by the force
majeure shall be extended by U.S. EPA for the time
period of the delay attributable to the force majeure.
An extension of one compliance date based on a
particular incident does not necessarily result in an
extension of a subsequent compliance date or dates.
The Government of Guam must make an individual
showing of proof regarding each delayed incremental
step or other requirement for which an extension is
sought. The Government of Guam shall adopt all
reasonable measures to avoid or minimize any delay
caused by a force majeure.
34. When an event occurs or has occurred that may
delay or prevent the performance of any obligation
under this Consent Decree, the Government of Guam
shall notify by telephone the Manager, Pacific Islands
Office, Region 9, (415) 972-3774, or the Guam
Program Manager, Pacific Islands Office, Region 9,
(415) 972-3770, within 72 hours of Government of
Guam’s knowledge of such event.
Telephone
notification shall be followed by written notification
made within SEVEN (7) days of Government of
Guam’s knowledge of the event.
The written
notification shall fully describe: the event that may
delay or prevent performance; reasons for the delay;
the reason the delay is beyond the reasonable control
of the Government of Guam if Guam believes the
event constitutes a force majeure; the anticipated
duration of the delay; actions taken or to be taken to
prevent or minimize the delay; a schedule for
implementation of any measures to be taken to
mitigate the effect of the delay; and the time needed

162a
to implement any dependent activities. For purposes
of this Section, the Government of Guam shall be
deemed to have knowledge of anything it or its
contractors knew or should have known.
35. Failure of the Government of Guam to comply
with the force majeure notice requirements provided
in Paragraph 34 for any delay in performance will be
deemed an automatic forfeiture of its right to assert
that the delay was caused by a force majeure.
36. After receiving written notification from the
Government of Guam of a force majeure, U.S. EPA
shall determine whether the Government of Guam’s
request for delay is justified and U.S. EPA shall notify
the Government of Guam of its determination in
writing.
U.S. EPA’s failure to respond within
THIRTY (30) days to a request for delay by the
Government of Guam shall be deemed a denial of that
request. If the Government of Guam disagrees with
U.S. EPA’s determination, the Government of Guam
may initiate dispute resolution procedures pursuant
to Section X (Dispute Resolution).
37. The Government of Guam shall bear the
burden of proving that any delay or violation of any
requirement of this Consent Decree was caused by
circumstances beyond its control, or any entity under
its control, including consultants and contractors, and
that the Government of Guam could not have
reasonably foreseen and prevented such violation.
The Government of Guam shall also bear the burden
of proving the duration and extent of any delay or
violation attributable to such circumstances.
X. DISPUTE RESOLUTION
38. The Dispute Resolution procedures of this
Section shall be the exclusive mechanism to resolve

163a
disputes arising under or with respect to the Consent
Decree. However, the procedures set forth in this
Section shall not apply to actions by the United States
to enforce obligations by the Government of Guam
under this Consent Decree that have not been
disputed in accordance with this Section.
39. If the Government of Guam disputes any
determination made by U.S. EPA under this Consent
Decree, the Government of Guam shall send a written
notice to U.S. EPA and DOJ outlining the nature of
the dispute, submitting all supporting information
and document relating to the dispute, describing its
proposed resolution, and requesting informal
negotiations to resolve the dispute. Such period of
informal negotiations shall not extend beyond
FIFTEEN (15) days from the date when notice was
received by U.S. EPA and DOJ unless the parties
agree otherwise in writing.
40. If the informal negotiations are unsuccessful,
the disputed determination by U.S. EPA shall control,
unless the Government of Guam files a motion with
this Court for dispute resolution. Any such motion
must be filed within TWENTY (20) days after
termination of informal negotiations and must be
concurrently sent to U.S. EPA and DOJ. The United
States shall then have THIRTY (30) days to respond
to the Government of Guam’s motion. In any such
dispute resolution proceeding, the Government of
Guam bears the burden of proving that U.S. EPA was
arbitrary and capricious.
XI. NOTIFICATION
41. Except as otherwise specifically stated, all
notices and submissions from the Government of
Guam to U.S. EPA required by this Consent Decree

164a
shall be sent via express mail or similar service with
a return receipt requested, or, in the alternative, by
both fax and e-mail, and addressed to:
Manager, Pacific Islands Office (CMD-6)
U.S. Environmental Protection Agency, Region 9
75 Hawthorne Street
San Francisco, CA 94105
Fax: (415) 947-3560
e-mail: machol.ben@epa.gov
42. All notices and submissions to U.S. EPA shall
be signed and affirmed by a responsible official of the
Government of Guam using the following certification
statement:
I certify under penalty of law that I have examined
and am familiar with the information submitted in
this document and all attachments and that this
document and its attachments were prepared
either by me personally or under my direction or
supervision in a manner designed to ensure that
qualified and knowledgeable personnel properly
gathered and presented the information contained
therein. I further certify, based on my personal
knowledge or on my inquiry of those individuals
immediately responsible for obtaining the
information, that the information is true, accurate,
and complete. I am aware that there are significant
penalties for submitting false information,
including the possibility of fines and imprisonment
for knowing and willful submission of a materially
false statement.
43. All notices and submissions to the Government
of Guam required by this Consent Decree shall be sent
to:

165a
Attorney General of Guam
Guam Judicial Center, Suite 2-200E
120 West O’Brien Drive
Hagatna, Guam 96910
Fax: (671) 472-2493
e-mail: law@mail.justice.gov.gu
Director, Department of Public Works
542 North Marine Drive
Tamuning, Guam 96911
Fax: (617) 649-6178
e-mail: dpwdir@mail.gov.gu
Administrator, Guam Environmental Protection
Agency
15-6101 Mariner Avenue
Tiyan, Guam 96913
Fax: (671) 477-9402
e-mail: fcastro@guamepa.govguam.net
44. All notices and submissions to DOJ required by
this Consent Decree shall be sent to:
United States Attorney
District of Guam
Sirena Plaza
108 Hernan Cortez Ave., Suite 500
Hagatna, Guam 96910
Fax: (671) 472-7215
e-mail: mikel.schwab@usdoj.gov
Section Chief, Environmental Enforcement
Section
D.J. Ref. 90-5-1-1-06658 (Mullaney)
U.S. Department of Justice
301 Howard Street, Suite 1050
San Francisco, CA 94105
Fax: (415) 744-6476
e-mail: robert.mullaney@usdoj.gov

166a
XII. MISCELLANEOUS
45. Entry of this Consent Decree and compliance
with the requirements herein shall be in full
settlement and satisfaction of the civil judicial claims
of the United States against the Government of Guam
as alleged in the Complaint filed in this action
through the date of the lodging of this Consent
Decree. This Consent Decree in no way relieves the
Government of Guam of any criminal liability.
46. Nothing in this Consent Decree shall limit the
ability of the United States to enforce any and all
provisions of applicable federal laws and regulations
for any violations unrelated to the claims in the
Complaint or for any future events that occur after
the date of lodging of this Consent Decree.
47. The United States does not guarantee that
implementing the relief described in this Consent
Decree will ensure compliance with the Clean Water
Act. This Consent Decree in no way affects the
Government of Guam’s responsibilities to comply
with all applicable federal and territorial laws and
regulations.
48. Except as specifically provided herein, the
United States does not waive any rights or remedies
available to it for any violation by the Government of
Guam of federal and territorial laws and regulations.
49. Except as provided herein, each party shall
bear its own costs and attorney’s fees in this action.
Should the Government of Guam subsequently be
determined to have violated the terms and conditions
of this Consent Decree, then the Government of Guam
shall be liable to the United States for any costs and
attorney’s fees incurred by the United States in any

167a
actions against it for noncompliance with this
Consent Decree.
50. This Consent Decree contains the entire
agreement between the parties and no statement,
promise, or inducement made by any of the parties or
agent of the parties that is not contained in this
written Consent Decree shall be valid or binding, and
this Consent Decree may not be enlarged, modified, or
altered except by using procedures described in this
Consent Decree.
51. The Attorney General of the Government of
Guam and the Assistant Attorney General for
Environmental and Natural Resources Division of the
Department of Justice each certify that he is fully
authorized to enter into the terms and conditions of
this Consent Decree, to execute the document, and to
legally bind the party he represents to this document.
52. The Government of Guam shall identify, on the
attached signature page, the name, address and
telephone number of an agent who is authorized to
accept service of process by mail on behalf of that
party with respect to all matters arising under or
relating to this Consent Decree. The Government of
Guam hereby agrees to accept service in that manner
and to waive the formal service requirements set forth
in Rule 4 of the Federal Rules of Civil Procedure and
any applicable local rules of this Court, including, but
not limited to, service of summons.
XIII. RECORD RETENTION
53. In addition to any state or federal requirements
relating to record retention, the Government of Guam
shall retain at least one legible copy of all records,
documents, reports or plans required by its permit or
which relate to its performance under any provision

168a
of this Consent Decree and any documentation which
the Government of Guam relied on in preparing such
records, documents, reports or plans, for a period of
five (5) years from the date of such record, document,
report, or plan, or underlying documentation, or until
two (2) years after termination of this Consent
Decree, whichever is later.
54. Not less than sixty (60) days prior to
destruction of any reports or documents created
pursuant to the requirements of this Consent Decree
and any documents used to create such submittals,
the Government of Guam shall notify the U.S. EPA
and DOJ in writing, as provided in Section XI, that
destruction of documents is planned and make such
records available to the United States for inspection,
copying or retention. This notification will identify
the nature of the documents and their storage
location or locations. The Government of Guam shall
not claim that any such reports or documents are
confidential or privileged.
55. Within fifteen (15) days of a written request
from the United States, the Government of Guam
shall provide the United States with copies of the
documentation underlying any document, report or
plan submitted pursuant to this Consent Decree, or
any documents, reports or plans retained pursuant to
Paragraph 53.
XIV. TERMINATION
56. This Consent Decree shall remain in effect
until the later of: (1) one year after the Government
of Guam completes all activities contained in Sections
III, IV, and VII; or (2) the resolution of any matters
pending in this Court regarding this Consent Decree.

169a
57. If the Government of Guam believes that the
requirements of Paragraph 56 have been met, the
Government of Guam may request that the United
States make a determination that this Consent
Decree may be terminated. Any such request shall be
in writing and include a certification that the
applicable requirements have been met.
58. If the United States agrees that the
requirements of Paragraph 56 have been met, the
United States will notify the Government of Guam
and the Court that the Consent Decree has
terminated.
59. Until termination of this Consent Decree, the
Court shall retain jurisdiction to handle any disputes
that arise under this Consent Decree.
60. The parties agree to the foregoing Consent
Decree and agree that the Consent Decree may be
entered upon compliance with the public notice
procedures set forth at 28 C.F.R. § 50.7, which states
that the public shall have THIRTY (30) days to
comment on this Consent Decree, and upon notice to
this Court from DOJ requesting entry of this Consent
Decree. The United States reserves its right to
withdraw consent to this Consent Decree based upon
comments received during the public notice period.
The Government of Guam consents to entry of this
Consent Decree without further notice to the Court.
XV. MODIFICATION
61. There shall be no material modifications of this
Consent Decree without the written approval of the
parties to this Consent Decree and the approval of the
Court. All non-material modifications, which may
include extensions of the time frames and schedules
for performance of the terms and conditions of this

170a
Consent Decree and certain modifications to the
attachments, may be made by agreement of the
parties and shall be effective upon filing by the United
States of such modifications with the Court.
XVI. FINAL JUDGMENT
62. Upon approval and entry of this Consent
Decree by the Court, the Consent Decree shall
constitute a final judgment pursuant to Federal Rules
of Civil Procedure 54 and 58.
ORDER
IT IS SO ORDERED this 11th day of February,
2003.
/s/ [illegible]
United States District Judge
Notice is hereby given
that this document was
entered on the docket on
02/12/04.
No separate
notice of entry on the
docket will be issued by
the Court.

RECEIVED
Dec – 3 2003
DISTRICT COURT
OF GUAM
HAGATNA, GUAM

Mary L.M. Moran
Clerk, District Court of Guam
By: /s/ [illegible]
Deputy Clerk

02/12/04
Date

171a
For the United States of America, Plaintiff:
Dated: 11/7/03

/s/ Kelly A. Johnson
THOMAS L. SANSONETTI
[Acting] Assistant Attorney General
Environmental & Natural
Resources Division
ROBERT D. MULLANEY
Environmental Enforcement
Section
Environment & Natural Resources
Division
United States Department of
Justice
LEONARDO M. RAPADAS
United States Attorney
Districts of Guam and NMI
(671) 472-7332

Dated: 11/26/03

/s/ Mikel W. Schwab
MIKEL W. SCHWAB
Assistant U.S. Attorney

Dated: 11/20/03

/s/ John Peter Suarez
JOHN PETER SUAREZ
Assistant Administrator for
Enforcement
U.S. Environmental Protection
Agency

172a
Dated: 11/05/03

/s/ [illegible]
WAYNE NASTRI
[initials] Regional Administrator
U.S. Environmental Protection
Agency, Region 9

OF COUNSEL:
JULIA JACKSON
Assistant Regional Counsel
U.S. Environmental Protection Agency
75 Hawthorne Street
San Francisco, CA 94105
For the Government of Guam, Defendant:
Dated: 10/20/03

/s/ Douglas B. Moylan
DOUGLAS B. MOYLAN
Attorney General of Guam
Guam Judicial Center, Suite 2-200E
120 West O’Brien Drive
Hagatna, Guam 96910
(671) 475-3324

Dated: 10/21/03

/s/ Felix P. Camacho
FELIX P. CAMACHO
Governor of Guam

Dated: 10/20/03

/s/ Jose Morcilla, Jr.
JOSE MORCILLA, JR.
Interim Director, Department of
Public Works

173a
Dated: 10/20/03

/s/ Fred Castro
FRED CASTRO
Administrator
Guam Environmental Protection
Agency

Agent for service of process:
Douglas B. Moylan
Attorney General of Guam
Guam Judicial Center, Suite 2-200E
120 West O’Brien Drive
Hagatna, Guam 96910
(671) 475-3324

